<html>
<title> - PERSPECTIVES ON INTERSTATE AND INTERNATIONAL SHIPMENTS OF MUNICIPAL SOLID WASTE</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
  PERSPECTIVES ON INTERSTATE AND INTERNATIONAL SHIPMENTS OF MUNICIPAL 
                              SOLID WASTE
=======================================================================

                                HEARING

                               before the

          SUBCOMMITTEE ON ENVIRONMENT AND HAZARDOUS MATERIALS

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 1, 2001

                               __________

                           Serial No. 107-61

                               __________

      Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house



                        U.S. GOVERNMENT PRINTING OFFICE
74-852                          WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001                              















                    COMMITTEE ON ENERGY AND COMMERCE

               W.J. ``BILLY'' TAUZIN, Louisiana, Chairman

MICHAEL BILIRAKIS, Florida                 JOHN D. DINGELL, Michigan
JOE BARTON, Texas                          HENRY A. WAXMAN, California
FRED UPTON, Michigan                       EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida                     RALPH M. HALL, Texas
PAUL E. GILLMOR, Ohio                      RICK BOUCHER, Virginia
JAMES C. GREENWOOD, Pennsylvania           EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California                FRANK PALLONE, Jr., New Jersey
NATHAN DEAL, Georgia                       SHERROD BROWN, Ohio
STEVE LARGENT, Oklahoma                    BART GORDON, Tennessee
RICHARD BURR, North Carolina               PETER DEUTSCH, Florida
ED WHITFIELD, Kentucky                     BOBBY L. RUSH, Illinois
GREG GANSKE, Iowa                          ANNA G. ESHOO, California
CHARLIE NORWOOD, Georgia                   BART STUPAK, Michigan
BARBARA CUBIN, Wyoming                     ELIOT L. ENGEL, New York
JOHN SHIMKUS, Illinois                     TOM SAWYER, Ohio
HEATHER WILSON, New Mexico                 ALBERT R. WYNN, Maryland
JOHN B. SHADEGG, Arizona                   GENE GREEN, Texas
CHARLES ``CHIP'' PICKERING, Mississippi    KAREN McCARTHY, Missouri
VITO FOSSELLA, New York                    TED STRICKLAND, Ohio
ROY BLUNT, Missouri                        DIANA DeGETTE, Colorado
TOM DAVIS, Virginia                        THOMAS M. BARRETT, Wisconsin
ED BRYANT, Tennessee                       BILL LUTHER, Minnesota
ROBERT L. EHRLICH, Jr., Maryland           LOIS CAPPS, California
STEVE BUYER, Indiana                       MICHAEL F. DOYLE, Pennsylvania
GEORGE RADANOVICH, California              CHRISTOPHER JOHN, Louisiana
CHARLES F. BASS, New Hampshire             JANE HARMAN, California
JOSEPH R. PITTS, Pennsylvania
MARY BONO, California
GREG WALDEN, Oregon
LEE TERRY, Nebraska

                  David V. Marventano, Staff Director
                   James D. Barnette, General Counsel
      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

          Subcommittee on Environment and Hazardous Materials

                    PAUL E. GILLMOR, Ohio, Chairman

JAMES C. GREENWOOD, Pennsylvania     FRANK PALLONE, Jr., New Jersey
STEVE LARGENT, Oklahoma              EDOLPHUS TOWNS, New York
GREG GANSKE, Iowa                    SHERROD BROWN, Ohio
JOHN SHIMKUS, Illinois               GENE GREEN, Texas
  (Vice Chairman)                    KAREN McCARTHY, Missouri
HEATHER WILSON, New Mexico           THOMAS M. BARRETT, Wisconsin
VITO FOSSELLA, New York              BILL LUTHER, Minnesota
ROBERT L. EHRLICH, Jr., Maryland     LOIS CAPPS, California
STEVE BUYER, Indiana                 MICHAEL F. DOYLE, Pennsylvania
GEORGE RADANOVICH, California        JANE HARMAN, California
CHARLES F. BASS, New Hampshire       HENRY A. WAXMAN, California
JOSEPH R. PITTS, Pennsylvania        PETER DEUTSCH, Florida
MARY BONO, California                JOHN D. DINGELL, Michigan,
GREG WALDEN, Oregon                    (Ex Officio)
LEE TERRY, Nebraska
W.J. ``BILLY'' TAUZIN, Louisiana
  (Ex Officio)

                                  (ii)










                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Berlekamp, Timothy B., Director, Recycling Division of 
      Mahoning County, Ohio......................................    94
    Bonior, Hon. David E., a Representative in Congress from the 
      State of Michigan..........................................    53
    Davis, Hon. Jo Ann, a Representative in Congress from the 
      State of Virginia..........................................    54
    Harding, Russell J., Director, Department of Environmental 
      Quality, State of Michigan.................................    67
    Hess, David E., Secretary, Department of Environmental 
      Protection, State of Pennsylvania..........................    58
    Jones, Christopher, Director, Environmental Protection 
      Agency, State of Ohio......................................    62
    Kanjorski, Hon. Paul E., a Representative in Congress from 
      the State of Pennsylvania..................................    47
    Kaplan, Lori, Commissioner, Department of Environmental 
      Management, State of Indiana...............................    70
    Lhota, Joseph J., Deputy Mayor, City of New York.............    74
    Moran, Hon. James P., a Representative in Congress from the 
      State of Virginia..........................................    49
    Parker, Bruce, President and CEO, National Solid Waste 
      Management Association.....................................    86
    Rogers, Ervin, Chairman, Board of Supervisors, Gloucester, 
      Virginia...................................................    91
    Rogers, Hon. Mike, a Representative in Congress from the 
      State of Michigan..........................................    42
    Woodham, Thomas, Vice Chairman, Lee County, South Carolina...    97
Material submitted for the record by:
    Fasulo, Joseph E., General Manager,, Allied Waste, letter 
      dated August 9, 2001, enclosing material for the record....   105
    O'Conner, James E., President and Chief Executive Officer, 
      Republic Services, Inc., letter dated August 14, 2001, 
      enclosing material for the record..........................   114
    Skinner, Thomas V., Director, Illinois Environmental 
      Protection Agency, letter dated July 31, 2001, enclosing a 
      statement for the record...................................   117

                                 (iii)

  











  PERSPECTIVES ON INTERSTATE AND INTERNATIONAL SHIPMENTS OF MUNICIPAL 
                              SOLID WASTE

                              ----------                              


                       WEDNESDAY, AUGUST 1, 2001

              House of Representatives,    
              Committee on Energy and Commerce,    
                        Subcommittee on Environment and    
                                       Hazardous Materials,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2123, Rayburn House Office Building, Hon. Paul E. Gillmor 
(chairman) presiding.
    Members present: Representatives Gillmor, Greenwood, 
Shimkus, Fossella, Buyer, Bass, Pallone, Towns, McCarthy, 
Barrett, Luther, Doyle, and Dingell (ex officio).
    Staff present: Amit Sachdev, majority counsel; Jerry Couri, 
policy coordinator; Hollyn Kidd, legislative clerk; and Dick 
Frandsen, minority counsel.
    Mr. Gillmor. We have had a quorum check in, so we will call 
the committee to order and proceed. And today our subcommittee 
will consider the issue of interstate and international 
shipment and disposal of municipal solid waste. This issue has 
bedeviled Congress for the last decade as Members of Congress 
from exporting States have fought to retain the status quo, and 
States involuntarily receiving waste have sought change.
    The alignment of members on this issue in the past has 
reflected geography rather than ideological split between 
Republicans and Democrats. If former speaker Tip O'Neill's 
famous quotation about all politics being local needs any 
illustration, this issue is it.
    Congress first started delving into this issue almost 15 
years ago after the Supreme Court struck down restrictions of 
the interstate shipment of waste in Philadelphia v. New Jersey. 
The Court found that a ban on out-of-State waste was a 
regulation of commerce which violated the Commerce Clause of 
our Federal Constitution. While some of our witnesses here 
today disagree with that ruling, and similar rulings which have 
been made by lower courts, I believe it is warranted to explore 
the movements of solid waste between States and countries and 
see if congressional action is needed.
    Presently, States are important 32 million tons of waste, 
or well over 14 percent of all waste generated in the United 
States. The amount of these types of shipments has been growing 
rapidly. They are 13 percent higher than they were only 2 years 
ago and more than twice what was being imported for disposal as 
recently as 1993. My own State of Ohio has seen an increase of 
imports over the past decade with the most recent figure 
showing a 700,000 ton increase in waste imports over the last 2 
years alone.
    With the trend showing this much waste being carried on 
taxpayer financed roads from State to State, we need to ensure 
safe transportation of waste, adequate capacity for local, 
regional, and national needs and environmental protections that 
ensure the groundwater and soil are protected from leaching 
trash.
    Before I came to Congress 12 years ago, when I was a member 
of the Ohio State legislature, I was involved in the passage of 
what was the most forward-looking waste disposal law at that 
time. And I personally feel that each town and State needs to 
develop a comprehensive solid waste management plan and take 
responsibility for handling the trash that is generated inside 
its borders.
    As a net importer of solid waste, Ohioans have resented 
being dumped on by entities who not only did not build their 
own landfills but don't have to live with the consequences. 
However, I also recognize that we have to be realistic about 
geography and the demographics of many places that do not have 
the land mass available to exercise the type of solid waste 
management that is commensurate to its population. These places 
should not be shut down if they are making reasonable attempts 
to responsibly address their disposal needs. In fact, many of 
these States import as well as export a sizable amount of 
waste. In addition, I think it is important that towns that 
want out-of-State waste should not be excluded from getting it.
    In some cases, the current law has had the undesirable 
effect of rewarding the environmentally irresponsible--those 
who do not make the commitment to handle their waste--and it 
can also punish the environmentally responsible who do make the 
commitment to handle their own waste only to see their 
facilities filled from out-of-State waste. Many people have 
characterized this debate as NIMBY or ``Not in my backyard.'' I 
have sometimes called it NIMBY YIMBY, or ``Mine in my backyard, 
yours in your backyard.''
    But, essentially, the tension here is not over State or 
international borders; it is whether within the universe of 
trash disposal market forces lead to the type of choices that 
will benefit our constituents in the long run. And rarely do we 
in Congress get to make decisions that are ordinarily reserved 
for city council and county boards. I believe that today's 
witnesses will help us survey the issues from the public and 
private perspectives, as well as identify certain places in 
legislation that can either be helpful or hurtful in creating a 
safe, efficient, environmentally responsible, and cost-
effective solid waste disposal system in our country. And I 
want to thank our witnesses for coming.
    I would also like to ask unanimous consent that all members 
have five legislative days to submit opening statements for the 
record, and I would like to recognize our distinguished ranking 
member of the committee, Mr. Pallone of New Jersey, for a 
statement.
    Mr. Pallone. Thank you, Mr. Chairman, for holding this 
hearing on interstate waste, which is a very important issue 
for this subcommittee. I understand the chairman's desire to 
proceed expeditiously with this hearing, but I already 
mentioned to him, and I did want to mention now, that members 
should have witnesses' testimony 48 hours in advance of the 
hearing so that we can adequately prepare. And I know the 
chairman, himself, only received the testimony last night, but 
in the future I hope that we can do better.
    Since I came to Congress in the 1980's, Congress has 
considered, but not enacted, numerous bills that would allow 
States to impose restrictions on interstate waste shipments, a 
step the Constitution prohibits in the absence of congressional 
authorization. Over this period, there has been a continuing 
interest in knowing how much waste is being shipped across 
State lines for disposal and what States might be affected by 
proposed legislation. Hopefully, in today's hearing, we will be 
able to shed some light on these questions.
    The difficulty in this debate, however, comes from a lack 
of information. Not all States require reporting of waste 
imports, and very few track exports, so the available data are 
incomplete and in some cases represent estimates rather than 
actual measurements. We do, however, know that the total 
interstate waste shipments continue to rise due to the closure 
of older local landfills and the increasing consolidation of 
the waste management industry. In the last 5 years alone, 
reported imports have more than doubled, from 14.5 million tons 
in 1993 to 32 million tons in the year 2000.
    Everyone creates trash, and we need an efficient, 
equitable, environmentally sound way to expose of it--I should 
say to dispose of it. Whether you are in the Northeast, the 
Midwest, the Southeast or the Pacific Coast region, waste 
shipments inevitably have become an issue. My home State of New 
Jersey has not been absent from the debate. As a matter of 
fact, it was a case against our State, the city of Philadelphia 
v. New Jersey, that prompted the legal rulings which clarified 
Congress' need to act in the area of interstate waste.
    For the third year in a row, New Jersey is on the list of 
major importers with 836,154 tons of municipal solid waste 
imports in 1999. New Jersey is still a major exporter of waste 
as well. Estimates show that MSW exports totaled more than 4 
million tons in 2000. But the absence of flow control has led 
waste-to-energy facilities in New Jersey to search for ways to 
replace local waste now being disposed elsewhere, and as a 
result, large amounts of waste are entering New Jersey from New 
York.
    As previously stated, the movement of waste also represents 
the growing regionalization and consolidation of the waste 
industry. In 1999, the 3 largest firms, Waste Management, 
Allied Waste, and Republic Services, accounted for 81 percent 
of total revenues of the industry's 100 largest firms. These 
large firms offer integrated waste services, from collection to 
transfer station to disposal site, in many locations. Often 
they ship waste to their own disposal facility across a border 
rather than dispose of it in an in-State facility owned by a 
rival. As small landfills continue to close, the number of U.S. 
landfills have declined 51 percent between 1993 and 1999, and 
this trend toward regionalization and consolidation is likely 
to continue. The amount of waste being shipped across State 
lines for disposal may rise in the process.
    Again, it is for these reasons, Mr. Chairman, I believe it 
is important that Congress pursue a legislative solution. I 
know that our colleagues on the panel are here because they 
have various bills in that regard. And when we return in 
September, obviously, I think we need to move on some of this 
legislation. I look forward to hearing from the witnesses. And 
thank you, Mr. Chairman.
    Mr. Gillmor. The Chair recognizes the gentleman from 
Indiana for an opening statement.
    Mr. Buyer. Thank you, Mr. Chairman, and I thank my 
colleagues for coming to testify. I hold here in my hand a 
bumper sticker. It says, ``Indiana, the Landfill State.'' It is 
really the sentiments as Michigan receiving Canada trash or 
Ohio receiving New Jersey trash, Pennsylvania, Virginia. 
Everybody wants to send their trash somewhere else except, I 
guess, in their backyard, as the chairman had said.
    Small towns in my home State and like yours have been 
overtaken by thousands of tractor trailers loaded with out-of-
State municipal waste. In 1996, at its peak, the State of 
Indiana received in excess of 1.8 million tons of trash from 
other States. My district--actually, it was within 4 miles of 
my childhood home, across the Tippecanoe River, Liberty 
Township, there is a mountain in the middle of the plains of 
Indiana, and it is packed with Chicago trash. Now, I don't mind 
Chicago coming and bringing their commerce and coming to our 
lakes, but you know what? Don't leave your trash; take it back 
with you. Especially, I don't mind if you come and camp, then 
we will take care of your trash. But don't send all your trash 
from Chicago to Indiana.
    While the situation has improved somewhat in terms of 
volume, the idea that my State or any State should be the 
dumping grounds of another State's trash is, I find, 
objectionable. The State of Indiana has acted responsibly to 
manage trash generated within our State. We created solid waste 
districts, and we are trying to manage and be responsible in 
how we handle the solid waste. It makes it very difficult when, 
in Indiana, we try to act responsibly but other States that 
have not taken the initiatives just dump it upon us. I find 
that also objectionable.
    The Supreme Court has ruled that trash is a commodity 
subject to the Commerce Clause and because it can be shipped 
across State lines unimpeded by the interest of the receiving 
State to provide for the safekeeping of its own environment. 
This view is very frustrating for the importing States. No one 
here would take their trash and dump it in their neighbor's 
yard, but this is exactly what is happening to Indiana, 
Michigan, Ohio, Pennsylvania, and others.
    Imported trash creates environmental problems, safety 
problems, community developmental difficulties. States should 
have some ability to address these needs without running afoul 
of the Commerce Clause which is why I have co-sponsored Mr. 
Greenwood's bill. This bill would give the State of Indiana and 
other States the tools it needs to ensure that its environment 
is not just spoiled by the actions of other States that are not 
acting responsibly. The idea to give importing States some 
tools to address these issues is not a new one. In fact, in the 
103d Congress, the Congress passed such legislation by an 
overwhelming vote of 368 to 55. I also recall how painful it 
was in 1996. Senator Dan Coates was the leader of this issue in 
the Senate. It passed the House, it went to the Commerce 
Committee, and I recall standing in the basement of the Capitol 
before the Commerce Committee in 1996 when it was my own 
congressman, John Meyers of Indiana, in the Energy and Water 
Appropriations Subcommittee, that killed the legislation, and I 
have never forgotten that.
    Finally, Mr. Chairman, I am very pleased that you granted 
my request and invited the commissioner of the Indiana 
Department of Environmental Management to present testimony 
here today. Ms. Lori Kaplan and I have discussed the issue in 
the past, and I know the subcommittee will greatly appreciate 
the views she presents on behalf of Indiana. And I welcome my 
colleague's testimony and yield back my time.
    Mr. Gillmor. The gentleman yields back. We have been joined 
by the distinguished ranking member of the full committee, the 
gentleman from Michigan, who is recognized for an openings 
statement.
    Mr. Dingell. Mr. Chairman, thank you. And I appreciate this 
hearing and commend you for conducting it. I also welcome our 
panel and others who will be here to testify on this very 
important question. I want to welcome this legislative hearing, 
and I want to express my pleasure that it will focus this 
subcommittee and this committee's attention on three pieces of 
legislation designed to provide our communities and States 
relief from unwanted imports of municipal solid waste.
    In 1994, this committee and the House of Representatives, 
on a broadly bipartisan basis, passed interstate waste 
legislation which was the predecessor to H.R. 1213. The broad 
support for such legislation was demonstrated by a vote in 
favor of 368 to 55. The inability of our localities and States 
to protect themselves from unwanted waste has become clear 
after the Supreme Court's 1992 decision in the case of Fort 
Gratiot Sanitary Landfill v. Michigan Department of Natural 
Resources--a matter of irritation for both myself and Mr. 
Bonior.
    Since then, for almost a decade, State after State in all 
areas of this country have searched for a constitutional means 
to control shipments of solid waste from other States and 
countries. The result of this effort has been costly and 
unproductive litigation. State laws have been repeatedly struck 
down by the courts, because under the Commerce Clause of the 
Constitution, only Congress has the authority to grant States 
and local jurisdictions the right to regulate waste imports 
into those jurisdictions. The recent opinion of the Fourth 
Circuit Court of Appeals striking down Virginia's law is but 
the latest example.
    Action by this committee and this Congress is long overdue. 
While this committee has failed to act for the past 6 years, 
the problem has worsened in Michigan and in almost every other 
State. In the 1-year period from 1999 to 2000, total imports 
into Michigan increased by 1 million tons of unwanted waste. 
Out-of-State imports now represent almost 20 percent of all 
trash disposed of in Michigan. Slightly less than one-half of 
the imports come from Canada. And I might note that there is 
very little control over what is in that waste and whether it 
is ordinary waste or whether it constitutes hazardous waste or 
just what. Nationwide, waste imports have more than doubled 
since 1993.
    There has been a dramatic consolidation within the waste 
management industry. According to Congressional Research 
Services, the three top firms account for 80 percent of the 
revenues. In addition to filling precious landfill capacity, 
the thousands upon thousands of truckloads of out-of-State and 
Canadian waste add to the already congested highways in 
Michigan and other States, spur concerns over traffic safety, 
create wear and tear on the roads, pollute our air, threaten 
our environment, and outrage our citizens.
    Our citizens and communities demand control over imported 
garbage. For the past 6 years bipartisan supporters of H.R. 
1213, including Governors and local officials from many States, 
have been seeking action by this Congress and by this 
committee. I would ask unanimous consent at this point that 
their correspondence be included in the hearing record at this 
point.
    Mr. Gillmor. Without objection.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T4852.001
    
    [GRAPHIC] [TIFF OMITTED] T4852.002
    
    [GRAPHIC] [TIFF OMITTED] T4852.003
    
    [GRAPHIC] [TIFF OMITTED] T4852.004
    
    [GRAPHIC] [TIFF OMITTED] T4852.005
    
    [GRAPHIC] [TIFF OMITTED] T4852.006
    
    [GRAPHIC] [TIFF OMITTED] T4852.007
    
    [GRAPHIC] [TIFF OMITTED] T4852.008
    
    [GRAPHIC] [TIFF OMITTED] T4852.009
    
    [GRAPHIC] [TIFF OMITTED] T4852.010
    
    [GRAPHIC] [TIFF OMITTED] T4852.011
    
    [GRAPHIC] [TIFF OMITTED] T4852.012
    
    [GRAPHIC] [TIFF OMITTED] T4852.013
    
    [GRAPHIC] [TIFF OMITTED] T4852.014
    
    [GRAPHIC] [TIFF OMITTED] T4852.015
    
    [GRAPHIC] [TIFF OMITTED] T4852.016
    
    [GRAPHIC] [TIFF OMITTED] T4852.017
    
    [GRAPHIC] [TIFF OMITTED] T4852.018
    
    [GRAPHIC] [TIFF OMITTED] T4852.019
    
    [GRAPHIC] [TIFF OMITTED] T4852.020
    
    [GRAPHIC] [TIFF OMITTED] T4852.021
    
    [GRAPHIC] [TIFF OMITTED] T4852.022
    
    [GRAPHIC] [TIFF OMITTED] T4852.023
    
    [GRAPHIC] [TIFF OMITTED] T4852.024
    
    [GRAPHIC] [TIFF OMITTED] T4852.025
    
    [GRAPHIC] [TIFF OMITTED] T4852.026
    
    [GRAPHIC] [TIFF OMITTED] T4852.027
    
    [GRAPHIC] [TIFF OMITTED] T4852.028
    
    [GRAPHIC] [TIFF OMITTED] T4852.029
    
    [GRAPHIC] [TIFF OMITTED] T4852.030
    
    Mr. Dingell. While the scheduling of this hearing 
unfortunately competes with floor action on the committee's 
energy bill, which I must attend to, I want to commend you, Mr. 
Chairman, and I want to commend the subcommittee and the 
ranking member for addressing this issue. It is enormously 
important, not only to the environment but to our citizens. I 
look forward to action on these bills when Congress returns 
after the August recess. I thank all the witnesses at the table 
for their participation and assistance, and I thank you for 
holding this hearing, Mr. Chairman.
    Mr. Gillmor. The gentleman from New Hampshire.
    Mr. Bass. Thank you, Mr. Chairman. I appreciate your 
holding this hearing. It is interesting to see that almost 
every State is an importer of solid waste. It is hard to find 
the ones that are exporters. Obviously, they exist. My home 
State of New Hampshire imports close to half a million tons of 
solid waste from other States and perhaps from Canada each 
year, so I will particularly interested and sensitive to the 
issues that are involved here. They are problems that are not 
going to go away, and I think this committee ought to face them 
head on and make a determination as to where we are going to 
go. I appreciate the chairman's holding the hearing, and I look 
forward to the testimony.
    Mr. Gillmor. The gentlelady from Missouri.
    Ms. McCarthy. Mr. Chairman, I do not have remarks this 
morning. Kansas is working cooperatively with Missouri on the 
western side of the State and with Illinois and Missouri on the 
eastern side of the State. We seem to have good regional 
cooperation. I do have a concern about the caps issue. I look 
forward to the testimony of the witnesses, and I am glad that 
they are here. And I yield back the balance of my time.
    Mr. Gillmor. The gentlelady yields back. The gentleman from 
Illinois, the vice chairman of the subcommittee, Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. I, too, will be 
brief. I want to welcome my colleagues here. Very interesting 
issue. My particular part of the world has Illinois being third 
largest exporter of solid waste but being the fifth largest 
importer of solid waste.
Of course, we know Chicago exports a lot, but I border the St. 
Louis Metropolitan Area where we receive a lot of St. Louis 
Metropolitan trash.
    So I am betwixt and between and befuddled, and I look 
forward to the hearing as we move this legislation forward. 
Thank you, Mr. Chairman.
    Mr. Gillmor. The gentleman from Minnesota.
    Mr. Luther. Thank you, Mr. Chairman. I will be brief as 
well out of respect for our distinguished panel here today.
    The issue of interstate transportation of solid waste is a 
major issue which warrants the attention of our committee. 
Today, States are virtually helpless in dealing with the 
increasing problem of their landfills being filled or quickly 
filling to capacity. However, Mr. Chairman, I do want to share 
with you one concern I have, which is that the scope of this 
hearing does not deal with what may very well be at the heart 
of this problem; that is, we simply generate too much waste and 
have too little land. Authorizing States to impose importation 
bans will do little, if anything, to solve this basic 
fundamental problem.
    As such, Mr. Chairman, I hope that in future hearings we 
can deliberate on alternative means of grappling with the 
creation, transportation, and disposal of solid waste. For 
instance, Mr. Greenwood's flow control bill, H.R. 1214, which 
is not the subject of this hearing, is very worthy of the 
subcommittee's attention, as are other solid waste measures, 
such as the promotion of recycling and the moderation of waste 
generation.
    So those conclude my comments, and I look forward to the 
testimony. Mr. Chairman, thank you again for holding this 
hearing.
    Mr. Gillmor. The chairman now recognizes for an opening 
statement the gentleman from Pennsylvania, Mr. Greenwood, who 
has been a leader in dealing with this issue and is the 
principal sponsor of one of the subject to this hearing. Mr. 
Greenwood.
    Mr. Greenwood. Well, thank you, Mr. Chairman, and than you 
so much for holding this hearing, and I am not going to be 
brief, because I have been waiting for this hearing for a 
while, and I am going to plague you with the full 5-minute 
version.
    Again, thank you, Mr. Chairman, for scheduling this hearing 
on the prospectives on interstate and international shipments 
of municipal solid waste. The influx of municipal waste into 
Pennsylvania continues to escalate, and Pennsylvania continues 
to be the largest importer of municipal waste in the country--a 
dubious honor Pennsylvania wants very much to relinquish. But 
the U.S. Supreme Court has spoken, and Pennsylvania and no 
other State will have the ability to control waste crossing 
State borders until Congress grants States that authority. That 
is why I, joined by many of my colleagues, introduced H.R. 
1213, the Solid Waste Interstate Transportation Act of 2001.
    Legislation on the interstate shipment of interstate waste 
has been introduced in every Congress since the 100th. My 
involvement began 8 years ago tomorrow when, as a freshman 
Member of Congress, I joined other Members in the introduction 
of H.R. 4779, which would allow States and local governments to 
regulate the transport of municipal solid waste. That 
legislation passed the House. It was held up in the Senate by 
one lone Senator. Unfortunately, we haven't come that close to 
enacting interstate waste legislation since that Congress, but 
I am hopeful that will change in this Congress.
    There is some industry sentiment that we should leave the 
waste market open and let the free enterprise system work. I 
can tell you that Pennsylvania tried that approach and it did 
not work. In 1986, Pennsylvania exported--in 1986, Pennsylvania 
exported 3 million tons of municipal waste. In 1988, 
Pennsylvania did the responsible thing: Reenacted legislation 
requiring counties to plan for the management and disposal of 
municipal waste and instituted a mandatory recycling program. 
As a member of the Pennsylvania State senate at that time, I 
played an active role in the development of that legislation. 
Pennsylvania successfully fought the NIMBY syndrome, and over 
the next several years sited a number of new facilities.
    By 1993, Pennsylvania exported only about 800,000 tons of 
waste, but our reward for creating additional capacity for 
ourselves was that we were now importing almost 4 million tons 
of municipal waste. By 1995, that figure grew to almost 5.2 
million tons, and by 2000, the State received 9.8 million tons 
of municipal waste from other States. That figure represents 40 
percent of all of the municipal waste disposed in our State and 
almost 30 percent of the national total interstate shipments. 
Pennsylvania exports only about 500,000 tons of municipal 
waste, and about 75 percent of that waste goes to a facility 
that happens to be located near the Pennsylvania/Ohio border.
    The problem is that other States have not acted as 
responsibly. Instead about 20 other States send their waste to 
Pennsylvania. Our neighbor to the north, New York, continues to 
be the largest exporter of waste to Pennsylvania. In 2000, 
almost half of the out-of-State municipal waste disposed in 
Pennsylvania came from New York. Despite the already large 
amount, waste exporters from New York are expected to grow--
waste exports are expected to grow even further with the 
closure this past March of New York's Fresh Kills Landfill, the 
City's last disposal facility.
    Without the ability to exert some control over the amount 
of out-of-State waste coming into Pennsylvania, the facilities 
we have permitted will fill to capacity, and that simply is not 
fair. Even when solid waste is landfilled or incinerated using 
state-of-the-art technology, there are environmental costs and 
risks associated with disposal. Additional truck traffic, air 
and water quality concerns, and changes in the landscape make 
disposal facilities unwanted neighbors in all communities. 
Every State should take the responsibility to dispose of its 
trash using the best available technology. No State should be 
able to avoid this responsibility, and no State should bear 
more than its fair share of the burden unless it chooses to.
    We will stand the best chance of moving forward with waste 
reduction, recycling, and environmentally sound technology when 
all States are stakeholders in the outcome. The solution is for 
other States to site facilities within their own borders. As 
long as States can continue to export unlimited waste to other 
States, they will have no incentive to site facilities. And I 
might add, until H.R. 1213 is scheduled for markup, States like 
New York have no incentive to come to the table in attempt to 
reach some type of compromise with the big impacted States like 
Pennsylvania, Virginia, Ohio, Indiana, and Michigan.
    I look forward to hearing from the panel of our colleagues, 
each with a special interest in this issue. I am pleased to 
welcome my colleague from Pennsylvania, Mr. Kanjorski, who 
shares my concern about Pennsylvania's problem, and I 
appreciate my friend, Congresswoman Davis' interest in 1213. We 
have already discussed some changes she would like to see in 
the bill to address specific problems in her home State of 
Virginia, and I look forward to continuing to work with her to 
address her concerns. I also look forward to hearing from the 
heads of the environmental agencies in four of the impacted 
States, and I would like to thank them for working with us in 
the development of H.R. 1213.
    I would especially like to take the opportunity to welcome 
Dave Hess who was appointed Pennsylvania secretary of 
Environmental Protection by Governor Ridge in March of this 
year. I have known David for a number of years. He served as 
the director of the Environment and Energy Committee in the 
Pennsylvania senate while I served in the senate. And he has 
served in several positions at the DEP. I can't think of anyone 
more worthy of Governor Ridge's appointment to that position.
    Mr. Chairman, I want to thank you again for scheduling this 
hearing, and just as I thank you today for holding the hearing, 
I am going to be consistently urging you to schedule H.R. 1213 
for subcommittee consideration. States like Pennsylvania and 
Ohio have suffered long enough. I look forward to working with 
you to provide States the relief they want and we need. Thank 
you, Mr. Chairman.
    Mr. Gillmor. The gentleman from New York, Mr. Towns.
    Mr. Towns. Thank you very much, Mr. Chairman, for holding 
this hearing. I hope that by the end of this hearing many of my 
distinguished colleagues will agree with me. I also hope that 
today's hearing will clarify many of the misunderstandings 
about the relationship between municipal solid waste exporters 
and municipal solid waste importers. I know that this issue has 
been a popular one for many, many years, but too often the 
arguments are framed in the context of a zero sum game. For 
example, people say, ``New York is dumping on blah, blah, blah, 
blah, blah, blah.'' Translation: ``New York is sending its 
garbage to our State, and we have no say in the process, and we 
derive no benefits from it.'' Well, while this may sound good 
and be an easy argument to make, but it is not true. The fact 
of the matter, as my friend and the honorable first deputy 
mayor of the city of New York will testify to later, as a part 
of New York City's plan to close Fresh Kills Landfill, New York 
City is required to enter into host community agreements with 
the importing community before a single ton of MSW is moved.
    In addition, these host communities' agreements call for 
fees to be paid to the host community. These fees can often 
make a significant difference to communities providing funding 
for a variety of services and amenities that would not 
otherwise be affordable. Also increased environmental standards 
at landfill facilities have increased the cost of landfills 
significantly and resulted in the closing of numerous small 
facilities. This change in the industry has created more of a 
regional approach to waste management and placed increasing 
pressures on landfills to attract additional customers to make 
their landfills more financial viable.
    The fact that these landfills are receiving out-of-State 
MSW has no doubt played a significant part in their ability to 
keep their tipping fees low and save their communities 
significant amounts of money. Today, we will hear some 
remarkable claims, protectionist fears, and other misguided but 
well-intentioned efforts to change the marketplace after 
numerous companies have made long-term financial plans based on 
the current competitive market system. I urge my colleagues to 
take a very serious look at this and to avoid the temptation to 
throw large urban communities into chaotic situations as they 
desperately try to replace well thought-out solid waste 
management plans based on current systems.
    On that note, Mr. Chairman, I yield back, and I am anxious 
and eager to listen to the testimony coming from the witnesses. 
We have a distinguished panel before us.
    Mr. Gillmor. The gentleman yields back. The gentleman from 
New York, Mr. Fossella.
    Mr. Fossella. Thank you, Mr. Chairman. And let me echo and 
agree with my good friend from New York, Mr. Towns. I agree 
with much of what he said, particularly the ``blah, blah, blah, 
blah, blah, blah.''
    I think, in all seriousness, this is an important issue, 
and I know it is important for a lot of folks, not only on this 
committee but of this panel and others who will testify, 
including, as Mr. Towns said, the first deputy mayor, Joe 
Lhota, who is going to articulate, I think real well, that we 
need to strike the right balance. And I know my good friend, 
Mr. Greenwood, acknowledged the closing of the Fresh Kills 
Landfill, which is an important step because it was an 
environmental nightmare, an unlined landfill in the city of New 
York, and we did the right thing by closing it, in large credit 
to folks like Mayor Guliani and Governor Pataki.
    Having said that, going forward, I think we need to look at 
the other side of this equation, and that is that garbage is 
generated by human beings, and it needs to go somewhere. And 
that as far as New York City is concerned and New York State, 
it is not going anywhere that it is not wanted by a local 
community. And those communities are accepting it willingly in 
environmentally safe landfills or resource recovery facilities, 
incinerators or whatever you want to call them. And to them it 
is a business arrangement. It is the free flow of goods across 
the interstate highway system. It means jobs; it is a tax base.
    I don't know of any situation, for example, that the city 
of New York has entered into over the years where the local 
community has not been willing to accept the garbage willingly. 
In fact--and I hope Mr. Lhota mentions it later--I would be 
curious to know how many local communities have willingly 
offered to accept, for example, New York City's garbage above 
and beyond what we have done. One community, maybe 15, 12, I 
don't know, have responded to the RFPs.
    I think it would be a mistake if we move down the road to 
limit a State's ability to send goods across the highway 
system, for example, or the river, because you begin to slide 
down the old slippery slope of limiting other goods that can 
flow freely across the States. I don't want to take away from 
the deep concern that a lot of members have about trying to 
limit garbage coming into their districts. I think that 
argument is subordinate to the overall one that Congress should 
not override or make null and void the agreements of 
municipalities that willingly accept our garbage.
    And, Mr. Chairman, I look forward to this distinguished 
panel, as well as others, but I just think, as I say, there is 
another side to this argument. New York is not alone. Many 
States in this country export garbage, and when Congress steps 
in to try to limit those States' ability to do so--if they want 
to enter into voluntary agreements or a regional approach, 
fine; I think that is a healthy thing. But if Congress is going 
to step in and limit those States' ability to export garbage, I 
think they are going to have unintended consequences, and a lot 
of folks are going to wake up and realize it is going to be a 
big mistake. So I thank you, Mr. Chairman, and I yield back.
    Mr. Gillmor. The gentleman from Wisconsin.
    Mr. Barrett. Thank you, Mr. Chairman. Every freshman 
legislator probably at every level knows the importance of 
making the argument in favor of a level playing field. And 
probably nowhere is that more vivid than this discussion, 
because rather than level playing fields what we have right now 
are really unlevel garbage dumps throughout the country. And 
that is why those of us who come from States that are importers 
of garbage view this as such an unfair issue. It is interesting 
for me to hear my colleagues, and I think this is obviously not 
a partisan issue; it is really an issue of whether your State 
is an importer or an exporter of garbage.
    What concerns me, again coming from a State that is an 
importing State, is the perception in Wisconsin is that we, as 
a State, have developed a very good recycling law, one of the 
more progressive laws in the country, encouraging consumers and 
businesses to recycle. Some of the States from which we import 
garbage have chosen not to take that route and have not passed 
laws that encourage recycling, and in some instances have 
actually closed down recycling facilities.
    I think what this committee and this Congress has to do is 
focus on that issue to make sure that States are not given a 
pass where they decide that the easier course of action is 
simply to export garbage rather than to work responsibly. 
Because at the end of the day, the garbage is either going to 
be put in a landfill or it is going to be recycled. And if we 
are concerned about that, I think we have to do more for 
recycling.
    So I hope that that is part of the focus of this hearing. I 
certainly agree with the gentlemen and the gentlewomen from 
Pennsylvania who have been leading this charge that we should 
move forward on H.R. 1213, and I hope that the Chair will 
consider that bill for a markup as well. And I yield back the 
balance of my time.
    Mr. Gillmor. The gentleman yields back. If there are no 
further opening statement, I would like to call our first 
panel. Our first panel is made up of five Members of Congress 
who have a special interest in this legislation. The 
distinguished group includes Representative Mike Rogers, who 
has introduced H.R. 1927 to place limits on waste coming into 
the United States from Canada. Next we have Representative Paul 
Kanjorski of Pennsylvania, who has authored H.R. 667, also the 
subject of our hearing. Panel also includes Representative Jim 
Moran of Virginia and Dave Bonior of Michigan. And we have 
Representative Jo Ann Davis who has put in a great deal of 
effort in this subject over the last couple of months.
    I would like to welcome you all to the committee, and the 
Chair would propose that we will start on the Chair's left and 
proceed down the line. If any of the members have a need to 
depart earlier, we will be happy to change that schedule.
    Representative Rogers.

 STATEMENTS OF HON. MIKE ROGERS, A REPRESENTATIVE IN CONGRESS 
     FROM THE STATE OF MICHIGAN; HON. PAUL E. KANJORSKI, A 
REPRESENTATIVE IN CONGRESS FROM THE STATE OF PENNSYLVANIA; HON. 
JAMES P. MORAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
 VIRGINIA; HON. DAVID E. BONIOR, A REPRESENTATIVE IN CONGRESS 
     FROM THE STATE OF MICHIGAN; AND HON. JO ANN DAVIS, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF VIRGINIA

    Mr. Mike Rogers. Well, thank you, Mr. Chairman and 
distinguished members. I appreciate Mr. Greenwood's efforts 
over the years. In trying to tackle this difficult issue, I 
have co-sponsored your bill as well and do believe this is a 
serious issue. But to my friends from New York, Mr. Fossella 
and Mr. Towns, I think have articulated why 8 years later we 
are still debating the flow of interstate trash in America. 
There are more export States by net than there are import 
States by net. That poses a problem in the debate in ideology.
    With that in mind, we have a problem in Michigan and a 
serious problem that is only going to get worse in the very 
near future. I have some great friends to the north, in Canada. 
I appreciate the import of their beer, their hockey players. I 
do not appreciate the import of their dirty diapers and 
Canadian bacon scraps. And we are getting a ton of it 
literally, Mr. Chairman.
    You know, we are a water State; we are very porous. The 
aquifers run from stem to stern in Michigan. So siting 
landfills is a difficult challenge for us. Our DEQ Director is 
here today and is going to explain what Michigan goes through. 
And we have taken the steps early on to be aggressive in 
meeting our needs for landfill space. We have about 15 years of 
landfill space, and we take into consideration, obviously, all 
the siting requirements that go with it. Many of you have 
mentioned it: traffic problems, site source pollution, we have 
talked about aquifers and watershed and all of the things that 
affect it when you site these individual places. And Canada, 
unfortunately, has not stepped up to that plate.
    And the problem they pose is this: Just in the last year 
alone there has been an 80 percent increase--80 percent 
increase--in the amount of trash flowing from Canada to the 
United States, specifically Michigan. We went from a 15-year 
supply of landfill space that is likely to get cut in half. And 
here is the dangerous part of that: In 2003, Toronto, who is 
the largest producer of exports to Michigan, is closing both of 
its landfills. After 2003, they will have no landfill space 
capacity, and we know where that trash is coming. It is coming 
to Michigan.
    What we have done is developed a bill that is pretty 
narrowly crafted. It is crafted with NAFTA in mind, with GATT 
in mind, with the Basil Convention in mind. And in each one of 
those agreements, every nation that signed understood that 
there were environmental and conservation issues that needed to 
be dealt with by every nation individually. I don't think 
anyone in good conscience can argue that siting a landfill, 
accepting trash does not have an environmental or a 
conservation impact on your State and our communities. We think 
that we have cleared those hurdles in both NAFTA, GATT, and the 
Basil Convention even though we have not officially signed on--
the Senate has not confirmed that convention.
    We had a case in Michigan recently, Mr. Chairman, involving 
a landfill, where Canada sends a great deal of trash, and the 
case was settled in 1997. It was found that a high percentage 
of PCBs, which is prohibited from being dumped in our 
landfills, were present in the trash that was being delivered, 
as well as cemetery waste, which included, ``soiled coffins.'' 
Quite frankly, Mr. Chairman, I don't even want to know what 
soiled coffins are, but we were getting a bunch of them. It was 
creating a significant problem. That landfill was actually 
fined through a court case by one of our environmental groups 
there about $114,000 for its PCB problems and this cemetery 
waste, including soiled coffins.
    The problem is there is no good way to inspect the trash 
that comes in from Canada. There is no good way. Our Governor 
at one time proposed putting border inspectors on the borders 
trying to inspect trash coming in. It is almost impossible to 
do it. What this bill does, very narrowly, is say, ``Look, we 
are going to give the States the ability to regulate, if not 
prohibit, the trash coming in from foreign nations.'' Mr. 
Chairman, you have trash coming into Ohio from the Virgin 
Islands. Washington State takes Canadian trash and gets a bunch 
of it. New York, actually, one of the large exporters, gets 
Canadian trash.
    We have got our own problems and our own difficulties here 
in America to try to work out our differences about who should 
take our neighbors' trash. What we are saying is let us have a 
little reasonableness here and allow these States to tell 
places like Canada, ``No.'' And we can do it. BANCORP v. Board 
of Governors, Mr. Chairman, very clearly states that Congress 
has the ability to give the States this authority. We ought to 
do it; we can do it now. Let us continue the debate on Mr. 
Greenwood's bill, but let us save Michigan 4.2 million cubic 
yards of trash every year. Thank you, and I yield back the 
balance of my time.
    [The prepared statement of Hon. Mike Rogers follows:]
 Prepared Statement of Hon. Mike Rogers, a Representative in Congress 
                       from the State of Michigan
    Chairman Gillmor, Ranking Member Pallone, and Subcommittee Members, 
I appreciate the opportunity to testify today on the issue of municipal 
solid waste and its treatment by federal and state governments. I 
understand it has been several years since a congressional committee 
has taken a close look at what is an increasing problem for state 
governments--handling the often large volume of trash imports coming 
across their borders.
    Mr. Chairman, as you and your subcommittee colleagues are aware, I 
have introduced bipartisan legislation this session designed to give 
states the tools to address the tidal wave of foreign trash crashing 
against their borders. First, I will describe the problems associated 
with the increase in foreign waste imports in the State of Michigan. 
Second, I will describe attempts by state officials to combat those 
problems. Third, I will discuss H.R. 1927, legislation I have sponsored 
to give states the authority to prohibit or restrict the importation of 
foreign municipal waste consistent with judicial and constitutional 
precedent. Lastly, I will discuss the international law implications of 
my proposal.
                       i. the problem in michigan
A. Dramatic Increase in Importation of Canadian Municipal Waste
    Michigan's importation of municipal waste from Canada has been a 
growing problem in my state for a number of years as the amount of 
trash imported from Canada increases almost exponentially. In 1999, 
more than two million cubic yards of foreign municipal waste was 
imported to the State of Michigan from our Canadian neighbors. Last 
year, that number grew to 4.2 million cubic yards--an increase of 80 
percent. Today, nearly 45 percent of the municipal waste imported to 
Michigan originates in Canada.
    The situation is especially acute in a number of the counties I 
represent in Michigan's Eighth Congressional District. For example, 100 
percent of Genessee County's municipal waste imports come from Canada, 
as do nearly all of Washtenaw County's imports, and garbage imported to 
Oakland County accounts for almost half of its imported waste.
    Michigan's ability to meet its own landfall disposal needs is 
seriously compromised by the dramatic increase in Canadian municipal 
waste imports. Based on current usage statistics, it is estimated that 
Michigan holds capacity for 15-17 years of disposal in its landfills. 
However, with the dramatic increase in the importation of municipal 
waste, Michigan's current capacity could be filled in less than 10 
years.
    While Michigan has done an excellent job planning for its waste 
disposal needs, our neighbors in the Canadian Province of Ontario have 
not. Ontario's waste shipments to Michigan and other states are growing 
as the Toronto area closes its two remaining landfills. At the 
beginning of 1999, Toronto area municipalities were managing about 2.8 
million tons of waste annually, of which about 350,000 tons were 
shipped to Michigan. However, according to the Congressional Research 
Service, by 2003, there will be virtually no local disposal capacity. 
Barring unforeseen developments, most of this waste is expected to be 
sent to Michigan for disposal.
B. Environmental Impact of Increased Waste Importation
    In addition to rapidly depleting the State of Michigan's landfill 
capacity, a number of environmental concerns are implicated by Canadian 
municipal waste imports.
    One, Canadian trash does not have to meet the same environmental 
requirements imposed upon municipal waste created within Michigan's own 
borders. In fact, the Public Interest Research Group in Michigan filed 
a lawsuit against the City of Toronto for sending municipal waste to 
Michigan that was contaminated with PCB's, which subsequently leaked 
into our groundwater supply.
    Two, Michigan is the only state in the Union to have a ten-cent 
deposit on many beverage containers. Michigan has placed a high 
priority on recycling and in turn, these items are noticeably absent 
from many of Michigan's landfills. However, landfills that accept 
Canadian municipal waste may have significant amounts of these items 
that would have been recycled in Michigan. In short, Michigan's 
recycling efforts are being undermined.
    Three, with Michigan's landfill disposal capacity rapidly dwindling 
due to increased foreign imports, action will be needed to address the 
state's future disposal needs. Siting new landfills requires 
significant green space that would otherwise not have to be developed. 
At a time when many in Congress, and in our state legislatures, are 
attempting to preserve green spaces and rural areas, siting new 
landfills to accommodate foreign waste is completely contrary to that 
goal.
    Lastly, in addition to the problems associated with creating more 
landfills, such as leakage into groundwater, noise pollution, and foul 
odors, the increased importation of waste creates indirect problems. 
One concern often voiced by my constituents and other Michigan citizens 
is the heavy truck traffic associated with increased Canadian imports. 
In fact, the Mayor of Windsor, Ontario has publicly stated his concern 
over the damage the large volume of garbage trucks are doing to his 
region's highway infrastructure.
    Led by Governor John Engler and the Michigan Department of 
Environmental Quality, we have done a good job of planning a long-term, 
environmental strategy for waste disposal in Michigan. However, 
disposing of another nation's waste was not a part of that plan. In 
fact, without action in the United States Congress, policymakers in 
states like Michigan are essentially unable to plan accordingly.
C. Other States
    Evidence is growing that other states are not immune from the 
problems of foreign municipal waste imports. Fifteen percent of New 
York and Washington states' imports originate in Canada. Furthermore 
Mr. Chairman, your home State of Ohio receives imports from the Virgin 
Islands, while New Mexico and Texas receive municipal waste imports 
from Mexico.
    I do not testify today to sound an alarm, but the fact is that 
other states are anticipating similar problems with respect to trash 
importation. The fear is that should Michigan's efforts to restrict 
foreign trash imports succeed, states such as Pennsylvania could be 
next. Pennsylvania, like Michigan, has kept costs for waste disposal 
fairly low.
    It is exactly those states with sound planning and low disposal 
costs that the Province of Ontario finds so appealing. As stated 
earlier, whether the result of poor municipal planning or simply a 
``not in my backyard'' position, the City of Toronto is not taking 
necessary action to meet its municipal waste disposal demands. I 
believe that states that have acted responsibly in planning for waste 
disposal should not be forced to have such planning upended by a 
foreign body, which is why Congress should give the States some 
flexibility in controlling foreign waste imports.
                         ii. legislative action
A. State Attempts to Address International Waste Issues
    Mr. Chairman, like yourself and many of our congressional 
colleagues, I had the honor of serving in the state legislature prior 
to my service in Congress. During my service in the Michigan Senate, we 
recognized the problems associated with the influx of foreign and out-
of-state municipal waste and sought numerous legislative solutions.
    For example, Michigan adopted legislation that allowed individual 
counties to make their landfills off-limits to municipal waste from 
other states or nations. Unfortunately, as you will likely hear from 
Michigan's Director of Environmental Quality on the next panel, this 
legislation was ruled unconstitutional by the courts. In striking down 
Michigan's law, the courts followed the landmark City of Philadelphia 
v. New Jersey decision in which the Supreme Court struck down a New 
Jersey statute prohibiting the importation of most out-of-state waste.
    While efforts continue under Michigan's capitol dome in Lansing to 
restrict Canadian municipal waste, these efforts will be extremely 
difficult without support from Washington, D.C. For example, Michigan 
State Senator Ken DeBeaussaert has sponsored legislation to ban 
beverage containers in Michigan landfills. As described earlier, 
Michigan has a very successful deposit program on beverage containers 
and the state's enactment of such legislation would provide a 
significant hurdle for Canadian trash imports to meet. Though the 
feasibility of this legislation deserves further debate, its pursuit 
clearly demonstrates the desire of state policymakers to regulate 
foreign municipal waste and gain some amount of control over waste 
flowing across their borders.
    As a former state senator, I understand that Michigan and other 
state governments know what is best for their citizens when it comes to 
trash imports, but are unequipped to deal with the problem absent 
congressional action. Under H.R. 1927, the Solid Waste International 
Transportation Act, if a state chooses to import trash from Canada or 
any nation, they certainly have that choice. And if the individuals 
elected to represent our constituents in various state legislatures 
want to restrict or limit the influx of foreign waste, my legislation 
allows them that option as well. The bottom line is empowering states 
to make their own decisions.
    iii. h.r. 1927, the solid waste international transportation act
A. Legislative Intent and Constitutional Concerns
    As states have attempted to regulate waste imports, the federal 
courts have declared these state restrictions unconstitutional. If 
states are to have such authority, congressional action is required. 
Given these constitutional difficulties faced by state legislatures and 
governors in addressing foreign waste, I introduced H.R. 1927, which 
gives states the authority to prohibit or restrict the importation of 
foreign trash or waste consistent with judicial and constitutional 
precedent. This bipartisan legislation amends the Solid Waste Disposal 
Act to provide the necessary express statutory command with respect to 
foreign municipal waste.
    As discussed earlier, the 1978 City of Philadelphia v. New Jersey 
decision struck down a state statute that prohibited the importation of 
most out-of-state municipal waste partially on the basis that the 
Federal Solid Waste Disposal Act, had ``no clear and manifest purpose 
of Congress to pre-empt the entire field of interstate waste, either by 
express statutory command, or by implicit legislative design.'' The 
Solid Waste International Transportation Act amends existing federal 
law to provide that express statutory command.
    Additionally, in Northeast Bancorp v. Board of Governors of the 
Federal Reserve System the Supreme Court said ``when Congress so 
chooses, state actions which it plainly authorizes are invulnerable to 
constitutional attack under the Commerce Clause.'' H.R. 1927 would be a 
plain authorization of a state's authority to prohibit or limit 
incoming foreign municipal waste.
B. International Legal Concerns
    In the debate amongst the varying approaches to solving the 
international and interstate waste issue, much is made of international 
trade agreements implicated by allowing state governments the authority 
to regulate foreign municipal waste. I welcome the opportunity to 
address this issue. At the onset it is crucial to note that there is no 
existing legal precedent explicitly prohibiting the aim of H.R. 1927--
giving states the authority to limit or prohibit the importation of 
foreign waste. The fact is that without congressional action, our 
states will never even have the opportunity to tackle the issue in a 
manner consistent with international trade law.
    For example, numerous commentators claim the North America Free 
Trade Agreement (NAFTA) proscribes Congress from granting states the 
authority provided under H.R. 1927. I respectfully disagree. First, it 
is clear that nothing in my legislation violates the principles of 
NAFTA as it only gives the states an opportunity to regulate foreign 
waste. The ball is then in the state's court--so to speak--in that it 
provides states the opportunity to craft reasonable limits consistent 
with international law.
    Under Article 2101 of NAFTA, which incorporates the General 
Exceptions of the General Agreement on Tariffs and Trade (GATT) Article 
XX and its interpretive notes, the United States, a State, or locality 
can place environmental-based restrictions on trade if ``necessary to 
protect human, animal or plant life, or health.'' Once Congress grants 
states the authority under H.R. 1927 consistent with our Constitution, 
the states would have an opportunity to approve legislation consistent 
with the NAFTA exception.
    For example, if a state decides to forbid disposal within its 
borders of any municipal waste containing PCBs because of the 
environmental hazards associated with its contamination of groundwater, 
I would strenuously argue that such a state law would pass 
international muster based on the recognized environmental health 
exception. We should not simply foreclose the option for the states to 
make innovative policy and legal arguments based on their state's 
individual needs. It is possible some states' arguments won't meet 
international law scrutiny and will be shot down, but it is just as 
likely some will survive. The irrefutable fact is that this is an area 
of unsettled law and there is no reason Congress should not give the 
states a chance to define that law and legislate in the best interests 
of their constituents within the environmental health exception to 
NAFTA.
    In addition to environmental measures, another murky area of 
international law is the definitional treatment of solid municipal 
waste. For example, I have been advised by international and domestic 
legal counselors that for NAFTA provisions to apply, the item in 
question must be defined as a ``good.'' While some may claim municipal 
waste is a good, the issue remains unsettled, and states would have the 
ability to argue that the distinctive characteristics of municipal 
waste do not rise to the level of a ``good.'' A good is something that 
upon trade, value can be added to or derived from. By definition, 
foreign solid municipal waste is only coming into a state for disposal. 
This is very different from all other types of waste, such as hazardous 
or industrial-grade waste, which must be processed.
C. Legislative Environment
    As I stated during my introductory remarks, I am very pleased that 
for the first time in several years, Congress is showing a willingness 
to tackle the trash issue head-on. The fact that the Subcommittee has 
three different proposals before it today underscores the urgency for 
congressional action.
    While my legislation only addresses the issue of foreign municipal 
waste, I am certainly cognizant of the ever-present difficulties 
surrounding the treatment of interstate waste. In fact, I applaud the 
efforts of my colleagues to address that difficult issue and have 
joined as a cosponsor to Congressman Greenwood's legislation, H.R. 
1213, to give states and municipalities more control over interstate 
waste. However, given the sensitive political and policy implications 
of interstate waste, I believe Congress may be more successful in 
coming to agreement on the foreign waste issue. H.R. 1927 attempts to 
peal off a small, but significant, part of giving states more control 
over the flow of waste into their borders.
    Again, I thank the Subcommittee for the opportunity to testify and 
would welcome any questions.

    Mr. Gillmor. Mr. Kanjorski.

               STATEMENT OF HON. PAUL E. KANJORSKI

    Mr. Kanjorski. Thank you, Mr. Chairman. I make the 
observation the reason Canada can't handle that waste is it is 
not large enough.
    Mr. Chairman, on my way down here today, one of my staff 
members called attention to one of the famous holidays in 
Pennsylvania--Groundhog Day--and a famous movie was made after 
that. And that is every morning you wake up, you relive the 
entire circumstance. For the last 12 years, I have been on this 
issue introducing legislation, and every time the committee 
does something it reminds me of Groundhog Day. I hope we move 
off that. And regardless of what we do or what this committee 
recommends, I sponsor it. I am the sponsor of a particular 
piece of legislation that is rather simply crafted after the 
low-level radiation legislation. And it basically says every 
State has the responsibility of taking care of its own trash, 
but it can enter into voluntary compacts with neighboring 
States or other States to handle trash in a voluntary compact 
way. That handles everybody's problems.
    Clearly, I represent a district in the State of 
Pennsylvania, and when you listen to the numbers of what we do, 
in the year 2000, 9.8 million tons of municipal waste and 2.5 
million tons of non-hazardous waste from other States. That is 
an increase of 2 million tons in 1 year. Forty-two percent of 
the total waste disposed of in Pennsylvania comes from other 
States. We love to be first and big and important, but we 
really don't want that importance, Mr. Chairman. And I have 
listened to the testimony of my friend Mr. Towns, the other 
members of New York. Look, this should not be a war between the 
States. This is a very practical problem.
    And one of the reasons Pennsylvania gets disadvantaged is, 
unlike other States, we have 2,500 municipalities, 90 percent 
of which are under 3,000 in population. And when a State like 
New York comes in and dangles incredible payments of non-taxes, 
subsidies, and everything else, surely these States--or these 
municipalities are tempted to take this agreement. This is a 
State issue. All of the people of Pennsylvania are interested 
in what is placed in Pennsylvania, regardless of where it is 
placed. And so should the State of New York be that interested, 
and so should the people of the United States be interested.
    When we are dealing with municipal waste we are not dealing 
with a commodity that disappears. Basically, we are the 
stewards of this land, but the future generations will use this 
land, and we have to make good policy decisions that will 
affect well on the environment that they inherit and the lives 
and the quality of their lives as they inherit it. And what we 
do with municipal waste will compound that very problem.
    You know, I would suggest, in listening to some of the 
statements of the members, if we were to allow communities to 
decide whether they could take nuclear waste in this society, I 
can find a lot of poor communities who would opt to take 
nuclear waste. Would we, in the individual States, want to 
accept that? Would the country, as a whole, accept that as good 
public policy? Clearly not.
    Mr. Chairman, I brought an example of something today. 
Municipal waste not only fouls the water, not only contaminates 
the air, but it also kills people. I have a photo I want to 
show you, and I will cover up Mr. Rogers here for a moment so 
that you can see it. This is a picture of Monroe County, 
Pennsylvania, the heart of the Poconos. This is where so many 
of the good people from New York and New Jersey come over to 
visit Pennsylvania and recreate. But on 81 a trash truck 
overturned in January and squashed two Pennsylvanians. That is 
not an unusual sight in Pennsylvania. These trucks run up and 
down this highway every day.
    And what did we find as a result of that? Pennsylvania and 
the Governor--and I compliment them--put into effect Operation 
Clean Sweep. They went in to inspect these trucks, and they 
found hundreds of unsafe trucks. One-third of them had to be 
taken off the road. They had useless breaks, cracked frames, 
and were operating grossly overweight. Operators were arrested 
for drunk driving and driving with suspended licenses. Now that 
is not the responsible actions of out-of-State people.
    What waste has become is out of sight, out of mind culture. 
You don't see, it is covered, it disappears into the land, and 
a result a lot of people don't want to and feel no 
responsibility to take the responsibility for it. Pennsylvania 
should be complimented, Mr. Chairman. It has one of the most 
advanced recycling and disposal systems in this country, but as 
a result we have been punished. And it is time that we reward 
responsible States and not punish them, and give these States 
the ability to control the importation of waste through any of 
the bills that are pending before this committee. I sponsor 
them all, I support them all, but let us move on. We must 
protect the environment, promote local control, promote 
responsible waste management, but most of all protect the 
health and safety of our constituents. Thank you, Mr. Chairman.
    [The prepared statement of Hon. Paul E. Kanjorski follows:]
   Prepared Statement of Hon. Paul E. Kanjorski, a Representative in 
                Congress from the State of Pennsylvania
    Mr. Chairman, I welcome this opportunity to testify before you on 
an issue that has long been of particular concern to me and the 
citizens of Pennsylvania that I represent; the issue of interstate 
shipment of municipal solid waste. I commend you, the ranking member, 
and the committee for your leadership in reviewing a practice that 
threatens our environment and our public health and safety.
    Since the late 1980s the tonnage of interstate trash imports in 
several states across the nation has risen dramatically. In response, I 
have reintroduced legislation that would allow states with 
comprehensive management plans for the disposal of all waste generated 
within their own borders to limit the importation of out-of-state 
trash, and to form voluntary regional compacts with other states to 
import or export their trash. In fact, this bill, H.R. 667, the Solid 
Waste Compact Act, was the first bill to address this important issue 
in the 107th Congress. Additionally, I am an original cosponsor of 
other legislation we will discuss today, H.R. 1213, the Solid Waste 
Interstate Transportation Act, and H.R. 1927, the Solid Waste 
International Transportation Act.
    Total interstate waste shipments continue to increase as older 
local landfills close and the waste management industry consolidates. 
My state of Pennsylvania is forced to accept more garbage from other 
states than any other state in the nation, by far. In 2000, 
Pennsylvania imported 9.8 million tons of municipal solid waste and 2.5 
million tons of other non-hazardous waste from other states, an 
increase of almost 2 million tons from the 10.4 million tons of out of 
state trash imported the previous year. In 1999, out-of-state trash 
made up 42.8% of the annual total waste disposal in my state. This past 
year, 20 other states reported increased imports of out-of-state trash. 
Besides Pennsylvania, states such as Virginia, Michigan, Ohio, Indiana, 
Illinois, Wisconsin, and Oregon share these concerns and each import 
over a million tons of out-of-state trash annually. Further, New 
Hampshire, New York, New Jersey, Kentucky, South Carolina, Georgia, and 
Nevada, each import over a half million tons of out-of-state trash 
annually.
    From my perspective, the legislation offered by my colleagues and 
me is an attempt to put into action two important ideals that are often 
talked about in Washington--protecting the environment and promoting 
local control. It would protect the environment by limiting the current 
practice of transporting garbage hundreds of extra miles from the 
source, which increases air pollution. It would promote local control 
by giving states, which already have the duty to ensure that solid 
waste is disposed of properly, the right to determine whether to accept 
the waste from other states and nations.
    This legislation is all the more crucial in light of the tragic 
loss of two lives in a recent collision in my district with a truck 
carrying out-of-state trash. My district includes part of Monroe 
County, Pennsylvania, where two people were killed last January on 
Interstate 80 when a truck carrying out-of-state garbage lost control 
and crashed into their cars. The driver, who was headed for the 
Keystone Sanitary Landfill near Scranton, Pennsylvania, walked away 
with minor injuries and was charged with two counts of homicide by 
vehicle and two counts of involuntary manslaughter.
    In May 2001, the Pennsylvania Department of Environmental 
Protection, the Pennsylvania Department of Transportation and the 
Pennsylvania State Police launched ``Operation Clean Sweep''--surprise 
trash truck inspections at every landfill, major incinerator, and at 
checkpoints along the Pennsylvania Turnpike and other interstate 
highways. What this major enforcement action discovered were hundreds 
of unsafe trash trucks--86% of the trash trucks had safety and 
environmental violations and more than one-third were taken off the 
road. Vehicles hauling waste into Pennsylvania were found to have two 
of six brakes working, cracked frames, and operating overweight by 
30,000 to 40,000 pounds. Additionally, operators were arrested for 
driving while intoxicated and with suspended licenses. This is a clear 
sign that far too many trash haulers disregard state safety and 
environmental regulations, which can lead to accidents like the tragedy 
on Interstate 80 last January.
    The practice of shipping municipal solid waste thousands of miles 
from its source, to be discarded across state and national boundaries, 
has created an ``out of sight, out of mind'' culture. Because many 
communities do not experience the effects of their waste, there is no 
incentive to implement waste management plans. Efforts to take 
responsibility for local waste by establishing waste prevention 
initiatives, recycling programs, and increased landfill and incinerator 
capacity wane as trash trucks roll out of town. Further, manufacturers 
lack encouragement to consider the waste management implications of 
their products. Products continue to be designed and packaged without 
regard to their volume, toxicity or recyclability.
    Mr. Chairman, Pennsylvania and other states have taken 
responsibility for waste by increasing recycling and landfill capacity 
and should be rewarded, not punished, for taking this responsibility. 
We should work to give states the ability to control the importation of 
waste so we can protect our environment, promote local control, promote 
waste management initiatives, and protect the health and safety of our 
constituents. I again thank you for the opportunity to speak before you 
on an issue that badly needs to be addressed.

    Mr. Gillmor. The gentleman, Mr. Moran.

                STATEMENT OF HON. JAMES P. MORAN

    Mr. Moran. Thank you, Mr. Chairman, and thanks for the 
opportunity to testify in favor of these bills that would 
regulate solid waste, particularly the Greenwood-Dingell bill. 
I hope we can move promptly on this legislation that would 
grant States that authority. While the circumstances in 
Virginia, Pennsylvania, and other States may be very different, 
we are in agreement on the absolute need for a Federal remedy. 
Some States, like the Commonwealth of Pennsylvania, have acted 
responsibly, planned ahead, permitted landfills to address 
their residents' long-term solid waste disposal needs. But, 
unfortunately, Pennsylvania's prudent efforts to create new 
waste disposal capacity for its municipalities were undermined 
by interstate waste haulers who took advantage of the new 
capacity to ship solid waste into the State. In the case of 
Pennsylvania, no good deed appears to have gone unpunished.
    In the case of Virginia, a different story is emerging. 
Unlike Pennsylvania, some government officials within Virginia 
viewed out-of-State as an economic bonanza and encouraged 
development of these landfills. Since the early 1990's, there 
has been a cooperative relationship between interstate waste 
shippers and State and some local officials that is credited 
with producing seven mega landfills. An eighth is now in 
operation and a ninth under consideration.
    These mega landfills have been built and designed to 
receive more than 2,000 tons of trash every day. To put these 
mega landfills in perspective, the one in Sussex County, when 
completed, will be 550 feet tall, the height of the Washington 
Monument; it will cover 3 square miles, or the area of roughly 
1,000 football fields; it will be the single largest geographic 
feature on the entire coastal plain of Virginia.
    Trash trucks hauling this waste present an additional 
transportation hazard. In just 5 short years, Virginia doubled 
the volume of waste it imports. Today, more than 140,000 trash 
trucks and scores of rail cars haul municipal waste, 
incinerator ash, and sewage sludge into Virginia each year. 
Last year, Virginia imported 3,900,000 tons of solid waste, 
ranking it the second largest solid waste importer. To 
achieving this ranking waste haulers overwhelmed local roads 
with trucks, generating noise, dust, and debris 24 hours a day.
    Even more troubling, these permits were granted even though 
the State admits it doesn't have the resources to conduct 
onsite inspections. A 1998 investigative report of the 
Washington Post uncovered very troubling findings that showed 
that the landfills have received medical waste, radioactive 
material, and industrial solvents and pesticides. Given the 
large volume of waste and very lax oversight, there is every 
opportunity for waste haulers to mix household garbage with 
more toxic or hazardous waste.
    In the instance of Virginia, we need Federal legislation to 
help Virginia pursue a more responsible course. The proposals 
pending before this committee are appropriate and timely. 
Unfortunately, in Virginia's case, they don't go far enough. 
Virginia needs the tools and the authority to revisit existing 
agreements that were written and approve to specifically 
accommodate out-of-State trash. I commend my colleague, 
Congresswoman Davis, for identifying four changes that we need 
in the legislation.
    We need to give a State like Virginia the authority to 
impose some type of cap on existing facilities. Shockingly, 
Virginia doesn't impose any time limit on its permits. They 
don't expire and aren't subject to any renewal process, so they 
can go on forever. The States should be given some power to 
regulate host community agreements since the impact of waste 
brought into a State affects more than just the host community. 
States should be given much greater flexibility to select the 
year they establish for the cap. For example, in 1993, that was 
the year that the highest volume of out-of-State trash came in. 
Finally, States should be given the authority to regulate all 
types of solid waste. A high volume of waste imported into 
Virginia is municipal sludge that isn't covered by the pending 
legislation.
    There is also growing concern that the financial assurance 
requirements required by Federal law can be circumvented, and 
they are not worth the paper they are printed on. Some private 
landfill operators in Virginia are self-insured, creating an 
easy loophole that could limit their future liability to cover 
closure and any long-term maintenance costs. If they are 
shielded from future costs, they have no incentive to police 
the waste that they are now receiving.
    From an economic perspective, the only way the cost of 
large volumes of trash traveling such great distances is 
justified is if the full cost, or really the full liability 
created by these mega landfills is deferred into the future. As 
long as disposal remains cheap, safer but more expensive 
disposal options won't be pursued.
    Likewise, these cheap mega landfills undermine local 
recycling and waste minimization efforts. They have undermined 
efforts in Northern Virginia, for example, in my district to 
manage municipal waste through incineration. A diversion of 
locally generated solid waste from Alexandria and Fairfax 
incinerators to the big mega landfills that are so much cheaper 
force the private operator of these incinerators to burn 
industrial waste to maintain a minimum volume of trash that 
they needed for the necessary cash-flow. Restricting out-of-
State trash would restore the waste volumes of trash these 
incinerators need to avoid burning industrial waste. Giving the 
States more power to regulate this waste forces us to confront, 
not defer, these long-term costs.
    There is no easy solution, and States must be responsible 
partners. But the measures pending before this subcommittee do 
offer a start on the road to a more comprehensive solution. I 
congratulate the sponsors of the legislation and urge that we 
move it along as quickly as possible. Thank you, Mr. Chairman.
    [The prepared statement of Hon. James P. Moran follows:]
Prepared Statement of Hon. James P. Moran, a Representative in Congress 
                       from the State of Virginia
    Mr. Chairman, thank you for the opportunity to testify at today's 
hearing on ``Perspectives on Interstate and International Shipments of 
Municipal Solid Waste.''
    I applaud you for conducting this hearing and urge you to move 
promptly on legislation that would grant states the authority to 
regulate out-of-state trash. While the circumstances in Virginia, 
Pennsylvania, and other states may be very different, we are in 
agreement on the need for a federal remedy. Some states like the 
Commonwealth of Pennsylvania have acted responsibly, planned ahead, and 
permitted landfills to address their residents' long-term solid waste 
disposal needs. Unfortunately, Pennsylvania's prudent efforts to create 
new waste disposal capacity for its municipalities have been undermined 
by interstate waste haulers who have taken advantage of this new 
capacity to ship solid waste into the state. In the case of 
Pennsylvania, no good deed appears to have gone unpunished.
    In the case of Virginia, a different story is emerging. Unlike 
Pennsylvania, some government officials within Virginia viewed out-of-
state trash as an economic bonanza and encouraged development of these 
landfills. Since the early 1990s, there has been a cooperative 
relationship between interstate waste shippers and some state and local 
officials that is credited with producing seven mega-landfills. An 
eighth is now in operation and a ninth under consideration. These mega-
landfills have been built and designed to receive more than 2,000 tons 
of trash each day. To put these mega-landfills in perspective, the one 
in Sussex County, when completed will be 550 feet tall, the height of 
the Washington Monument; cover 3 square miles or the area of roughly 
1,000 football fields; and be the single largest geographic feature on 
the coastal plain of Virginia.
    In five short years between 1993-1998, Virginia doubled the volume 
of waste it imports. Today more than 140,000 trash trucks and scores of 
rail cars haul municipal waste, incinerator ash, and sewage sludge into 
Virginia each year. Last year, Virginia imported 3.9 million tons of 
solid waste, ranking it the second largest solid waste importer. In 
achieving this ranking, waste haulers have overwhelmed local roads with 
trucks, generating noise, dust, and debris 24 hours a day.
    Even more troubling, these permits were granted even though the 
state admits it does not have the resources to conduct on site 
inspections of all this waste. A 1998 investigative report published in 
the Washington Post uncovered some troubling findings that showed some 
of these landfills had received medical waste, radioactive material and 
industrial solvents and pesticides. Given the large volume of waste and 
lax oversight, there is every opportunity for waste haulers to mix 
household garbage with more toxic or hazardous waste.
    In the instance of Virginia, we need federal legislation to help 
the Commonwealth pursue a more responsible course. I urge you now to 
help Virginia by enacting legislation granting states the power to 
regulate interstate trash. The proposals pending before this committee 
are both appropriate and timely. Unfortunately, in Virginia's case, 
they may not go far enough. Virginia needs the tools and the authority 
to revisit existing agreements that were written and approved to 
specifically accommodate out-of-state trash. I commend my Virginia 
colleague, Rep. Jo Ann Davis, for identifying four changes that would 
address Virginia's unique situation:
1) We need to give Virginia the authority to impose some type of cap on 
        existing facilities. Shockingly, Virginia does not impose any 
        time limit on its permits. They do not expire and are not 
        subject to any renewal process;
2) The states should be given some power to regulate host community 
        agreements since the impact of waste brought into a state 
        affects more than just the host community;
3) States should also be given greater flexibility to select the year 
        they use to establish the base for capping out-of-state waste. 
        Using 1993 as the base year would have little impact on 
        controlling future waste at some of these landfills in 
        Virginia, since one of the mega-landfills in Virginia received 
        its highest volume of out-of-state trash in 1993; and,
4) Finally, states should be granted the authority to regulate all 
        types of solid waste. A high volume of waste imported into 
        Virginia is municipal sludge that is not covered by pending 
        legislation.
    Mr. Chairman, accommodating these concerns would be very helpful in 
addressing Virginia's burgeoning waste management problem.
    If we do not give the states the authority and provide Virginia 
with an opportunity to make amends for is past shortcomings, I fear we 
will be forced to revisit this issue again in the future. As you know, 
municipal solid waste landfills across the country are already a 
growing public policy concern. The environmental threat posed by these 
local landfills, however, will dwarf those created at mega-landfills 
given their sheer magnitude in size and volume of waste. Already, 
preliminary groundwater testing at several of these mega-landfills has 
found elevated levels of metals raising questions about the reliability 
of these ``high-tech'' liners designed to prevent leaks. In addition, 
there is growing concern that the financial assurancy requirements, 
required by federal law, may be circumvented and not worth the paper 
they are printed on. Some private landfill operators in Virginia are 
self-insured creating an easy loophole that could limit their future 
liability to cover closure and long-term maintenance costs required. If 
they are shielded from future costs, they have no incentive to police 
the waste they now receive.
    From an economic perspective, the only way the cost of large 
volumes of trash traveling such great a distance from its source can be 
justified is if the full cost, or really the full liability created by 
these mega-landfills, is deferred into the future. As long as disposal 
remains cheap, safer but more expensive disposal options will not be 
pursued. Likewise, cheap mega-landfills undermine local recycling and 
waste minimization efforts. These cheap landfills have also undermined 
attempts in Northern Virginia to manage municipal waste through 
incineration. Diversion of locally-generated solid waste from the 
Alexandria and Fairfax incinerators to these mega-landfills has forced 
the private operator of these two incinerators to burn hazardous waste 
to maintain a minimum volume of trash needed to maintain the cash flow. 
Restricting out-of-state trash, would restore the waste volumes of 
trash these incinerators need to avoid burning hazardous wastes.
    Giving the states more power to regulate this waste forces us to 
confront, not defer these long-term costs. There are no easy solutions, 
and states must be a responsible partners. But, the measures pending 
before this subcommittee offer a start on the road to a more 
comprehensive solution.
    Thank you.

    Mr. Gillmor. Thank you, Mr. Moran.
    The Minority Whip of the House, Mr. Bonior.

                STATEMENT OF HON. DAVID E. BONIOR

    Mr. Bonior. Good morning, Mr. Chairman, and thank you for 
the opportunity to address you and the committee this morning. 
I am pleased to be here. I want to commend you and Mr. Pallone 
for the opportunity to speak, and also to thank Mr. Greenwood 
and Mr. Doyle and Mr. Dingell for their leadership on this 
committee.
    I am not going to repeat much of what is said, and it was 
said very well by my colleagues on this panel and others who 
have spoken before me, particularly the situation in Michigan. 
Just to recap, I have been working on this issue with many of 
you now for 10 years. The original case that came before the 
Supreme Court came out of Fort Gratiot Township in my 
congressional district. We, as Mr. Greenwood said, back in 1994 
were successful in passing a bill we put together in the House. 
It failed in the U.S. Senate on the last day after we thought 
it was going to go to the President for his signature. It has 
become a more serious issue each and every year, and I think 
the testimony of Mr. Moran and Mr. Kanjorski, we have just 
heard, shows how out of control this issue has become.
    Let me just say this: In Michigan, we have trucks coming 
over the Ambassador Bridge, which is from Windsor, Ontario into 
Detroit, and the Blue Water Bridge, which is from Sarnia into 
Port Huron in my district. Every 5 to 10 minutes, there is a 
garbage truck that comes across that bridge to dump garbage 
into our State. Last year alone, over 1.2 million tons of 
Canadian trash were dumped into Michigan, 80 percent more than 
the year before. We rank No. 3 in the country for trash 
imports, with over 2.8 million tons of municipal waste crossing 
our borders from other States and from Canada.
    So we are tired of this. And we are tired of the fact that 
we have made efforts to control our solid waste disposal in a 
manner that addresses our environmental concerns in our own 
State. For instance, we are one of the first States in the 
Union to establish a deposit on cans and bottles. We did that 
when I was back in the legislature in 19, I believe 74, if I 
recall correctly. We have taken action on polychlorinated 
biphenyls, PCBs. I authored that legislation when I was there 
back in 1974 that prohibits the sale, manufacture, and use of 
this chemical. Now we are finding, according to my colleague, 
Mr. Rogers, that this is coming back into our State via Canada 
and the trucks that are dumping their garbage into our State. 
This is not acceptable; we want it changed. We are trying to be 
responsible in our own community. We hope others would be in 
theirs.
    We need to move on the legislation that is before us today 
and the others that have been suggested here this morning. And 
I would hope, Mr. Chairman, that you would proceed in the days 
and weeks ahead, especially when we return from the recess, to 
process this legislation so that the full House can express its 
concern again. I thank you for the time, and I wish you well. 
Thank you for your own personal concern on this in Ohio.
    [The prepared statement of Hon. David E. Bonior follows:]
      Prepared Statement of Hon. David E. Bonior, Democratic Whip
    I am pleased to be here today with my colleagues and to testify in 
support of the Solid Waste Interstate Transportation Act, H.R. 1213. I 
wish to commend Representatives Greenwood, Doyle and Dingell for their 
leadership on this important issue. I also want to thank Chairman 
Gillmor and Ranking Member Pallone for holding toady's hearing.
    We have been working on this issue for a number of years now, and 
it is as important to Michigan families today as it was 10 years ago. 
Our local communities need to have the ability to make their own solid 
waste disposal decisions. Those of us in Michigan have done a lot to 
reduce the amount of trash we throw away by establishing community 
recycling programs. Because we are making responsible solid waste 
disposal decisions, it is particularly frustrating that we have been 
forced to accept trash from communities who have been less responsible. 
Our local governments need to have the ability to ban Canadian and out-
of-state waste from their borders.
    In order to ensure the authority of local communities to make their 
own solid waste disposal decisions, the U.S. Congress needs to enact 
legislation. That is why I am a cosponsor of bipartisan legislation, 
H.R. 1213, to give our communities the ability to say no to Canadian 
and out-of-state trash. We should pass this bill this year to stop our 
communities from becoming a ``dumping ground'' for those less 
responsible.
    As an example of just how important it is to enact this 
legislation, let me briefly describe what is currently going on in 
Michigan. Right now, day after day--every five to ten minutes--there 
are trucks coming over Michigan bridges from Canada dumping trash into 
our state. Last year alone, over 1.2 million tons of Canadian trash 
were dumped in Michigan--80% more than the year before. Michigan also 
ranks number three in the country for trash imports, with over 2.8 
million tons of municipal solid waste crossing our borders from other 
states and Canada.
    All of us in Michigan are tired of driving along our highways and 
watching garbage fall off of these trash trucks. Even more troubling, 
earlier this year a Sanilac County man died after being hit by a 
Canadian garbage truck.This trash trafficking needs to stop once and 
for all. In 1992, the Supreme Court ruled that trash is commerce and 
can only be regulated by an act of Congress. This decision was based on 
the Fort Gratiot case, which is based on a landfill in my district.
    Since 1991, I have been working with various members of this 
Committee to allow local communities to ban out-of-state or Canadian 
waste. In 1994, we managed to pass our bill in the House only to have 
it blocked in the Senate in the final days of session.
    Now we come before the Environmental and Hazardous Materials 
Subcommittee again to move forward our bill. Our bill places a 
presumptive ban on out-of-state and out-of-country waste, and it gives 
the power to lift the ban to local units of government. It is time for 
our local communities to have control over the trash being dumped in 
their backyards.
    The Chairman of the House Commerce Committee has said moving our 
bill is a ``high priority'' for his committee this year. In the days, 
weeks and months ahead, I hope to work with the Chairman and Ranking 
Member John Dingell to see that our bill becomes the law of the land.
    Our local communities should not be dumping grounds for other 
people's trash.

    Mr. Gillmor. Thank you, Mr. Bonior.
    The gentlelady from Virginia.

                 STATEMENT OF HON. JO ANN DAVIS

    Ms. Davis. Thank you, Mr. Chairman and members of this 
committee, for holding this hearing today on interstate waste. 
I assure you it is a very important issue and a worthy topic 
for the subcommittee to address. I would like to also say thank 
you to Mr. Greenwood for agreeing to work with me on the 
possible changes to his legislation to protect the Commonwealth 
of Virginia.
    The importation of interstate waste is a critical issue 
facing Virginia's citizens, and the issue disproportionately 
affects the Commonwealth of Virginia. The Fourth Circuit Court 
of Appeals recently ruled, as has been said today, that 
Virginia does not have authority to limit the trash crossing 
its borders. As you know, since waste transportation is deemed 
interstate commerce, it falls under Congress' authority, and 
congressional action is needed and can only be done with your 
help, Mr. Chairman.
    Mr. Chairman, this is not a Republican or a Democrat issue; 
it is a Virginia quality of life issue that transcends party 
lines. Constituents in my district are tired of dirty trash 
trucks shedding litter along the sides of the road and clogging 
routes that were not built for such large vehicle traffic. In 
the year 2000, Virginia received 3.9 million tons of garbage 
from outside this State--the second highest amount in the 
Nation. Being the second largest importer of trash in the 
Nation is not consistent with our image and vision for 
Virginia.
    As we all know, Congressman Greenwood has introduced H.R. 
1213 to address this issue of interstate waste, however 
adjustments will be required in this bill to ensure that 
Virginia is not harmed. If Virginia does not benefit from 
Federal legislation that the other States will, this puts us at 
a tremendous disadvantage and makes the Commonwealth vulnerable 
to receiving even more out-of-State waste.
    I propose the following changes. First, ensuring that 
Virginia can impose volume caps on existing landfills. H.R. 
1213 currently exempts landfills from State-imposed 
restrictions if their permits establish a higher limit or do 
not establish any limit on the amount of out-of-State waste. 
Most permits in Virginia currently State that landfills can 
take waste from any source and do not establish any limits. 
Similarly, H.R. 1213 allows State restrictions to be 
circumvented if a host community, in its so-called host 
community agreement with the landfill operators, does not 
establish any limit on out-of-State waste, or if the future 
host community agreements authorize specific levels of out-of-
State waste. Waste traveling into and through Virginia impacts 
many more communities than the host community, so State 
regulation is appropriate under these circumstances.
    H.R. 1213 would currently allow States to cap out-of-State 
trash at 1993 volumes. And as my colleague, Mr. Moran, said, 
the Charles City landfill received its greatest volume of out-
of-State trash in calendar year 1993. Virginia would not be 
provided much protection by this provision. The bill would be 
improved by allowing States to choose a calendar year, from 
1993 to present, as representing its volume cap so that each 
State would individually be able to determine which year they 
wanted to use.
    Finally, H.R. 1213 only regulates the flow of municipal 
solid waste. The bill, I believe, should also include other 
disposable waste substances, such as sewage sludge or 
commercial waste. If substances such as sludge are excluded 
from the bill's coverage, it will only increase the levels that 
Virginia will receive.
    I urge the subcommittee to take up Mr. Greenwood's bill 
this year, and I just as strongly urge that these 
recommendations be incorporated into a manager's amendment 
before H.R. 1213 is marked up by the committee. Without these 
necessary changes, the bill will largely be ineffective for 
Virginia and could possibly even negatively impact our State.
    Before I close, I would like to publicly acknowledge the 
assistance my office has received on this issue from Campaign 
Virginia, a citizens environmental group dedicated to stemming 
the flood of out-of-State garbage into Virginia. The transport 
of interstate waste into Virginia is an issue that we must be 
able to control, and I urge that the committee address this 
issue very soon. I thank you again, Mr. Chairman, and 
appreciate all your help.
    [The prepared statement of Hon. Jo Ann Davis follows:]
 Prepared Statement of Hon. Jo Ann Davis, a Representative in Congress 
                       from the State of Virginia
    Mr. Chairman and members of this committee, thank you for holding 
this hearing today on interstate waste, and I assure you that this is a 
very important and worthy topic for the subcommittee to address.
    The importation of interstate waste is a critical issue facing 
Virginia's citizens, and the issue disproportionately affects the 
Commonwealth of Virginia. The Fourth Circuit Court of Appeals recently 
ruled that Virginia does not have authority to limit the trash crossing 
its borders. As you know, since waste transportation is deemed 
interstate commerce it falls under Congress' authority and 
congressional action is needed.
    Mr. Chairman, this is not a Republican or Democrat issue--it is a 
Virginia quality of life issue that transcends party lines. 
Constituents in my district are tired of dirty trash trucks shedding 
litter along the sides of the roads, and clogging routes that were not 
built for such large vehicle traffic.
    In the year 2000, Virginia received 3.9 million tons of garbage 
from outside the state, the second-highest amount in the nation. Being 
the second largest importer of trash in the nation is not consistent 
with my image and vision of Virginia.
    As we all know, Congressman Greenwood has introduced H.R. 1213 to 
address the issue of interstate waste, however, adjustments will be 
required in this bill to ensure that Virginia is not harmed. If 
Virginia does not benefit from federal legislation that other states 
do, this puts us at a tremendous disadvantage and make the Commonwealth 
vulnerable to receiving even more out-of-state waste. I propose the 
following changes:
    First, ensuring that Virginia can impose volume caps on existing 
landfills. H.R. 1213 currently exempts landfills from state-imposed 
restrictions if their permits establish a higher limit or do not 
establish any limit on the amount of out-of-State waste received at the 
facility annually. Most permits in Virginia currently state that 
landfills can take waste from any source and do not establish any 
limits.
    Similarly, H.R. 1213 allows state restrictions to be circumvented 
if a host community, in its so-called host community agreement with the 
landfill operators, does not establish any limit on out-of-state waste, 
or if future host community agreements authorize specific levels of 
out-of-state waste. Waste traveling into and through Virginia impacts 
many more communities than the ``host'' community, so state regulation 
is appropriate under these circumstances.
    H.R. 1213 would currently allow states to cap out-of-state trash at 
1993 volumes. The Charles City landfill received its greatest volume of 
out-of-state trash in calendar year 1993, so Virginia is not provided 
much protection by this provision. The bill would be improved by 
allowing states to choose a calendar year from 1993 to the present as 
representing its volume cap.
    Finally, H.R. 1213 only regulates the flow of municipal solid 
waste. The bill should also include other exportable waste substances 
such as sewage sludge or commercial waste. If substances such as sludge 
are excluded from the bill's coverage, it will only increase the levels 
that Virginia will receive.
    I urge the subcommittee to take up Mr. Greenwood's bill this year, 
and I just as strongly urge that these recommendations be incorporated 
into a manager's amendment before H.R.1213 is marked up in committee. 
Without these necessary changes, the bill will be largely ineffective 
for Virginia, and possibly negatively impact the Commonwealth.
    Before I close, I would like to publicly acknowledge the assistance 
my office has received on this issue from Campaign Virginia, a 
citizens' environmental group dedicated to stemming the flood of out-
of-state garbage into Virginia. The transport of interstate waste into 
Virginia is an issue that we must be able to control, and I urge that 
the subcommittee address this issue very soon.

    Mr. Gillmor. Thank you very much. Are there any questions 
of the panel? If there are no questions, I want to thank our--
--
    Mr. Greenwood. Mr. Chairman----
    Mr. Gillmor. Yes.
    Mr. Greenwood. [continuing] just a statement.
    Mr. Gillmor. Mr. Greenwood.
    Mr. Greenwood. Thank you all for your really excellent 
statements. It occurred to me, listening to Mr. Moran's 
testimony, that some observers from a faraway star system could 
someday see these great eight landfill pyramids in Virginia and 
conclude that there is no intelligent life on Earth.
    Mr. Moran. And they might be right sometimes, but thank you 
for that observation, Mr. Greenwood.
    Mr. Gillmor. Once again, I want to thank the panel, and we 
hope to see some activity here in the future that would be to 
your liking.
    At this point, we will dismiss panel and call up panel two. 
Members of this panel are Chris Jones, director of the Ohio 
Environmental Protection Agency; Russell Harding, director of 
the Michigan Department of Environmental Quality; David Hess, 
secretary of Pennsylvania's Department of Environmental 
Protection; Lori Kaplan, commissioner for the Indiana 
Department of Environmental Management, and Joseph Lhota, 
deputy mayor of New York City.
    And as the panel takes their places, I want to make special 
mention of Chris Jones, who back a long time ago, when I was 
president of the Ohio senate, was one of our crackerjack 
staffers, did a great job there, and has now risen to the 
position of director of EPA, and I want to welcome you 
particularly. And I want to call on Mr. Greenwood.
    Mr. Greenwood. Thank you, Mr. Chairman. An issue that I 
have been working on almost as long as this one is juvenile 
justice authorization, and it is being marked up in a few 
minutes in the Education Committee, so I am going to have to, 
unfortunately, leave for a bit. And I thank the chairman for 
indulging me by having me have the honor of introducing the 
Honorable David Hess, who I referenced in my statement, and now 
heads the Pennsylvania Department of Environmental Protection. 
David and I are old friends from way, way back when he was a 
staffer in the State senate. I think Senator Santorum was a 
staffer in the State senate at the same time. And so our 
staffers climb to great heights in short periods of time.
    But I welcome David, congratulate you on your appointment 
and look forward to your testimony. And I apologize to the rest 
of the panelists that after Mr. Hess' testimony I am going to 
have to depart for a little bit. Thank you, Mr. Chairman.
    Mr. Gillmor. I want to thank all the panelists for being 
here. We do have copies of your testimony, and each of you have 
5 minutes to summarize your testimony before we begin with 
questions.
    Mr. Hess.

     STATEMENTS OF DAVID E. HESS, SECRETARY, DEPARTMENT OF 
 ENVIRONMENTAL PROTECTION, STATE OF PENNSYLVANIA; CHRISTOPHER 
  JONES, DIRECTOR, ENVIRONMENTAL PROTECTION AGENCY, STATE OF 
OHIO; RUSSELL J. HARDING, DIRECTOR, DEPARTMENT OF ENVIRONMENTAL 
    QUALITY, STATE OF MICHIGAN; LORI KAPLAN, COMMISSIONER, 
 DEPARTMENT OF ENVIRONMENTAL MANAGEMENT, STATE OF INDIANA; AND 
        JOSEPH J. LHOTA, DEPUTY MAYOR, CITY OF NEW YORK

    Mr. Hess. Chairman Gillmor, thank you very much, members of 
the committee. My name is David Hess. I am secretary of the 
Department of Environmental Protection. And courtesy of the 
great introduction Congressman Greenwood gave me, I think I 
will ask for a raise when I get back to Harrisburg.
    It is a pleasure to be here on behalf of Governor Tom Ridge 
and also members of our general assembly. We have a very simple 
message, and that is, ``Don't dump on Pennsylvania.'' We need 
Federal legislation now that gives the right to decide if they 
want to accept garbage from other States for disposal. I think 
the issue is very simple, and several members touched on it in 
their opening statements. The Supreme Court says communities 
don't have the right to decide whether they want out-of-State 
garbage or not. They said Congress could give them that right, 
and that is why we are here.
    We very much appreciate the efforts of Chairman Gillmor and 
Ranking Member Pallone for scheduling this hearing and for the 
work that Congressman Greenwood has done and Senator Specter 
and Senator Santorum and our entire delegation on this issue. 
As many of you know, Governor Tom Ridge has been very active in 
lobbying Congress, including members of this committee on this 
issue, as was the late Governor Robert P. Casey before him.
    In each of the last three legislative sessions, our general 
assembly passed resolutions urging Congress to act on this 
issue, and I am very pleased today to be able to introduce Pat 
Henderson, who is from Senator Mary Jo White's office, and also 
Richard Fox, who is from Senator Musto's office, both 
representing the Senate Environmental Resources Committee here 
today.
    What we would like in Federal legislation, again, is I 
think very simple. We would like the ability of communities, 
again, with all due respect to the congressman from Fresh 
Kills, to decide their own fate. We would like a freeze on 
waste imports and to ratchet down the amount of waste that can 
be accepted by landfills. And I think Congressman Greenwood's 
bill, also a bill introduced by Senator Specter, incorporates 
the provisions that Pennsylvania supports.
    These tools are needed because some States have found it 
easier to dump on their neighbors than to develop their own 
disposal facilities. And as, again, other speakers have said, 
Pennsylvania included, is a really a victim of our success in 
the area of waste management and recycling. And I think, 
ironically, on one issue, a lack of Federal legislation has 
also hampered the ability of some States like New Jersey to 
keep waste in their own State, because they have waste 
facilities they need to maintain.
    The simple tools we are asking for will enable States and 
communities to act responsibly to manage their own waste. As 
was mentioned before, Fresh Kills Landfill is closing. Eleven 
thousand five hundred tons of trash is trying to find a home in 
the States of Pennsylvania, New Jersey, and Virginia.
    In May of this year, DEP, the Pennsylvania State Police, 
and other agencies conducted an unprecedented operation to 
inspect trash trucks in Pennsylvania, called Operation Clean 
Sweep. We conducted over 40,000 inspections over an 8-day 
period in Pennsylvania at every single landfill. What we found, 
in a word, was frightening. Eighty-six percent of those trucks 
had safety violations. The State police pulled 849 trucks off 
the highway as unsafe or pulled the drivers out of their cabs 
because they had DUI violations or CDL licenses that were 
expired. These hazards are real to our communities, and we are 
doing all we can to deal with them in Pennsylvania, but, 
frankly, we need to get to the root of the problem. And the 
root of the problem is adequate Federal legislation to deal 
with this issue.
    Right now in Pennsylvania, we have 25 applications pending 
for new or expanded landfills. That is 71 million tons of 
capacity. If that was devoted only to waste from Pennsylvania, 
that would last us more than 7 years on top of the already 12 
years worth of capacity we have right now. We clearly have an 
overcapacity of waste disposal facilities in Pennsylvania.
    Our democracy is built on the foundation of empowering 
people to make choices. It is also built on fairness. Our 
communities now have no voice in deciding whether millions of 
tons of garbage come to them for disposal from other States. It 
is unfair, again, for States like Pennsylvania to shoulder this 
burden. We are not asking to build a fence around our borders. 
In fact, we did a survey in 1999 that showed that 22 percent of 
the communities that have landfills right now would accept out-
of-State waste. That is not what we are asking. We are not 
asking to turn back waste trucks. All we are doing is asking 
for the freedom to make a choice, and we are not even asking 
Congress for any money.
    Again, we appreciate the opportunity, and, again, Mr. 
Chairman, we appreciate the fact that you set up the hearing 
today. This is a critical issue for us, and we hope that the 
committee acts shortly on this issue. Thank you.
    [The prepared statement of David E. Hess follows:]
Prepared Statement of David E. Hess, Secretary, Pennsylvania Department 
                      of Environmental Protection
    Chairman Gillmor, members of the Committee, my name is David Hess 
and I am the Secretary of Pennsylvania's Department of Environmental 
Protection.
    I am here today on behalf of Gov. Tom Ridge and members of the 
Pennsylvania General Assembly to give you one simple message--Don't 
dump on Pennsylvania.
    We need federal legislation now giving communities the right to 
decide if they want to accept garbage from other states for disposal.
    The issue is simple--the U.S. Supreme Court says communities don't 
have the right to decide whether they want out-of-state garbage or not. 
They said only Congress can grant that right and that's why we're here.
    We very much appreciate the efforts of Chairman Gillmor and Ranking 
Member Mr. Pallone for scheduling this hearing and that of Congressman 
Greenwood and Senators Specter and Santorum and our entire 
Congressional Delegation for their continuing efforts to push for 
federal legislation in this area.
    Over the last six years Gov. Ridge has personally visited many 
members of Congress, including members of this Committee, to urge 
passage of interstate waste legislation. And before him, the late Gov. 
Robert P. Casey carried the same message.
    My predecessor James Seif appeared before this very committee two 
years ago asking for your action and met with many members to educate 
them on this issue.
    In each of the last three legislative sessions, members of our 
General Assembly have overwhelmingly passed resolutions urging Congress 
to act on interstate waste legislation.
    Today I'd like to recognize the presence of Richard Fox 
representing Sen. Ray Musto, Democratic Chairman of our Senate 
Environmental Resources and Energy Committee and Patrick Henderson, 
representing Sen. Mary Jo White, the Majority Chairman of the 
Committee.
    We Pennsylvanians are nothing if not persistent, because we believe 
passing legislation giving states and communities a voice on waste 
imports is the right thing to do.
    Specifically, Pennsylvania is seeking federal legislation on 
interstate waste that includes these basic provisions:

1. Giving communities the ability to allow the disposal of imported 
        waste through host community agreements, which would address 
        concerns like operating hours, truck traffic, noise, and litter 
        before permits are issued;
2. Imposing a freeze on waste imports immediately with a predictable 
        schedule for reducing imports over time;
3. Allowing states to impose a percentage cap on the amount of imported 
        waste that a new facility could receive;
4. Allowing states to consider in-state capacity as part of the 
        permitting process;
5. Allowing communities to adopt waste flow control ordinances to 
        protect existing bond debt.
    Bills introduced by Congressman Greenwood--H.R.1213 and Senator 
Specter--S. 1194--incorporate provisions that Pennsylvania supports.
    These tools are needed because some states have found it easier to 
dump on their neighbors than to develop disposal facilities and 
recycling programs to handle the waste they generate.
    In many ways, Pennsylvania has been a victim of our own success.
    Pennsylvania has required our counties to plan for how they will 
dispose of the waste they generate over the next ten years, put in 
place the nation's toughest environmental standards for landfills and 
built the largest curbside recycling program in the country.
    Because Pennsylvania has successfully built a waste disposal and 
recycling system, other states feel they can come in and take advantage 
of it, and there's nothing to stop them.
    Ironically, the lack of federal legislation has also hampered other 
states, like New Jersey, who do want to keep waste in their state, but 
can't because they can't control where their waste goes for disposal.
    Reasonable restrictions on imported waste shipments like the ones 
we're asking for will not ban all imports as some have said. In fact, 
in 1999 Pennsylvania did a survey of communities hosting landfills and 
found that 20% have, and would, agree to accept waste imports for a 
variety of reasons.
    The simple tools we are asking for will enable states and 
communities to act responsibly to manage their own waste and limit 
unwanted waste imports from other states.
    The need for federal legislation is now more urgent.
    In March, Fresh Kills Landfill serving New York City closed--
forcing the city to find new disposal sites for an additional 4.7 
million tons of garbage a year. They are shipping 11,500 tons of trash 
a day outside the city to landfills and incinerators in Pennsylvania, 
New Jersey, and Virginia.
    Much of this garbage moves by truck along our Interstate highways 
causing serious safety and environmental problems for the states 
involved.
    In May of this year, Pennsylvania conducted ``Operation Clean 
Sweep,'' an unprecedented effort to put State Police and environmental 
inspectors at each of the landfills and resource recovery facilities in 
the Commonwealth over an eight-day period.
    The results we found were, in a word, frightening.
    We inspected more than 40,000 trucks and cited waste haulers for 
over 11,000 safety and environmental violations.
    The Pennsylvania State Police found 86 percent of the trucks they 
inspected had one or more safety violations and they took 849 trucks or 
drivers out of service for being unsafe.
    One driver showed up at 6:00 a.m. on a Monday morning drunk.
    We've also had citizens killed and seriously injured by trash 
trucks, most recently in Northumberland County along I-78.
    As the fines and penalties from ``Operation Clean Sweep'' continue 
to pile up, we also continued our regular truck inspections. As 
recently as last week, six more inspection sites resulted in more 
violations.
    The hazards of unsafe trash trucks are real for our communities and 
we're doing everything we can to enforce our safety and environmental 
laws, but frankly we need to get to the root of the problem that only 
federal legislation can solve.
    We are also doing all we can within the current law to improve our 
waste management programs.
    Gov. Ridge issued an executive order that directs DEP to actively 
involve communities early in landfill permit decisions, and to take a 
detailed look at truck traffic and other community impacts.
    We also passed new regulations requiring applicants for new 
landfill capacity to prove the potential benefits of those facilities 
out weigh harms to the environment and to the community.
    Landfill applicants are also prohibited from applying for new 
landfill capacity until they have five years or fewer of capacity left.
    Gov. Ridge is the first governor to propose legislation that 
includes a two-year moratorium on issuing permits for new or expanded 
landfills, new tools to crack down on unsafe trash trucks and giving 
communities more say in resolving local issues with landfills through 
host community agreements.
    But Pennsylvania cannot address the issue of waste imports without 
federal legislation.
    In our offices, we have 25 applications for new or expanded 
landfills that will add 71.5 million more tons and years of new waste 
disposal capacity in Pennsylvania.
    If the additional capacity were devoted only to the waste 
Pennsylvania generates, it would last us 7.24 years. This is on top of 
the 12 years of capacity we have right now.
    Our democracy is built on the foundation of empowering people to 
make choices. It is also built on fairness.
    Our communities now have no voice in deciding whether millions of 
tons of garbage come to them for disposal from other states.
    In it is unfair that states like Pennsylvania that have made the 
hard choices to build waste facilities and recycling programs, have to 
make room for other states that have not.
    We are not asking to build a fence around our borders to turn back 
every waste truck or to turn our backs on the legitimate needs of our 
neighbors.
    We're not asking for any money.
    We are asking Congress to give states and communities a voice so we 
can limit unwanted garbage imports into our state. With appropriate 
federal legislation, states will be provided the tools needed to begin 
addressing the current inequities.
    Again, thank you for an opportunity to address this critical issue.
    We look forward to working with Congress to address this important 
issue and to developing a consensus that will benefit all states and 
communities.

    Mr. Gillmor. Thank you, Mr. Hess. Because Mr. Greenwood has 
to depart, we will divert from our normal order of procedure, 
and permit Mr. Greenwood to question Mr. Hess.
    Mr. Greenwood. I don't know if you have had a chance, 
David, to look at some of the issues that Virginia has asked us 
to take a look at, but do you see any difficulty in making--if 
you have; if you haven't, that is fine; we can talk about it 
later--but if you have had an opportunity to look at those 
issues, do you see any difficulty incorporating the concerns a 
State like Virginia has with my legislation that would pose 
additional problems for Pennsylvania?
    Mr. Hess. I think in terms of having a little flexibility 
to choose the date, I think that probably would be a good 
addition. Flexibility is always important, so I think on that 
particular issue I think that would probably strengthen the 
bill.
    Mr. Greenwood. And I will be brief. Mr. Fossella is not 
with us here, but one of the points that he made is that these 
municipalities in Pennsylvania have a choice. They can either 
accept this waste from a State like his or not. Perhaps you 
could just describe for the other members of the committee here 
what that really means in a place like, for instance, where I 
come from, in a place like little Tullytown Burrow can accept 
waste, but the trucks cross many municipal boundaries and drive 
through many townships and create dust and pollution and noise 
and all of the rest. And the smell, the air quality issues 
certainly are not isolated. The water quality issues are not 
isolated to a particular municipality. So I think we need to 
debunk this notion that somehow no one is harmed if the 
residents of one little tiny municipality want to receive trash 
from out of State.
    Mr. Hess. I think there is two points I would make very 
quickly. One point is the agreements they are talking about are 
not agreements between, say, a New York City and Old Forge 
Burrow in northeast Pennsylvania. They are with a waste 
management company and a community. And in many cases, those 
kinds of agreements were made years and years and years ago, at 
least in Pennsylvania's case, and they really have no 
opportunity to either update or change those agreements. So 
they have been effectively locked in. And that is really one 
point.
    I think the second point is, as you mentioned, there are 
impacts that go beyond the host community itself, and 
Pennsylvania, again, as Congressman Kanjorski said, we have 
2,600 municipalities, some of them very tiny, and it can be 
that certainly there are agreements. And as I said before, 22 
percent of those folks surveyed, those communities surveyed, 
would accept waste. But now they are not given a choice, either 
because they have old agreements that they can't now change or 
they weren't party to some of these agreements in the first 
place.
    Mr. Greenwood. Thank you, Mr. Chairman. In the interest of 
time, I will yield back.
    Mr. Gillmor. Thank you.
    Director Jones from Ohio.

                 STATEMENT OF CHRISTOPHER JONES

    Mr. Jones. Thank you, Mr. Chairman. And it was a lot 
easier, I am sure David would agree, to be a staff person than 
to be the head of the agency, but I, too, want to thank you for 
having these hearings and to Congressman Greenwood for his 
efforts on behalf of this legislation. And I will have a more 
detailed statement for the record.
    I want to talk about Ohio's experience, because I watch 
Pennsylvania, and am reminded that statement earlier today, 
``No good deed going unpunished.'' As you know, we have some 
experience in Ohio. Between 1986 and 1989, out-of-State waste 
disposed in Ohio increased from about 33,000 tons a year, which 
was less than 1 percent of our total disposal, to 3.7 million 
tons, which was 20 percent of our total disposal. We have 
decreased significantly from the 1989 levels, but as you 
mentioned, Mr. Chairman, you were the president of the senate 
at the time, we passed a very progressive bill, house bill 592 
in Ohio, and we took a proactive step. We set up responsible 
management of waste disposal in Ohio. We assured ourselves at 
the time we had less than 9 years of capacity. We now have over 
20 years of capacity. We haven't sat still in the 13 years 
since that bill passed. We have amended 18 times to take 
account to the changing circumstances.
    There are issues that cause us to need this legislation. 
The discussion earlier about the level playing ground, there 
isn't one. We have no ability, we have no authority to control 
the imports. We, in Ohio, have done I think a very good job of 
regulating landfills, of managing solid waste disposal, of 
establishing recycling goals, aggressive recycling goals that 
are being met throughout the State. We have a statewide 
management plan that people have to conform to. So we have 
taken those steps, the fundamental purpose of which is to 
support our own solid waste management system in the State of 
Ohio.
    Part of that includes both exports and imports, and I would 
like to echo what David said. This is not about putting up a 
fence, but this is about giving the States the ability to 
responsibly manage imports and exports of solid waste. We are 
having problems in Ohio, because people perceive that these 
landfills are being built for the sole purpose of servicing 
out-of-State waste. And that takes the decisionmaking out of 
the thoughtful, engineered management decisions and into the 
emotion, and it is very difficult to argue with that emotion, 
because it is based on fundamental facts that those people live 
with on a daily basis.
    Why do we look to this legislation and the need for this 
legislation? As I said, we have been proactive, and we have 
managed well. We think we have, actually, more than twice the 
permitted landfill capacity that Pennsylvania and Virginia 
have, and we have tried to compare--we have 1999 numbers for 
Ohio but 1997 for the other States. But we have permitted 453 
million tons of capacity for municipal solid waste in Ohio 
compared to about 200 million tons for Pennsylvania and 
Virginia. The possibly more significant fact is that the two 
landfills in Ohio that take the most out-of-State waste 
currently have enough remaining capacity between them for 
around 65 million tons of waste. We have relatively low tipping 
fees. According to the best data we have, and this is a spot 
fee so there is probably contract prices lower, our tipping fee 
is at least $9 lower than Virginia's and $19 lower than 
Pennsylvania.
    What we have to look at is the total cost to dispose of 
waste in Ohio, which is a function of both our tipping fees and 
the transportation costs. And good for us but bad for us, 
Northeast Ohio is served by a number of high quality east-west 
interstate highways. They provide relatively direct access from 
the east coast, and we have seen disposal from at least 11 
different east coast States, so it is clear to us that 
transportation costs are not going to prohibit--are not going 
to be cost prohibitive for people to import waste.
    Right now, the level of waste imports into Ohio are not a 
concern. Well, they are not an immediate concern. But because 
of our capacity, which is currently, on the current levels, 21 
years, and the relatively low tipping fees, our proximity to 
the east coast, and our experience, going from less than 1 
percent of our total disposal to over 20 percent of our 
disposal being imports in 2 years, we remain concerned that we 
are vulnerable to the good fortune that Pennsylvania has 
enjoyed. There were proactive, they planned, they are paying a 
price. We don't want to pay that price, and we are concerned 
that we don't have the tools. This legislation gives us those 
tools.
    I want to thank the chairman for the hearing and Mr. 
Greenwood for his legislation.
    [The prepared statement of Christopher Jones follows:]
      Prepared Statement of Christopher Jones, Director, Ohio EPA
    Good morning, Mr. Chairman, and members of the committee. My name 
is Chris Jones and I am Director of the Ohio Environmental Protection 
Agency (Ohio EPA). I appreciate the opportunity to be with you this 
morning to provide you with an overview and historical perspective of 
the interstate waste issue from Ohio's vantage point. I would also like 
to speak to several provisions of H.R. 1213 sponsored by Congressman 
Greenwood and others, that would provide Ohio with many of the tools we 
need to help us address the interstate waste issue in the future.
    As we all know, the transportation and disposal of solid waste 
across state lines has been a controversial issue for over a decade, 
and Ohio has not been spared the controversy. The receipt of waste 
shipments from outside of Ohio first became a serious concern to the 
State during the late 1980's, when over a short period of time waste 
imports increased dramatically. From 1986 to 1989, out-of-state waste 
disposed in Ohio increased from approximately 33,000 tons, representing 
less than 1% of total disposal, to 3,700,000 tons, representing 20% of 
the total disposal. Although waste imports have decreased significantly 
from the 1989 levels, we have seen increases in the last four years and 
continue to be aware of the possibility of increased waste receipts 
from other states at any time. We would note the following reasons for 
our concern over out-of-state waste:

<bullet> With the passage of Ohio's comprehensive solid waste law, H.B. 
        592, in 1988, Ohio took a proactive step to responsibly manage 
        Ohio's waste by assuring in-state disposal capacity, at state 
        of the art facilities, for solid waste generated in Ohio, and 
        setting state recycling goals. It is only fair that other 
        states take the steps necessary to responsibly manage their own 
        waste, instead of relying on exporting their waste outside of 
        their borders.
<bullet> It is difficult or impossible for state and local inspectors 
        to verify that hazardous or untreated infectious waste has not 
        been included in solid waste shipments that are shredded or 
        heavily compacted before being shipped long distances.
<bullet> Citizen opposition to landfills that are perceived as 
        servicing primarily out-of-state waste hinders the siting of 
        facilities needed to provide disposal capacity for Ohio's 
        waste.
<bullet> Citizens are reluctant to reduce or recycle waste when they 
        believe their efforts will only serve to make room for trash 
        from other states.
             recent out-of-state waste receipts and trends
    In 1999 (most recent complete data available), Ohio received 1.5 
million tons of out-of-state waste, representing about 7% of total 
waste disposed. This is a slight increase from the previous three 
years, when imports have ranged from 1.2 to 1.5 million tons, 
representing 6 to 7% of total disposal. Although we don't have Ohio's 
export data yet for 2000, we know that waste imports increased again 
last year, up to approximately 1.8 million tons, making this the fourth 
year in a row that imports have increased.
    Ohio imported the largest amount of waste from New York in 1999, at 
476,046 tons (31% of the total), while 380,785 tons were received from 
Pennsylvania (25% of the total), and 149,810 tons were received from 
New Jersey (10% of the total). Over the last five years, imports from 
these three states have accounted for 65% to 74% of the total amount of 
out-of-state disposal in Ohio. New York and Pennsylvania have been the 
top two states exporting waste to Ohio over this period of time.
    In 1997, Ohio EPA performed a detailed analysis of the origin of 
out-of-state waste disposed in Ohio, yielding interesting results. For 
purposes of reporting, Ohio EPA has generally considered waste 
originating from contiguous states and the western two-thirds of 
Pennsylvania to be ``short-haul'', and waste originating from the 
eastern one-third of Pennsylvania and non-contiguous states to be 
``long haul.'' Using these definitions, 59% of out-of-state waste 
received in 1997 would be considered long-haul. And virtually all of 
Pennsylvania's waste would be considered short-haul.
    A more detailed examination of out-of-state waste just from New 
York is also interesting. Out of the total of 469,869 tons of waste 
received from New York, fully 333,607 tons (71%) was received from the 
New York City area. The tonnage received from New York City also 
accounted for 24% of all out-of-state waste disposed in Ohio in 1997, 
the single largest source of out-of-state waste in Ohio. This total 
could be even higher, since we don't know the exact origin of a 
significant amount of waste coming from New York. In other words, an 
additional 135,869 tons of waste which we know came from ``other New 
York sources'' represents both waste from identified places outside of 
New York City, and waste from New York for which the county of origin 
was not specified.
                 landfills receiving out-of-state waste
    Over the past several years, the vast majority of waste imports 
have been received by two landfills: BFI Carbon Limestone in Mahoning 
County, and AWS American Landfill in Stark County. In 1999, Carbon 
Limestone received 49% of the out-of-state waste disposed in Ohio. 
American Landfill received 16% of the out-of-state waste disposed in 
Ohio. These two landfills also received the largest amount of long-haul 
waste in the state. Based on previous years data, we would expect that 
these two facilities received at least 90% of all long-haul waste.
                           ohio waste exports
    It should also be noted that Ohio has exported significant amounts 
of waste over the last several years. In 1999, Ohio exported 1,039,876 
tons of waste making Ohio a net importer of 485,769 tons of waste. 1999 
is the first year that Ohio has recorded waste exports of over one 
million tons. Ohio waste exports have actually been on the rise over 
the last several years, increasing from an estimated 270,000 tons in 
1992.
    However, I would note that these export increases should be viewed 
with some caution. Until recently, it was difficult or impossible to 
get accurate data from adjacent states regarding receipt of waste from 
Ohio. Therefore, it is difficult to tell whether the increases in Ohio 
exports is due to an actual increase in exports or simply better access 
to data. In general, the export numbers we have been able to obtain 
indicate that most of Ohio's exports, approximately 65% or more, go to 
Michigan and Kentucky.
               ohio's vulnerability to out-of-state waste
    Several factors contribute to Ohio's vulnerability to out-of-state 
waste. The factor that brought this issue once again to the forefront 
is the closure of New York City's Fresh Kills Landfill which handled 
3.5 million tons of garbage annually. Historic waste flow patterns 
would indicate that Virginia, Pennsylvania, and Ohio would eventually 
be the most likely recipients of this waste. Despite Virginia and 
Pennsylvania's higher overall import levels than Ohio's, and 
Pennsylvania's closer proximity to New York, there are at least three 
reasons why Ohio appears to be vulnerable to increased receipts of 
waste from New York City waste as well.
    First, we believe Ohio has more permitted landfill capacity than 
Pennsylvania or Virginia at the present time. In 1999 Ohio had around 
453 million tons of permitted municipal waste landfill capacity, 
whereas Pennsylvania and Virginia both reported around 200 million tons 
of capacity (based on the ``Mid-Atlantic States Municipal Waste 
Matrix'' published in 1999). For Ohio, this equates to about 22 years 
of capacity at current disposal rates. If all pending landfill permit 
applications are ultimately approved, Ohio could have over 30 years of 
capacity.
    More important than capacity, in our estimation, are Ohio's 
relatively low tipping fees. According to the best data available, 
Ohio's average tipping fee appears to be at least nine dollars per ton 
lower than Virginia, and nineteen dollars lower than Pennsylvania 
(based on the ``Mid-Atlantic States Municipal Waste Matrix'' published 
in 1999).

----------------------------------------------------------------------------------------------------------------
                                                  New York       Pennsylvania       Virginia           Ohio
----------------------------------------------------------------------------------------------------------------
Average Tipping Fee.........................          $60.00           $49.00           $39.00           $29.50
----------------------------------------------------------------------------------------------------------------

    This information should be considered with several qualifications. 
First, although New York, Pennsylvania and Virginia have reported this 
information, the source of their information is unclear. We do not know 
whether this is a calculated average, or an educated guess on their 
part. Second, although Ohio's average is calculated from information 
provided by landfills to Ohio EPA, the tipping fee reported to us is 
the posted ``spot rate,'' which will be higher than what would be 
negotiated for in a contract. Our estimation of the average 
``contract'' tipping fee in Ohio would be closer to $20.00 a ton.
    Finally, Ohio's vulnerability to out-of-state waste is dependant on 
the total cost to dispose of waste in Ohio, which is a function of both 
Ohio's tipping fees and the cost to transport the waste into the State. 
Unfortunately, we have no specific data to help us understand 
transportation costs at this time. However, we can make certain 
observations. First, northeast Ohio is serviced by a number of high-
quality, east-west interstate highways, providing relatively direct 
routes from the east coast into the State. Second, as we observe the 
receipt of waste from at least eleven different east coast states, it 
is clear that transportation of waste into Ohio from the eastern U.S. 
is not cost prohibitive. The important point is that the flow of waste 
is dependent on a combination of both tipping fees and transportation 
costs. Transportation costs are dependent, at least in part, on roads 
that are adequate to handle waste-hauling truck traffic, as opposed to 
``as the crow flies'' distances between the origin of waste and the 
nearest available landfill.
             ohio epa's position on provisions of h.b. 1213
    Although current levels of waste imports into Ohio are not an 
immediate concern, due to our permitted capacity which will currently 
last over 21 years, relatively low tipping fees, and proximity to the 
east coast, Ohio remains vulnerable to increases in the future. 
Accordingly, we strongly support mechanisms to protect the State from 
unreasonable future increases in out-of-state waste. From our 
perspective, this is the most important of all the out-of-state waste 
issues and one which we believe is addressed through the provisions of 
H.R. 1213. I would like to briefly discuss our thoughts on some of the 
concepts contained in H.R. 1213.
Presumptive Ban
    We believe our goal of having the ability to control future 
increases in out-of-state waste will be met in large part by the 
presumptive ban that prohibits the receipt of out-of-state municipal 
solid waste at all existing facilities unless they meet one of the a 
number of criteria, including ``host community agreements,'' new or 
existing.
    We support the exceptions to the ban as outlined in the bill. We 
would note, however, that the term ``host community agreement'' is 
defined in such a way that in Ohio, it will apply only to agreements 
between facilities and solid waste management districts. It will not 
apply to agreements between facilities and local municipal or township 
governments, which is what we would commonly consider to be a ``host 
community agreement''. The result, for Ohio, is that SWMDs will have 
clear and exclusive authority to allow receipt of out-of-state waste 
via host community agreements.
Freeze Authority
    This provision allows a state to freeze the level of out-of-state 
waste received at a solid waste landfill or incinerator at 1993 levels. 
Twenty landfills received out-of-state waste in 1993, and fifteen of 
them are still open.
Permit Caps
    This provision allows a state to pass a law setting a percentage 
limit on the amount of out-of-state waste that new facilities or 
expanded facilities could receive. Limitation would apply to all new or 
expanded facilities, and the limit could be no lower than 20%. This is 
another option to the states which we believe could prove to be helpful 
to Ohio in the future, though not to a great extent at this time.
Cost-Recovery Surcharge on Out-of-State Waste
    HR 1213 allows states to impose a $2.00 per ton surcharge on out-
of-state waste to recover costs incurred associated with the processing 
or disposal of out-of-state waste. While utilizing this provision seems 
appealing, I cannot tell you today that Ohio will take advantage of 
this funding option. As Ohio currently assesses a state fee of $1.75 
per ton to all waste, not just out-of-state waste, I would not expect 
that we would be able to justify an additional $2.00/ton for waste 
coming from other states, especially our border states.
Annual Report
    The legislation requires that the owner/operator of each landfill 
receiving out of state waste shall submit a report to the appropriate 
Governor indicating the amount of out of state waste that that facility 
received during that year. Ideally, Ohio would like to see an 
additional requirement included in this bill for waste haulers to 
accurately report to receiving facilities the state and county of 
origin and the type of waste (i.e. C&DD, MSW, industrial) being 
disposed. Such a requirement would then extend to the facilities to 
accurately record the same information and include that in the report 
to the Governor as well.
    In closing, I would like to applaud the efforts of Congressman 
Greenwood for his steadfast efforts to develop legislation to assist 
those states who are feeling the threat of increased out-of-state waste 
shipments. Speaking only for Ohio, HR 1213 will provide our state with 
the tools we need to help protect us in the future against what we 
perceive to be a strong potential for increased shipments of long-haul 
out of state waste across our borders. I would also like to thank 
Congressman Gillmor, hailing from Ohio, for holding hearings on this 
issue and for inviting me to participate today. Again, I appreciate the 
opportunity to testify on this issue and would be happy to provide any 
additional information the committee may need as you continue to 
deliberate this important issue.

    Mr. Gillmor. Mr. Harding.

                 STATEMENT OF RUSSELL J. HARDING

    Mr. Harding. Well, thank you, Mr. Chairman. Indeed, it is a 
pleasure to be here, and members of the committee, to talk 
about an issue that is absolutely vital to Michigan: The 
importation and export of solid waste.
    As you know, in Michigan, we are a steward of a natural 
resource of nearly 20 percent of the world's fresh water and 
the Great Lakes that surround our State. Consequently, we have 
enacted very tough landfill standards in our State, some of the 
most restrictive in the country. In terms of technology 
requirements, we also have a very comprehensive planning 
statute that requires each county to provide for 15 years of 
capacity. Those plans must be reviewed and approved by my 
agency according to State statute. They are tough requirements. 
We have done that in our State to ensure that we can manage 
this issue satisfactorily within the State.
    Our concern hasn't been as much export and import from the 
surrounding States. That is certainly, I think, as Chris just 
mentioned, a concern. We are very concerned, though, of what is 
happening versus Canada and our State in terms of this issue. 
This really caught by great surprise. We visited extensively 
with Toronto and Canadian officials. They have admitted to us 
that it would be cheaper to dispose of their solid waste in 
Canada, but they have decided instead, for political 
expediency, to send it to Michigan. And now the 19 million tons 
that we take care of in Michigan annually, 1.5 of that is from 
Canada alone. The other landfills will be closing in Canada. We 
expect that will increase dramatically, as I think was 
mentioned by a member of the prior panel. There certainly is no 
land shortage in Canada, but they do not want to deal with this 
issue.
    We have seen the increase is now about 20 percent of all 
the solid waste we are dealing with, as I said, comes from 
other States and Canada. We are diligent--a point I wanted to 
hit on a little bit, I think it is been talked about, is we are 
very diligent on attempting to inspect those trucks as they 
come either through Detroit or Port Huron, across the bridges 
into our State. That is a very, very logistically difficult 
task to undertake. And we have used sophisticated means. The 
logistics of it are very difficult. We certainly can't restrict 
traffic and cause backups at the border, the international 
borders. We also inspect at landfills. But it is very, very 
difficult to do that, and we find when we do the inspections 
that we, indeed, have at times what we consider to be hazardous 
materials, even radioactive materials mixed in. We have no 
ability to do a whole lot about that except try to turn the 
truck back at that point, and that becomes a problem in itself.
    We also are experiencing about 65 trucks per day from 
Toronto alone. It is estimated that we have about 130 a day 
from Canada. As we struggle--and I know this committee has been 
concerned and working on energy issues--as we struggle with 
clean air issues, this has a big impact on our State. These 
things are important, and we try to deal with them regionally 
and across the country.
    I have heard discussed a little bit individual community 
host agreements with companies, and I agree with Mr. Hess. That 
I believe is a statewide issue. We certainly allow that. That 
is between individual host communities and landfill--or excuse 
me, in waste companies. We don't think that should be 
prohibited, but we do think it needs to be restricted to 
reflect statewide concerns. Trash move between counties, it 
moves throughout the State. There are a number of issues that 
have an impact that go way beyond local.
    The Governor has been very concerned and working on this 
with Congress since 1992. I know it has been covered adequately 
that certainly the State has come to the conclusion that we do 
not have the authority in our State to address this issue. It 
will take active legislation to be passed by Congress to deal 
with it. In the Engler administration, the State of Michigan, 
we support open markets. I certainly agree with our colleagues 
from New York. I think open markets work. They should be 
supported. We are only advocating some compromise here.
    We are not saying that we believe we ought to restrict and 
put up barriers at the State lines. We don't think that is 
appropriate. Michigan exports waste; we export more hazardous 
waste than we import. We think it is important that free flow 
of commerce continue, but I believe Mr. Greenwood has a very 
good start here on a solution that indeed is a compromise. It 
allows these things to occur, allows free commerce to occur. 
But it does set some standards that allow States to address 
some of the key components.
    And I can tell you from a political standpoint in our 
State, our citizens just cannot understand why Congress hasn't 
resolved this issue. They see Congress dealing with a whole 
array of issues across a spectrum that affects citizens' lives 
every day, but yet this issue doesn't seem to be able to be 
dealt with. It is causing increased consternation in our State. 
We continually see our State legislature attempting to pass 
legislation that we know does not pass legal muster. We have 
not supported that legislation. We have done tough thing 
politically. Governor Engler hasn't supported legislation he 
knows that is unconstitutional.
    So I guess our plea, again, is we really need your help. We 
appreciate Representative Mike Rogers taking the leadership 
from our State on this issue. We really need some help from 
Congress here. We are just asking for some compromise 
legislation, and we stand willing to work with our partners 
from the Northeast to secure that. Thank you.
    [The prepared statement of Russell J. Harding follows:]
   Prepared Statement of Russell J. Harding, Michigan Department of 
                         Environmental Quality
    Good afternoon, I am Russell J. Harding, Director of the Michigan 
Department of Environmental Quality. The Department is Michigan's 
environmental regulatory agency, responsible for the air, water 
quality, wetlands, waste management, and environmental cleanup 
programs.
    I would like to thank the committee for the opportunity today to 
discuss legislation that would be effective for managing the interstate 
transfer of solid waste. In 1992, the United States Supreme Court 
ruled, in the matter of Fort Gratiot Sanitary Landfill v. Michigan 
Department of Natural Resources et al. (1992 Fort Gratiot decision), 
that provisions of Michigan's Solid Waste Management Act, which allowed 
counties to impose restrictions on the importation of solid waste from 
other states and countries through their Solid Waste Management Plans, 
violated the United States Constitution and were not enforceable. The 
United States Constitution's Commerce Clause reserves, to the United 
States Congress, the authority to regulate commerce between the states 
and with foreign countries. The Courts have long recognized the so-
called ``dormant'' nature of the Commerce Clause as prohibiting states 
from such areas of regulation unless authorized by Congress. As a 
result, while movement of waste between Michigan counties is still 
regulated by state law, we are unable to restrict imports of solid 
waste from outside of the state.
    Solid waste import data has been collected by the Department on a 
Fiscal Year (FY) basis since FY 1996. Data from these reports indicate 
an increase in the level of imports over the last five years. Based on 
data collected for the past five FYs, there has been an overall 
increase of 18 percent in the amount of solid waste being generated in 
Michigan. However, imports of waste from Canada and other states rose 
by 41 percent during this same time period.
    Out-of-state and Canadian waste being disposed of in Michigan is 
equivalent to approximately 20 percent of the solid waste stream that 
is generated annually in Michigan. As a result, for every five years of 
disposal of this volume of out-of-state waste, Michigan is losing a 
full year of landfill capacity. Total out-of-state imports of waste 
into Michigan landfills rose from 6,349,695 cubic yards during the 1999 
reporting period to 9,373,115 cubic yards in FY 2000, an increase of 
46.7 percent. The largest individual source of waste imports continues 
to be from Canada, with total reported imports to landfills of 
4,216,814 cubic yards, up 1,874,023 cubic yards or 80 percent from the 
1999 FY. This increased amount of waste imports also means there is an 
increased amount of truck traffic on Michigan roads. Truck traffic 
continues to be a growing concern because there are currently an 
estimated 65 trucks per day from Toronto alone and an estimated 110-130 
trucks per day in total from Canada. As the amount of truck traffic 
increases, the dangers associated with this increased truck traffic 
also continues to rise. While wastes have been received from a number 
of states, most of the out-of-state waste that is not imported from 
Canada, comes from those states immediately adjacent to Michigan; Ohio, 
Wisconsin, Illinois, and Indiana. Michigan does not collect data on 
waste exports; however, contacts with neighboring states indicate that 
Michigan exports only very limited quantities of solid waste.
    A particular concern to Michigan is the fact that our Canadian 
neighbors are foregoing more cost-effective disposal options that are 
available to them within their own country in favor of transporting 
their solid waste into Michigan. This was particularly noteworthy in 
Toronto's decision to forego the proposal to utilize the Adam's Mine 
site in Kirkland Lake. This site presented several advantages including 
(1) providing for the long-term disposal needs of Canadian residents; 
(2) offering economic benefits for Canada, including retention of jobs 
in Ontario; and (3) use of railroad lines, which are a safer and more 
efficient means of waste transportation compared to roads. In addition, 
higher costs for disposal in Michigan would intensify the challenges 
that already exist for Toronto's city budget.
    Since the 1992 Fort Gratiot decision, Governor John Engler has 
worked on a cooperative basis with other states and with the Congress 
to seek a balanced and comprehensive legislative remedy to this issue. 
In addition, on May 28, 1999, Governor Engler took action to further 
evaluate how Michigan can best address the issue of regulating imports 
of solid waste from other states and countries by establishing the 
Michigan Solid Waste Importation Task Force (Task Force). The Task 
Force was created to examine trends, causes, and consequences of out-
of-state waste imports and to develop recommendations to address this 
issue. Outcomes identified in the Task Force's final report, which were 
based on data only through 1998, include:

<bullet> If imports were to remain at then current levels, which were 
        increasing between FYs 1997 and 1998 at a rate of .3 percent, 
        their impact on available disposal capacity would continue to 
        be minimal.
<bullet> Solid waste imports show a continuing trend to increase and 
        recent figures show the rate of increase is growing 
        significantly, as shown in more recent data which indicate 
        between FYs 1999 and 2000, imports are now increasing at a rate 
        of 32 percent.
<bullet> Losing capacity at significantly increased rates undermines 
        long-term comprehensive solid waste management planning 
        conducted by Michigan communities.
<bullet> Continuing increases in imports will hinder growth of 
        recycling in Michigan.
<bullet> State legislation that will actually limit waste imports will 
        likely not withstand constitutional challenge, and state 
        legislative approaches that will withstand constitutional 
        challenge are not likely to be effective at limiting imports.
<bullet> All state level efforts attempted in other states to control 
        waste imports have been found unconstitutional because Congress 
        has not enacted laws to grant states the authority to regulate 
        this area of commerce.
    It is clear that the only sure remedy to withstand legal challenge 
is one based on authority granted to states by Congress; and most court 
decisions have made clear that Congress has this authority.
    Since the 1992 Fort Gratiot decision, the Michigan Legislature has 
proposed several bills seeking to restrict imports of out-of-state 
solid waste. These bills have generally followed two approaches. One is 
to impose an outright ban. Similar laws enacted in other states have 
been uniformly struck down as unconstitutional. The other is to 
prohibit imports from jurisdictions whose disposal bans are less 
stringent than Michigan's. Based on the Fort Gratiot decision and 
subsequent Supreme Court decisions, it is clear that absent federal 
legislation authorizing states to restrict imports/exports of out-of-
state waste, such state laws would not withstand legal scrutiny.
    Michigan strongly supports HR 1213. We believe that this bill, if 
enacted, would provide Michigan and other states the tools needed to 
restrict out-of-state waste imports in a manner that would be the most 
effective approach for managing environmental impacts from waste 
imports.
    While Michigan's preference remains HR 1213, we understand that HR 
667 has also been introduced to provide states with the ability to 
prohibit waste imports provided that their state plan has been 
approved. Prohibitions may not be the best approach to this issue.
    Recently, Congressman Mike Rogers has introduced legislation, HR 
1927, which would give states the authority to prohibit or limit 
foreign municipal solid waste. The Department is pleased Congressman 
Rogers has recognized this as a serious issue and has joined our 
efforts to enact federal legislation to give states control over 
municipal solid waste crossing their borders. Although HR 1927 differs 
somewhat from other bills that Governor Engler supports, such as HR 
1213 introduced by Congressman Jim Greenwood (R-PA), HR 1927 sends a 
strong message and would give Michigan the authority and flexibility to 
address waste coming from Canada. As a new member of Congress, 
Congressman Rogers' active involvement in getting the U.S. House of 
Representatives to move forward on solid waste legislation is extremely 
welcome, and can only help ensure that we get the strongest possible 
legislation out of the Congress and to the President's desk.
    We believe that the balanced regulation of interstate waste will 
prove to be an effective means of maintaining disposal capacity created 
by Michigan's communities and intended for Michigan's citizens, 
protecting Michigan's natural resources, and alleviating inadvertent 
disposal of wastes that are not permitted in Michigan landfills as a 
result of regulatory differences between United States and Canadian 
law. As previously mentioned, we believe giving states reasonable 
authority to restrict out-of-state waste imports is the most effective 
approach for managing environmental impacts from waste imports that 
will withstand legal challenge while minimizing disruptions to 
appropriate waste disposal markets.
    Thank you again for the opportunity to provide this testimony. At 
this time, states have very limited ability to regulate imports of out-
of-state solid waste; however, it is possible for federal legislation 
to create a balance between the communities' plans for their long-term 
disposal needs and the needs of private waste disposal firms to operate 
profitably, to compete fairly with each other, and to honor existing 
contractual relationships. Michigan welcomes the opportunity to provide 
assistance to this committee in developing legislation which would give 
states the ability to impose reasonable regulation of waste imports 
while recognizing existing waste management relationships and the needs 
of the waste disposal industry and waste generators to operate 
effectively. At this time, I would be pleased to answer any questions 
you may have.

    Mr. Gillmor. Commissioner Kaplan.

                   STATEMENT OF LORI F. KAPLAN

    Ms. Kaplan. Thank you very much, Mr. Chairman, members of 
the subcommittee. I am Lori Kaplan. I am the commissioner of 
the Indiana Department of Environmental Management, and I 
appreciate the invitation to appear before you this morning to 
speak on the legislation that is under consideration.
    I also would like to take the opportunity to thank the 
entire Indiana delegation who has stood united through the 
years to support efforts to control out-of-State waste into the 
State of Indiana. And, in particular, I would like to thank 
Congressman Buyer, new member to this subcommittee, who has 
helped lead the bipartisan effort along with Congressman Pete 
Visclosky on this matter.
    I would like to give you a little bit of history from 
Indiana to paint the picture, if you will. We have been one of 
the leading States as far as receipt of imports of out-of-State 
waste throughout the past decade or more. In 1996, we did 
receive 1.8 million tons of out-of-State waste. We were on an 
upward trend at that point. It continued to go up until 1998 
when we received 2.7 million tons of out-of-State waste. I am 
happy to report that we are now on a slight downward trend. 
This last year we received 1.6 million tons of out-of-State 
waste. However, that still kept us ranked sixth of all States 
in receipt of out-of-State waste, and it also comprised 20 
percent of all waste disposed of at municipal solid waste 
facilities at Indiana landfills.
    During the last year, the bulk of the out-of-State waste 
was received by adjacent States--or from adjacent States. 
However, that has not always been true. It is not that long ago 
that we were the recipient of many tons of waste from east 
coast States. This last year we did not receive any long-haul 
shipments of municipal solid waste to our landfills from east 
coast States, but as we all know, change can occur rapidly in 
the waste industry, and this also pertains to out-of-State 
waste. Governor Frank O'Bannon and myself are primarily 
interested in obtaining the tools that the administration and 
local officials can use to have control of the volume of out-
of-State we receive, and our primary goal is to protect our 
State's disposal capacity and also protect and preserve our 
natural resources.
    As you have heard from my colleagues, I would also stand in 
agreement. We are not advocating a total prohibition on imports 
or exports of out-of-State waste. There are times when it 
certainly is the most logistical and economical way in which to 
deal with it. However, there do need to be local controls for 
the sake of reliability so that we can predict what our 
capacities are and what our needs are going to be.
    Right now, in Indiana, we have 17 years of capacity in our 
current landfills. If we continue to receive wastes at the 
level we did in the year 2000, we would reduce that capacity by 
3 years. Should we revert back to 1998 levels when we were 
receiving 2.7 million tons of waste, we would lose 8 years off 
of our current capacity. If we had some type of controls in 
place where we could predict what the incoming waste would be 
from other States, we could plan better.
    Like our other States, we have also had several attempts 
through our State legislature, enacting laws to use reasonable, 
sensible ways in which to have some control over the influx of 
out-of-State waste. Of course, the Federal courts found those 
statutes to be unconstitutional and recognized the need for 
Federal legislation that would assist at the local level.
    We do stand, the State of Indiana, in support of 1213 filed 
by Mr. Greenwood and find many provisions in that that would be 
very beneficial to the State of Indiana as well as other 
States. Particularly, we do still have a law on the books in 
Indiana that requires a needs assessment before a new landfill 
or an expansion can be permitted, where we take into account 
regional and local need. Twelve-thirteen would authorize that. 
It has not yet been challenged in our courts, and we are not 
sure it would withstand a constitutional challenge.
    We also have had incidents in the past of receipt of waste 
from Canada. In 1991, we received 15,000 tons of waste from 
Canada. It is not currently an issue, but it certainly could 
arise again, especially as we hear Canada's efforts to 
eliminate their own facilities.
    In conclusion, I recognize that members of the committee do 
need to take into consideration the needs and concerns of all 
50 States, as well as the private sector when contemplating 
something very important that would impact the Commerce Clause, 
as this would. However, I hope that you will agree that there 
are benefits to some local authority, local controls so that we 
can all best manage our waste and our resources that we have 
available.
    So I would like to thank you for your time and for the 
invitation to appear here today. And at the conclusion, I would 
be happy to assist in any answering any questions. Thank you.
    [The prepared statement of Lori F. Kaplan follows:]
   Prepared Statement of Hon. Lori F. Kaplan, Commissioner, Indiana 
                 Department of Environmental Management
                          introductory remarks
    Mr. Chairman and distinguished members of the subcommittee, I am 
pleased to testify on pending legislation that would vest states and 
local governments with the authority to control shipments of out-of-
state municipal solid waste (MSW). As members of the subcommittee may 
know, Indiana's elected state officials and federal representatives 
have long been concerned that our state's efforts to manage the 
disposal of our solid waste, as required under federal law, are 
threatened by unconstrained flows of garbage from other states. I 
therefore appreciate the opportunity to offer comments on behalf of the 
State of Indiana on three bills, H.R.667, H.R.1213, and H.R. 1927, 
which were recently introduced in the U.S. House of Representatives to 
address this issue.
    There continues to be a necessity for legislation that would give 
the states some ability to control the influx of out-of-state waste. 
Shipments of interstate municipal solid waste continue to rise 
nationally, and so does public concern. A recent Congressional Research 
Service report on interstate waste shipments noted that imports have 
more than doubled from 14.5 million tons in 1993 to 32 million tons in 
2000, a 120% increase over 7 years. In Indiana, 1998 was a peak year 
for disposal of out-of-state waste. In that year, almost 2.2 million 
tons of out-of-state municipal solid waste was disposed of at our MSW 
facilities, which are mostly landfills. Those 2.2 million tons of out-
of-state waste represented 30% of the total amount of waste disposed of 
at our state's MSW facilities. Adding construction and demolition (C&D) 
debris and special waste, which are recorded separately, a total of 2.7 
million tons of out-of-state waste was disposed of at Indiana MSW 
disposal sites in 1998--enough to cover two lanes of Interstate 95 from 
Washington, D.C. to Richmond, Virginia and back again with 10 feet of 
garbage. Since 1998 there has been a 40% drop in the amount of out-of-
state municipal solid waste disposed of in Indiana. While this is 
certainly a good trend, waste imports remain very high and it is not a 
trend that can be guaranteed. The sporadic nature of waste flows could 
just as easily result in a significant increase in out-of-state waste 
next year.
    Almost all of Indiana's out-of-state waste currently comes from 
neighboring states, with most shipments originating at transfer 
stations in the Chicago area and going to landfills in the northern 
portion of the state. A number of years ago, Indiana was deluged with 
garbage shipments from New Jersey and New York. However, through 
aggressive enforcement of state regulations concerning the types of 
waste allowed in landfills, negotiated agreements between Indiana and 
those two states, and the closure of several Indiana landfills 
receiving out-of-state waste, the flow was dramatically reduced. In 
fact, last year, no long-haul shipments of municipal solid waste from 
the East Coast were sent to any Indiana landfills.
    While this situation could change, especially with the closure of 
the Fresh Kills landfill on Staten Island in New York, Governor Frank 
O'Bannon and I are chiefly concerned with ensuring that our 
administration and local officials gain the ability to control the 
overall amount of out-of-state waste shipments. Our primary goal is to 
protect our state's disposal capacity and natural resources; the origin 
of out-of-state shipments is not important.
    At the present time, Indiana has approximately 17 years of in-state 
capacity based on current disposal rates, and the state's 61 solid 
waste management districts are working hard to reduce waste disposal. 
Indiana's efforts to manage in-state disposal capacity needs could 
easily be frustrated by an influx of out-of-state waste which could 
readily exhaust landfill capacity that has been saved through local 
recycling and waste reduction efforts. At the current rate of out-of-
state waste shipments into Indiana, the capacity of our landfills could 
be reduced by three years. If Indiana was receiving out-of-state waste 
today at the 1998 rate, capacity would be reduced by eight years--
almost one half of current projected capacity. It becomes difficult to 
make the case for waste reduction in Indiana as other states' garbage 
flows freely across our borders.
    When, in 1990, out-of-state waste became an issue of public concern 
in Indiana, our state legislature passed several laws to protect our 
citizens against the unregulated importation of trash. These laws 
included a higher tipping fee for out-of-state waste and a requirement 
that out-of-state shipments be certified as not containing hazardous or 
infectious waste. A federal judge ruled that these laws violated the 
Commerce Clause of the United States Constitution and struck these 
provisions down.
    A year later, in 1991, additional regulatory provisions were 
passed, including a ban on the hauling of food and other products in a 
vehicle also used to haul solid waste and an identification sticker for 
vehicles transporting waste into Indiana. These too were ruled 
unconstitutional.
    Today, we still have a law in place from 1990 that requires 
applicants for new landfills or expansions to demonstrate that there is 
a local or regional need for additional capacity. This ``needs'' 
statute has been used to deny permits on several occasions, but there 
is great concern that this law too will not withstand court challenge 
without federal legislative action.
    After listening to today's testimony, I urge you to act to address 
this issue in a manner that carefully balances the concerns of state 
and local officials, the importance of protecting our natural 
resources, and the legitimate business interests of the waste industry. 
Congress could have and should have acted on this issue years ago when 
two former members of Congress from Indiana--Senator Dan Coats and 
Congressman Phil Sharp--labored long and hard to pass legislation. 
Indiana's current congressional delegation has demonstrated a united 
support for enacting a federal interstate waste law. In the House, 
Congressman Steve Buyer, a new member of this subcommittee, and 
Congressman Pete Visclosky, have helped to lead this bipartisan effort 
the last several years.
  h.r. 1213, the ``solid waste interstate transportation act of 2001''
    I believe that H.R. 1213, introduced by Congressman Jim Greenwood, 
represents a measured approach to providing states and localities with 
tools to limit but not eliminate out-of-state waste shipments.
    There are five separate provisions within H.R. 1213 that Indiana 
could utilize today. The first is the presumptive ban that does not 
allow landfills to accept out-of-state waste unless authorized through 
a local host agreement, state permit, or an existing contract. The 
second is the authorization of a state to limit out-of-state waste 
amounts based on receipts in 1993. The third and most important of the 
provisions for Indiana is the recognition of the ``Needs Law'' that 
Indiana has used with some limited success but which is subject to 
challenge. The fourth provision provides that out-of-state waste can 
comprise, at a minimum, 20% of a state's total MSW. And the last 
provision is the ability for state's to impose a cost recovery 
surcharge on out-of-state waste to recoup the expenditure of tax 
dollars incurred as a result of the receipt of out-of-state waste.
    Taken together, the provisions of H.R. 1213 do not eliminate 
altogether out-of-state waste shipments, which would be neither prudent 
nor necessary. They do, however, provide a mix of public notice 
requirements that will ensure public input in states' waste management 
programs and controls which can prevent unwanted floods of out-of-state 
trash.
h.r. 1927, the ``solid waste international transportation act of 2001''
    This legislation, introduced by Congressman Mike Rogers, is limited 
to dealing with solid waste originating from outside the United States. 
While such waste is not currently being disposed of in Indiana there 
have been periods of time in the past when Indiana received a 
significant number of shipments of solid waste from Canada. 
Specifically in 1991 Indiana received nearly 15,000 tons of solid waste 
from Canada. Due to the potential for importation of waste from Canada 
in the future and the impact such importation would have on landfill 
capacity, the State of Indiana supports the general concept of H.R. 
1927. However, it is expected that H.R. 1213 would achieve the same 
goals without leading to a challenge under an international trade 
agreement as solid waste from both inside and outside the country would 
be subject to the same requirements.
               h.r. 667, the ``solid waste compact act''
    This legislation, introduced by Congressman Paul Kanjorski, 
provides states the broad discretion to prohibit disposal of out-of-
state waste provided the state has an approved State Plan under the 
federal regulations. While this legislation certainly provides states 
with the greatest flexibility in preventing out-of-state waste disposal 
it also provides the greatest potential for abuse of such authority. 
The legislation would allow a state to apply the prohibition statewide 
or to a specific landfill or incinerator. Such an approach does not 
recognize regional flows of solid waste, and while the greatest concern 
has been expressed relative to the import of waste into a state, every 
state also has communities near its borders which ship waste to a 
nearby landfill or incinerator in an adjoining state. For example, last 
year Indiana generated and disposed of over 6.2 million tons of solid 
waste within its borders. Indiana shipped less than 5% of that amount 
to surrounding states. It is expected that if H.R. 667 were enacted, a 
significant amount of negotiation between states would likely occur to 
develop interstate compacts relative to solid waste imports and 
exports. For Indiana significant staff resources would be required to 
negotiate with our four contiguous sister states. By comparison H.R. 
1213 provides adequate guidance in the controls and limitations that 
may be used to restrict out-of-state waste so that interstate compacts 
would not be necessary.
                               conclusion
    I appreciate the interest of Chairman Gillmor and other 
subcommittee members in convening today's hearing and hope this is only 
a first step leading to enactment of legislation. Repeated and 
strenuous efforts to negotiate a settlement between major importing and 
exporting states--most recently involving Indiana, Michigan, New 
Jersey, New York, Ohio, Pennsylvania, and Virginia two years ago--have 
failed to produce any meaningful solution.
    I recognize that this subcommittee must weigh the interests and 
concerns of all 50 states and the private sector when considering a 
matter involving interstate commerce. On this issue, however, I am 
hopeful that you and your colleagues will agree that states should be 
allowed to exercise a reasonable set of controls to protect their 
natural resources and solid waste disposal capacity, and ensure public 
support for their own waste reduction efforts. Governor O'Bannon and I 
believe Congress should not indefinitely delay legislative action.
    Thank you again for allowing me to share the State of Indiana's 
concerns about this important public policy matter.

    Mr. Gillmor. Thank you.
    Mr. Lhota.

                  STATEMENT OF JOSEPH J. LHOTA

    Mr. Lhota. Thank you, Mr. Chairman, members of the 
subcommittee. My name is Joseph Lhota, and I am deputy mayor 
for Operations for the city of New York. Among my 
responsibilities is ensuring the environmentally safe and 
economically sound management of the city's municipal solid 
waste. I implemented Mayor Guliani's plan to close the city's 
municipal landfill at Fresh Kills on Staten Island, and we 
closed it earlier this year. On behalf of the mayor, I 
appreciate the opportunity to testify today on the pending 
interstate waste measures--bills that would have profoundly 
adverse effect on the city's day-to-day operations.
    Mayor Guliani, Governor Pataki, and New York legislature 
agreed in 1996 to close Fresh Kills by December 31, 2001. I 
might add--and it is not in my prepared remarks--that this was 
done due to a lawsuit brought by then city councilman, Veto 
Fossella, to which the elected officials in New York State all 
responded. It is important that the subcommittee recognize from 
the outset that the Giuliani administration has shut down this 
facility responsibly and appropriately, with due consideration, 
we believe, for the States and their communities that have 
chosen to accept the city's municipal solid waste.
    As I said, we closed the facility on March 22 of this year. 
And we require that all the municipal solid waste be disposed 
of in communities that expressly choose to accept our trash 
through valid and legally binding host community agreements. 
Since our plan mandates that the city can only export to 
willing, local jurisdictions, the Giuliani administration does 
not see the need for this legislation to require New York City 
to do what it already requires of itself.
    In exporting its residential waste, the city is exercising 
nothing more than the right in the U.S. Constitution that is 
extended to cities and States nationwide: Responsible, 
efficient, and environmentally sound solid waste management 
through the heavily regulated and highly competitive private 
sector. Municipal solid waste shipments have long been upheld 
by the courts as a commodity in interstate commerce, and over 
the years communities have relied on the certainty that these 
decisions provide in protecting the long-term, free market 
plans to manage municipal solid waste. This is especially 
important in a landscape where the more rigorous environmental 
protections required under subtitle D of the Resource 
Conservation and Recovery Act.
    Although the closure of Fresh Kills affects only the city's 
residential waste, the private market has been, and continues 
to be, essential to the management of that waste as it is has 
been to the disposal of the city's commercial waste. For years, 
almost 40 years, the city's commercial businesses have relied 
on private haulers to export waste from New York. For many 
communities and States, municipal solid waste disposal fees are 
an important revenue stream. I believe that each locality has a 
right to accept or reject the disposal of solid waste, not by 
Federal legislation but by locally decided host community 
agreements.
    The fact is that the city, in securing contracts for waste 
disposal exclusively at host community agreement sites, has 
furthered a partnership that benefits importer States and 
exporters alike. As the Nation's largest and most densely 
populated city of 8 million people--comprised of three islands 
and a peninsula--the ability to send waste to newer, more 
advanced regional facilities located outside the city's 
boundaries is imperative.
    For those localities that have opted to import our waste, 
the revenue generated through host community fees, licensing 
fees, and taxes has substantially enhanced their local economy, 
improved area infrastructure, paid for school construction, 
paved roads, and assisted host communities in meeting there own 
waste management needs. Clearly, there are many other 
jurisdictions nationwide that share New York's approach, since 
42 States import and 46 States, as well as the District of 
Columbia, export municipal solid waste.
    For New York City and its businesses, it selects to handle 
municipal solid waste disposal. Certainty and the long-term 
security of waste management arrangements are fundamental to 
making the city a viable place to live and work. Once 
negotiated, any disruption to the contracts and agreements 
providing the city's waste disposal framework could interfere 
in its day-to-day operations.
    This is why the city enthusiastically supports in importing 
community's right to negotiate a host community agreement most 
suited to its particular needs and to spell out in detail all 
of the provisions that make waste disposal from out-of-State 
acceptable to that locality. Conversely, the city will rely on 
private sector bidding to select the most competitive prices 
for disposal. Once formally agreed to, however, these 
agreements and contracts must be inviolate in order to preserve 
the mutual interests of both importers and exporters.
    The city, the largest consumer market in the Nation, is not 
solely dependent on exporting municipal solid waste through 
private disposal markets. It currently runs one of the most 
ambitious recycling programs in the Nation. It is the only 
large city in America that requires 100 percent of its 
households to recycle, including multi-family dwellings. And 
recovers a higher percentage of household waste than any other 
large city in this country. The city currently maintains a 
combined residential and residential recycling rate of 58.9 
percent.
    Despite the city's best waste reduction and recycling 
efforts, however, the city will still need to dispose of a 
substantial amount of its waste outside of its boundaries. I am 
confident that the capacity, the market, and the desire to 
accommodate the city's waste at out-of-State disposal sites 
will exist in the foreseeable future. To that end, Fresh Kills 
was closed by relying on free market, private sector solutions 
predicated on the contractual strength of host community 
agreements.
    On behalf of mayor and the city council, I thank the 
subcommittee and underscore the city's in addressing Congress' 
concerns regarding the transport of interstate waste. Thank 
you, Mr. Chairman.
    [The prepared statement of Joseph J. Lhota follows:]
Prepared Statement of Joseph J. Lhota, Deputy Mayor for Operations for 
                          the City of New York
    Mr. Chairman and members of the Subcommittee, my name is Joseph 
Lhota, and I am New York City's Deputy Mayor for Operations. Among my 
responsibilities is ensuring the environmentally safe and economically 
sound management of the City's municipal solid waste (MSW). I 
implemented Mayor Giuliani's plan to close the City's last remaining 
municipal landfill at Fresh Kills. On behalf of the Mayor, I appreciate 
the opportunity to testify today on pending interstate waste measures--
bills that could have a profoundly adverse effect on the City's day-to-
day operations.
    Mayor Giuliani and Governor Pataki agreed in 1996 to close Fresh 
Kills landfill by December 31, 2001, and this decision was the City's 
first step toward embarking on a new, environmentally sound course in 
the management of its solid waste. It is important that the 
Subcommittee recognize from the outset that the Giuliani Administration 
has shut down this facility responsibly and appropriately, with due 
consideration for the states and their communities that have chosen to 
accept the City's MSW. On March 22nd the City sent its last shipment of 
garbage to Fresh Kills, completing a five-phase program, initiated in 
July of 1997, requiring that all its MSW be disposed of in communities 
that expressly choose to accept it through valid, legally-binding Host 
Community Agreements. Since this plan mandates that the City only 
export to willing jurisdictions, the Giuliani administration does not 
see a need for legislation to require New York City to do that which it 
already requires of itself.
    In exporting its residential waste, the City is exercising nothing 
more than the right the Constitution extends to cities and states 
nationwide--responsible, efficient, and environmentally-sound solid 
waste management through heavily-regulated and highly competitive 
private sector businesses. MSW shipments have long been upheld by the 
courts as a commodity in interstate commerce, and over the years 
communities have relied on the certainty these decisions provide for 
protecting long-term, free market plans to manage solid waste. This is 
especially important in a landscape where the more rigorous 
environmental protections required under Subtitle D of the Resource 
Conservation and Recovery Act (RCRA) have compelled communities to 
close smaller landfills for the alternative of larger, costlier, state-
of-the-art, regional facilities that comply with the law. In this 
context, the right to transport solid waste across state lines 
complements the basic reality that different regions have varying 
disposal capacities irrespective of state lines. Areas such as New York 
City and Chicago, lacking adequate space for landfills and/or 
prohibited from waste incineration, may be located closer to better and 
more cost-effective facilities in other states. These facilities need 
the additional waste generated elsewhere to pay for part of the 
increased cost of RCRA compliance.
    Although the closure of Fresh Kills affects only the City's 
residential waste, the private market is as essential to the management 
of that waste as it is to disposing of the City's commercial waste. For 
years the City's businesses have relied on private haulers to export 
waste from New York. For many communities and states, MSW disposable 
fees are an important revenue stream. The City believes that each 
locality has the right to accept or reject the disposal of solid 
waste--not by federal legislation, but by locally decided Host 
Community Agreements.
    The fact is that the City, in securing contracts for waste disposal 
exclusively at Host Community Agreement sites, has furthered a 
partnership that benefits importer and exporter alike. As the nation's 
largest and most densely-populated city of eight million people--
comprised of three islands and a peninsula--the ability to send waste 
to newer, more advanced regional facilities located outside the City's 
boundaries acknowledges the very environmental, demographic, and 
geographical realities that made closing Fresh Kills necessary. For 
those localities that have opted to import our waste, the revenue 
generated through host fees, licensing fees, and taxes has 
substantially enhanced the local economy, improved area infrastructure, 
paid for school construction, paved roads, and assisted host 
communities in meeting there own waste management needs. Clearly, there 
are many other jurisdictions nationwide that share New York's approach, 
since 42 states import and 46 states and Washington, DC, export 
municipal solid waste.
    For the City and the businesses it selects to handle MSW disposal, 
certainty and the long-term security of waste management arrangements 
are fundamental to making New York a viable place to live and work. 
Once negotiated, any disruption to the contracts and agreements 
providing the City's waste disposal framework could interfere with its 
day-to-day operations. This is why the City enthusiastically supports 
the importing community's right to negotiate a Host Community Agreement 
most suited to its particular needs, and to spell out in detail all of 
the provisions that make waste disposal from out-of-state acceptable to 
that locality. Conversely, the City will rely on private sector bidding 
to select the most competitive price for disposal. Once formally agreed 
to, however, these agreements and contracts must be inviolate in order 
to preserve the mutual interests of both importers and exporters.
    In that regard, the City has not pre-determined where its municipal 
solid waste will be disposed. Instead, it has put into place measures 
that ensure each bidder has all of the requisite environmental permits, 
along with a Host Community Agreement that verifies the receiving 
jurisdiction's approval of the disposal facility and its acceptance of 
the imported waste with applicable fees. Furthermore, the existing 
authority that states have in permitting solid waste facilities in 
accordance with their own regulatory mandates, zoning ordinances, and 
land use provisions, suggests even less cause for federal intervention 
through legislation to restrict exports.
    In closing Fresh Kills landfill, the City looked to the private 
sector and the competitive free market to shape the future availability 
of disposal sites. In July of 1997, when the City began the first phase 
of diverting waste from the landfill, The New York Times reported that 
New Jersey and Connecticut officials were ready to welcome New York's 
waste because it made ``good economic sense.'' Robert E. Wright, 
president of the Connecticut Resource Recovery Authority, which 
oversees and is part owner of that state's incinerators, told the 
press, ``I guess we probably have a more favorable eye on New York than 
some more distant states.'' Of some jurisdictions The Times reported 
further, ``In New Jersey, where counties have spent millions of dollars 
to build incinerators, local officials generally are eager for any 
guaranteed flow of trash. If anything, imported garbage at a plant like 
the Newark incinerator is more desirable than the local trash because 
the city gets a 10 percent share of the fee charged.''
    The City, the largest consumer market in the nation, is not solely 
dependent on exporting MSW through private disposal markets to close 
Fresh Kills. It currently runs one of the most ambitious recycling 
programs in the nation, and is the only large city in America that 
requires 100 percent of its households to recycle--including multi-
family dwelling residents--and recovers a higher percentage of 
household waste than any other large city in the country. The Giuliani 
Administration plans to do even more. In the recently adopted City 
budget, the Mayor has included over $12 million additional dollars for 
the ongoing expansion of the City's recycling programs, including new 
materials, increased education and outreach, furthering compliance, new 
equipment for improving efficiency, increased enforcement, and 
residential backyard composting. The City currently maintains a 
combined residential and community recycling rate of 58.9 percent. 
Moreover, the Mayor's long-standing directive to all City agencies to 
reduce workplace waste and establish accountability measures for waste 
reduction have further reduced daily tonnage.
    The City's residents are huge consumers of goods manufactured in 
and shipped from other states, and the waste generated by packaging 
materials is significant. For that reason, the Mayor supports federal 
legislation that would limit packaging or require manufacturers to use 
some percentage of recycled content in packaging material. Such 
requirements would have a tremendous--and measurable--effect on the 
quantity of exported solid waste. Despite the City's best waste 
reduction and recycling efforts, however, the City will still need to 
dispose of a substantial amount of its waste outside its boundaries. I 
am confident that the capacity, the market, and the desire to 
accommodate the City's waste at out-of-state disposal sites will exist 
in the foreseeable future. To that end, the Giuliani administration has 
successfully closed Fresh Kills by relying on free market, private 
sector solutions predicated on the strength of Host Community 
Agreements.
    On behalf of Mayor Giuliani, I thank the Subcommittee, and 
underscore the City's interest in addressing Congress' concerns 
regarding the interstate transport of municipal solid waste.

    Mr. Gillmor. Thank you, Mayor, and we will now proceed to 
questions of the panel. Let me start with a question for 
Director Jones. You mentioned in your testimony that Ohio has 
taken steps to ensure that it has the landfill capacity it 
needs. Could you elaborate on how that relates to the need for 
this legislation?
    Mr. Jones. Mr. Chairman, it really is a question of 
fairness. I think, as has been mentioned before, and why we 
have watched Pennsylvania very closely, we have taken the steps 
to address a capacity need. We had limited capacity in the late 
eighties. We got comprehensive legislation in place to address 
that. We have put a tremendous amount of time, energy, effort, 
and cost into planning, into management. We now have the third 
revision to our statewide management plan out for public 
comment. And at least as a result--part as a result of all that 
effort, we have got our capacity established for the next 20 
years, and we all know how difficult it is to site a landfill. 
And the fairness comes into it to the extent that we should not 
have to try to anticipate some unreasonably high level of 
imports that we can't plan for nor can we control.
    And we are--I think it has been emphasized several times, 
we are not saying we don't want any. We actually export a 
million tons and import more than that. So we are not saying 
don't do it, but we are saying give us the ability to control 
it as a matter of fairness and encourage other States to take 
the same steps. When you close Fresh Kills, obviously you are 
going to have to replace that capacity. We are suggesting maybe 
replace it in New York as opposed to Ohio. And I think that 
that is what we are talking about. It is the unfairness of 
trying to anticipate an unreasonable amount of out-of-State 
waste imported to the State of Ohio.
    Mr. Gillmor. Director, what would be the effect, in your 
opinion, if Federal out-of-State--or Federal legislation on 
out-of-State waste is not enacted?
    Mr. Jones. Well, we have started to see some of the 
impacts, because, again, our landfills in Northeast Ohio are 
right now applying for increased capacity. And as I mentioned 
in my testimony, we have the benefit of very good interstates--
east-west interstates that meet in Northeast Ohio. And with the 
trend over the last 4 years being increased imports, we expect 
that is going to continue. And because of that, the opposition 
to siting landfills, other landfills in the State of Ohio will 
increase. We have had a number of bills introduced in the 
general assembly to put a flat moratorium on any new landfills 
in the State, and we have to be able to plan for the future, to 
site landfills.
    We take the position that because--I was told when I was 
appointed, ``The natural resources guy, that is the good guy. 
They do lakes and parks and fish. You are the bad guy; you site 
landfills.'' And that is--I think we all have that experience. 
Putting a landfill in is a difficult thing to do. When the 
percentage is you are putting a landfill near me to handle 
waste from 500 miles away? It becomes next to impossible to do 
that in a thoughtful manner. And so my concern is we are going 
to have 12 years of effort putting in place a very strong 
management go down the drain because of something we have no 
control over. The ability that this legislation gives us to 
control some of that out-of-State waste, I think, will allow us 
to argue back, ``No, our siting criteria and good and positive, 
and they will allow us to address these issues.''
    Mr. Gillmor. Thank you. Just a quick question, Mayor Lhota. 
You talked about the closing of Fresh Kills and the requirement 
that the waste be disposed of in communities with a host 
community agreement. Of the host community agreements you have, 
how many of them are proportionally in communities in New York 
State?
    Mr. Lhota. Mr. Chairman, to my knowledge, of the 25 hose 
community agreements we have, none of them are in New York 
State. They were competitively--the city of New York 
competitively bid out, under our procurements requirements. As 
we phased in the closure of Fresh Kills, we advertised 
nationally, working with the private sector, and received bids 
back. And we, obviously, under our requirements, also went for 
the least costly bids. I don't know the answer to the question 
how many we received from New York State, but I do know that 
none of the ones that we have entered into--we have entered 
into 19. Six are currently under what we call vendex review, 
what is called our procurement process. All of them, all 25 are 
outside the State of New York.
    Mr. Gillmor. Thank you. The gentleman from New Jersey, Mr. 
Pallone.
    Mr. Pallone. Just following up on that, has the State of 
New York or New York City undertaken any actions to provide 
disposal capacity for New York City trash within the State of 
New York?
    Mr. Lhota. Mr. Pallone, I can only speak for the city of 
New York. I have had numerous meetings with the commissioner of 
Environmental Conservation in New York State discussing this 
issue, but I don't know specifically what they have done. And I 
apologize that I don't have an answer for you.
    Mr. Pallone. Is there--I will ask some of the other State 
witnesses, have you engaged in good faith negotiations with New 
York to come up with a compromise? And if so, what was the 
outcome of those negotiations, if anybody else wants to 
respond, for those who are taking trash from New York?
    Mr. Hess. Mr. Pallone, I believe it was about 2 years ago 
there were some serious efforts underway to negotiate with New 
York City, but unfortunately that ultimately fell apart.
    Mr. Pallone. You wanted to say something? Go ahead. Okay. I 
guess then it is your position--I guess you have already stated 
it, but it is obvious after these few questions here--that 
unless this committee or the Congress acts, there is no real 
prospect for relief from unwanted out-of-State trash?
    Mr. Jones. Mr. Pallone, I came from the attorney general's 
office. I was in environmental enforcement, so I think my 
background tells me there have been enough lawsuits, there have 
been enough attempts at the State level to impose restrictions 
that have been stricken down by the courts that I think we 
know, as Russ says, the legislation won't go anywhere. The 
courts have been clear that the Congress has to act to give us 
these tools for us to manage waste in our States.
    Mr. Pallone. And because of those rulings, any effort to 
compromise and negotiate anything basically has no teeth, and 
you can't get anybody to agree on anything.
    Mr. Jones. It becomes very difficult.
    Mr. Pallone. Okay. Go ahead, Mr. Harding.
    Mr. Harding. Yes. In our State, the Governor--actually, 
some of the folks in the legislature that proposed these laws, 
he put them on a task force, and they came back after studying 
it, and said, ``Congress has to solve it.''
    Mr. Pallone. Okay. I wanted to ask--I have a concern over 
the fact that recycling and waste reduction efforts are not 
working as well as I would like them to. And I just wondered if 
there is any effect from out-of-State imports on the 
willingness of your States' citizens' participation, for 
example, in waste reduction or recycling programs? Does that 
impact or in any way related to the fact that it is becoming 
more difficult to do waste reduction or get citizens involved 
in recycling? Anybody who would like to answer that.
    Ms. Kaplan. Thank you. Obviously--and I was remiss in not 
stating in my testimony--that we do have solid waste districts 
that cover just about our entire State. And the main goal of 
those solid waste districts is to divert waste from our 
landfills through reuse, recycling, and reduction. And, 
obviously, all capacity gained as a result of that, if it is 
lost to out-of-State waste, becomes self-defeating, and it is 
hard to continue to motivate the population to do that. We have 
opted to do it, at this point in time, in Indiana on a 
voluntary basis. But what is the incentive if it does not gain 
anything for them?
    Mr. Pallone. So you think it has an impact, and it may 
contribute to less citizen involvement.
    Ms. Kaplan. I think that that is a real concern.
    Mr. Pallone. Anyone else want to comment on that? Mr. 
Harding?
    Mr. Harding. Well, I would say I would agree. I think that 
largely we have some market problems of recycling, and that is 
a heavy part of it, but I think a proposed solution here could 
provide an incentive for the State to get into more mandated 
recycling, even with some of the market problems, to 
participate in having more control over the destiny of our 
waste. Without that, there is not a lot of political will.
    Mr. Pallone. Go ahead, Mr. Jones.
    Mr. Jones. One of the things that we have done as a part of 
our statewide management plan, we set recycling goals, and for 
approval, each of the solid waste management districts has to 
have a plan in place that meets that goal for their district 
before they can get their plan approved. So we have taken the 
steps that we can, but as has been mentioned, it is almost a 
self-defeating proposition. And given the effort that it takes, 
really, to get recycling done, it is hard to convince 
management districts you need to make this huge effort if all 
you are going to do is create space for out-of-State waste.
    Mr. Pallone. Thank you. Thank you, Mr. Chairman.
    Mr. Gillmor. Thank you very much. Let me say, the bells 
indicate we have three votes in the House. We have got about 
maybe 10 minutes more of questioning. We are trying to wrap up 
questions of this panel, and if we are able to, then we can 
recess and do the next panel at 1 o'clock. The gentleman, Mr. 
Buyer.
    Mr. Buyer. Thank you. I have just a series of questions. To 
the gentleman from New York, are there environmental laws or 
regulations in the State of New York that restrict your ability 
to enter into these agreements with anyone from your State? I 
mean I don't understand why you have got to have these 
agreements with other people and not your State. So hold that 
thought.
    To Ms. Kaplan, my question to you is that in your testimony 
you indicate that the volume of out-of-State has decreased 
somewhat in the last 2 years. While I am pleased to see that, I 
would like to know what you attribute to this reduction.
    Also, Ms. Kaplan, it appears clear that legislation, such 
as H.R. 1927, providing authority for States to prohibit 
incoming shipments of foreign solid waste would run afoul with 
existing international agreements, such as the provisions under 
NAFTA and the principal bilateral agreement negotiated between 
the United States and Canada covering such waste shipments. The 
Governor of Indiana, Governor Frank O'Bannon, and lieutenant 
Governor are also, like myself, supporters of NAFTA. In your 
testimony, you allude to these concerns with Mr. Rogers' 
legislation. I would like for you to elaborate.
    Also in your testimony, you note that H.R. 1213 might be a 
more effective way to achieve the same goals. Because H.R. 1213 
provides similar authorities to restrict, via cap or freeze, et 
cetera, incoming out-of-State municipal solid waste, whether 
foreign or domestic. Would those provisions also likely run 
afoul with existing international trade agreements?
    Ms. Kaplan. Would you like me to go first? First of all, as 
far as the decrease of out-of-State waste in Indiana, in 
reviewing that and trying to determine what the reason for that 
would be, one is that we had been receiving a larger amount of 
waste from the Chicago area, and there have been additional 
facilities opened up or expanded in that area, so less has been 
exported from Chicago to Indiana.
    Also, in prior years, as I had indicated, we did receive a 
great deal of waste from east coast States. There has been a 
lot of work between representatives of those States and 
negotiations. And I believe through those efforts the east 
coast waste is not currently coming to Indiana. So I think 
those are two of the main reasons.
    One of the things that we have talked about today is the 
unpredictability of the travels of out-of-State waste and where 
it ends up. So while we are seeing a downward, it could turn 
around again.
    In my written testimony, we did state a preference by the 
State of Indiana for H.R. 1213. Many provisions in that that 
would benefit the State. There was some concern, although I 
will say that there was not extensive analysis, on the impact 
on international trade agreements. However, it appears that 
1213 would cover the international waste concerns that we had, 
and we, therefore, endorse that piece of legislation.
    Mr. Lhota. In response to your question, there are, to my 
knowledge, no statute, rules, regulations pertaining toward 
waste going from New York City to somewhere else in New York 
State. The reason why none of it has gone to New York State is 
purely economic. The city of New York puts out bids, and has 
over the last 4\1/2\ years nationwide, and advertises. We then 
look at what is the least expensive route to disposal of a 
city's trash. And in that process, jurisdictions outside the 
State of New York have been less expensive.
    Mr. Pallone. Let me ask this: Would the State of New York 
permit a landfill within 3 miles of the Hudson River, Upstate 
New York?
    Mr. Lhota. I can't--I do not know.
    Mr. Pallone. Because that is where it happens in Indiana. 
It is within a few miles of the Tippecanoe River where I grew 
up, and the Chicago trash gets dumped right in there. So if you 
have got a State like New York who says, ``No, you can't put it 
within so many miles of a particular river or stream,'' that is 
fine, that is your business. But then you don't care if you 
want to send that trash to somebody else. That is what makes it 
pretty insensitive from the views of the importing States. That 
is why I am just curious whether you have particular 
regulations, environmental compliance that forces you to put it 
out onto other States?
    Mr. Lhota. I don't know the specifics of to be able to 
answer your question, sir, I am sorry.
    Mr. Pallone. Thank you.
    Mr. Gillmor. We have about 5 minutes before the vote. We 
will go to Mr. Towns for questions. Then we will break, and we 
will reconvene at 1 and finish this panel and do the next 
panel. Mr. Towns.
    Mr. Towns. Thank you very much, Mr. Chairman. Let me just 
sort of make certain that something is clear here. That there 
is an RFP that goes out and people bid, and then based on the 
lowest bidder in all of that, that is what really happens to 
the--where it ends up. And these contracts are monitored, as I 
understand it. Is that correct?
    Mr. Lhota. That is correct.
    Mr. Towns. So if there was a lowest bidder in New York and 
it was the best deal, you would have to contract with that 
person in New York.
    Mr. Lhota. We would.
    Mr. Towns. So I want to make that very clear. How does the 
mayor's long-term plan for waste disposal place a greater 
emphasis on barge and rail shipment of export rather than 
trucking?
    Mr. Lhota. The long-term export plan relies exclusively on 
barge and rail to mitigate the negative impact of the amount of 
trucks that are put onto the roads, both as various different 
State commissioners have testified prior to my testimony of the 
negative impact of the number of trucks on the roads. I tend to 
agree and have met with the private sector, those people that 
we have contracted with, and said it is very important that 
their trucks be up--there be no violations.
    As the secretary from--or the commissioner from the 
Pennsylvania and the Commonwealth of Pennsylvania, immediately 
after he began his program met with the private sector to say, 
``Look, it is very important, just as the city of New York 
gives violations to truckers whose trucks are not up to 
snuff.'' We give them violations. That is the right of the 
Commonwealth of Pennsylvania. It is very important that we 
respect the rights of these other States when it comes to 
trucking. The long-term plan, however, involves no trucking. It 
will be almost 90 percent by rail--basically 100 percent by 
rail; the rest by barge.
    Mr. Towns. Mr. Chairman, I know we have a vote on, so let 
me, first of all, thank you very much for allowing me to ask 
some questions. Also to say to you, Deputy Mayor, that really I 
appreciate the effort that you have done in terms of dealing 
with these contracts in local jurisdictions. These are people 
that have agreed to accept. It is not something that anyone is 
forcing them to do, and I think that that needs to be made 
clear. This is an agreement, and that based on the agreement 
this is the way it ends up there. It is not that New York is 
riding around in a helicopter dropping the garbage out in 
different locations, and I think that needs to be made clear.
    I mean the way--so you are talking about legislation, but I 
think we need to look at what we are dealing with here. If 
there is an area that is saying that ``We would like to bid for 
this,'' and you pay me a fee for it, I think we have to be 
careful how we move here, Mr. Chairman. I know some folks are 
anxious and eager to dump on New York, but I think maybe we 
need to find another way to do it. Thank you.
    Mr. Gillmor. That would make the New York the dumpee 
instead of the dumper, right?
    The committee stands in recess until 1 o'clock.
    [Whereupon, at 12:07 p.m., the subcommittee recessed, to 
reconvene at 1 p.m., the same day.]
    Mr. Gillmor. The subcommittee will come to order, and we 
will resume panel two and complete our round of questioning.
    The gentleman from New York, Mr. Fossella.
    Mr. Fossella. Thank you, Mr. Chairman, again. Just, again, 
to put some perspective back into this, I know some of the 
panelists were concerned, and it seemed as if New York was the 
only issue. However, according to Congressional Research 
Service, Pennsylvania exports more than 553,000 tons of 
garbage. The folks from Ohio might be upset, because 77 percent 
of that goes to Ohio. Virginia exports about 150,000 tons. Ohio 
exports over a million tons, primarily to Michigan.
    And I guess what I am just aiming at--adding that as a 
purpose to demonstrate that this happens all the time--Michigan 
to Ohio, Pennsylvania to Ohio, Ohio to Michigan. So I just 
don't want to make it seem like New York or people in New York 
are the only ones that generate garbage and need to do 
something about it. Not to suggest that what you have been 
trying to do is unreasonable or in your State's best interest, 
but I think it is a level of perspective that is warranted in 
this debate.
    I have got a question here. Accordingly, Mr. Jones, you 
mention in your testimony that Ohio receives 380,000 tons of 
waste from Pennsylvania and that Pennsylvania has been one of 
the top exporting States to Ohio over the past 5 years. And Mr. 
Hess, in his testimony, says, ``Some States have found it 
easier to dump on their neighbors than to develop disposal 
facilities and recycling programs to handle the waste they 
generate.'' Do you believe this is the case with Pennsylvania 
or does it only underscore that waste is shipped interstate for 
economic and geographic reasons, not because some States are 
irresponsible?
    And last, I think it was a reasonable and legitimate 
concern, and I ask this of all of you--in particular let me, 
one, commend Mr. Lhota, because closing the Fresh Kills 
Landfill was a monumental task, and he really needs to be 
credited a great deal for doing that, because he has worked 
hard, and the people of New York, in particular Staten Island, 
should be grateful.
    But Mr. Lhota, I know we have concerns about the haulers 
and truckers, which is a reasonable safety concern. So I am 
curious to hear not only from you but from others of what steps 
and measures are being taken to address the safety of those 
haulers that transport waste across State lines.
    Mr. Lhota. Mr. Fossella, I will be very brief, because I 
think the commissioners from the other States should address 
this issue. But immediately upon the beginning or the 
commencement of Operation Clean Sweep, which is, I believe, the 
Commonwealth of Pennsylvania's program--is that what it is 
called Clean Sweep? I met with the industry--representatives of 
the industry to say that it is an important thing that the 
trucks all be properly registered and be safe and be sound. Not 
all of the trucks that were stopped in Pennsylvania came 
through with trash from New York City, but you shouldn't be 
able to distinguish one from another. Those trucks need to 
drive safe and soundly. Just as I am responsible for enforcing 
the laws of the city of New York, they are responsible for 
enforcing the laws in their jurisdictions in this particular 
State. So what I did immediately upon recognition that some of 
these trucks being used were not up to snuff, met with the 
industry to say, ``You have got to get your act together. This 
is a very important thing to do.''
    Mr. Fossella. Thank you.
    Mr. Jones. I think I would respond in a couple ways to your 
question. First, you compare the 380,000 tons from the entire 
State of Pennsylvania to the 333,000 tons from the city of New 
York, and that is why I pay attention to New York City. It is 
24 percent of all out-of-State waste receipts are from one 
city. So that causes me to pay attention to it. We consider, 
essentially, the western two-thirds of the State of 
Pennsylvania to be short haul, and I think we have all talked 
about the fact that we don't object to imports. We all import 
and export. I think all of these States do that. The 
particularly troubling part of it is the long haul, and when 24 
percent of the out-of-State waste comes from one city, and it 
is a long-haul city, I have to pay attention to that. But I 
think more importantly both Pennsylvania and Ohio have been 
very proactive. For Ohio, literally over a decade ago, we 
started the process of comprehensive planning and management 
for waste disposal, and very purposefully and deliberately 
increased our capacity statewide.
    And I think the concern I have is that it hasn't been a 
secret for a long time that Fresh Kills was closing, and I 
think the testimony this morning was that 25 host community 
agreements are all outside the State of New York. And our 
concern is New York needs to address its major problem--I mean 
closing that much capacity is a problem they have to address--
and it shouldn't be addressed simply by disposing out of State. 
We think it is appropriate to look in-State as well, just as 
Ohio and Pennsylvania have done in order to address the 
problem.
    Mr. Hess. Mr. Chairman, if I might briefly address this 
issue. I think, too, it is also a matter of scale. Half a 
million tons a year is a far cry from the 9.8 million tons a 
year we get from out of State. I would also say, just to echo 
what Chris said, it is a lot different when States are making 
an effort. But when it is clearly the case that New York is not 
making any effort to develop capacity, that does raise the 
fairness issue.
    On the truck safety issue, we thought it was fairly ironic, 
and I do welcome the efforts of the city of New York to police 
the trucks coming into Pennsylvania, the odd situation was that 
the top three trucking companies--the three trucking companies 
with the most violations were the biggest companies--Waste 
Management, Gephardt Trucking, and BFI in our 40,000 
inspections. They had the most problems. It wasn't the little 
guys that typically some people may think have the problems. It 
was the big guys, and unfortunately those guys are involved in 
long-haul hauling of trash. And, again, I welcome whatever the 
city of New York can do to police it from their end, because it 
is a critical public safety issue.
    Mr. Gillmor. Do you have additional questions, Vito?
    Mr. Fossella. More of just a statement. I think--I would 
hope New York does--the State of New York does take measures, 
and I know they have been meeting over the last several years 
to try to develop a plan. So to say they haven't been taking 
any steps, I think, is unfair and just not accurate. Now, are 
we satisfied what they have done? That is a matter of 
disagreement, but to say they haven't done anything I think is 
unfair.
    All I want to suggest is somehow it seems okay, and I am 
not criticizing the States and the gentleman and the ladies up 
here at all, because they have a very serious job, a very heavy 
responsibility, and I am sure they do it all, and they take 
their jobs very seriously, but they address their municipal 
solid waste, residential garbage, if you will, by entering into 
agreements with surrounding States. And New York does the same. 
I just want to make sure everyone is aware that what is good 
for the goose is good for the gander. Now, you may argue over 
the volume and the amounts, and that is a matter of criticism 
that you can lobby, but every State--well, not every State--but 
a lot of States do it, millions of tons every day go across our 
highways from State to State. And just to label New York, paint 
it in the corner, I think is unfair.
    Mr. Gillmor. That will conclude this panel. I would ask the 
panel as some members of the committee have indicated they had 
some additional questions they may want to submit to you in 
writing, and we would appreciate it if you could respond to 
those. And thank you very much for being here. Very helpful.
    We will call panel three, which is our final panel. It is 
comprised of Bruce Parker of the National Solid Waste 
Management Association; Ervin Rogers, the chairman of the board 
of supervisors in Gloucester, Virginia; Mr. Tim Berlekamp, 
director of the Mahoning County, Ohio Recycling Division, who 
has the distinction of being from the same home county as the 
chairman, which is a little place, so you don't often find two 
of us together at the same time; Mr. Thomas Woodham, vice 
chairman of Lee County, South Carolina Council in Bishopville, 
South Carolina.
    Gentlemen, we have your testimony, and if you would take 5 
minutes to summarize your presentation before we move to 
questions. I want to thank you all for coming, and we will 
begin with Mr. Parker. And I also apologize for the wait until 
we got to this panel, but some of these things are beyond our 
control.
    Mr. Parker.

 STATEMENTS OF BRUCE PARKER, PRESIDENT AND CEO, NATIONAL SOLID 
WASTE MANAGEMENT ASSOCIATION; ERVIN ROGERS, CHAIRMAN, BOARD OF 
   SUPERVISORS, GLOUCESTER, VIRGINIA; TIMOTHY B. BERLEKAMP, 
  DIRECTOR, RECYCLING DIVISION OF MAHONING COUNTY, OHIO; AND 
   THOMAS WOODHAM, VICE CHAIRMAN, LEE COUNTY, SOUTH CAROLINA

    Mr. Parker. Thank you, Mr. Chairman. Can you hear me? Good. 
My name is Bruce Parker, and I am the executive vice president 
of the National Solid Waste Management Association. NWSWMA 
represents the private sector waste services industry. Our 
members operate in all 50 States.
    The message that I want to leave you with is simply this: 
Restricted borders have no legitimate role in managing 
municipal solid waste or any other commodity, for that matter, 
in our economy. They make neither economic nor environmental 
sense. They are contrary to the trend toward bigger, better 
disposal facilities and to the trend toward more innovative, 
flexible waste management technologies and practices. For these 
reasons, NWSMA members are opposed to H.R. 1213 on principle, 
as well as for other reasons set forth in the detailed analysis 
as an attachment of this statement.
    In spite of all the impassioned language you have heard 
denouncing interstate movement of waste, the reality is simple: 
Most States export and import garbage, and none are harmed in 
the process. If you look to that chart right there, that map, 
that dramatically depicts, on a national basis, what basically 
is a very intricate and extensive web of transactions, mostly 
between contiguous States and involving both imports and 
exports. In fact, according to the Congressional Research 
Service's recent update on interstate movements, 46 States 
exported MSW and 42 States imported solid waste. Only one 
State, Hawaii, neither imported nor exported. Twenty-four 
States and the District of Columbia and the Province of Ontario 
exported more than 100,000 tons last year, and 28 States 
imported more than 100,000 tons. Fifteen of these States 
imported and exported more than 100,000 tons.
    The point I think is that, like recyclables, raw materials, 
finished products, other goods, solid waste does not recognize 
State lines as it moves through commerce. The trash from the 
District of Columbia or Maryland is no different than the trash 
from New Jersey or California or Ohio.
    Now, what really explains this tremendous web of 
transactions that is on that chart? The answer, I think, is 
this: In 1990, America had nearly 10,000 disposal facilities; 
today we have less than 2,600. This dramatic change resulted as 
small landfills closed under the Federal Resource Conservation 
Act, subtitle D, and in response to State requirements for 
tougher environmental protection and financial assurance, both 
of which substantially increased development costs, 
construction costs, operating and maintenance costs of these 
facilities. The CRS report notes, as someone else testified 
earlier, that the number of landfills declined 51 percent 
between 1993 and 1999. Incidentally, RCRA and the role of the 
States in fostering larger regional facilities was a matter of 
national policy, I may add.
    Bigger, better, more environmentally protected disposal 
facilities were, or said differently, regional facilities 
serving communities in waste sheds were constructed out of 
necessity and in anticipation of receiving sufficient volume of 
waste, both within and outside the host State, to generate 
revenues to recoup these development costs as well as a 
reasonable return on investment. The development of regional 
landfills was not only entirely consistent with all applicable 
laws, but as just stated, they were responsible to and promoted 
by Federal and State policy as the best solution to the need 
for economical and environmentally protected disposal of MSW.
    Solid waste moves across State lines not only because many 
out-of-State landfills are closer to communities than those in 
their own State, such as in the Chicago Collar County area that 
sends waste to Wisconsin as well as to Indiana. But many 
communities, in fact, actually invite waste in. They invite 
waste in, because they look upon disposal as just another type 
of an investor activity that provides a source for jobs and 
income. These communities benefit from significant 
contributions to the local fiscal through host fees, property 
taxes, and business license fees. These communities have built 
schools, they have built other public facilities, they have 
hired teachers, they have hired policemen and firemen as a 
result of these host community payments.
    Significantly, this issue of interstate disposal is not a 
public versus private issue, as so many issues are. The Solid 
Waste Association in North America, the acronym is SWANA, which 
represents our counterpart, the public sector of solid waste 
managers, is a officially on record of supporting the free 
movement of solid waste across jurisdictional boundaries. They 
know, as we do, that restricting the movement of interstate 
waste will increase disposal requests for local communities and 
be a tax increase on their residents.
    Let me also address for a moment, if I may, and very 
briefly, H.R. 1927, the bill sponsored by Representative 
Rogers. H.R. 1927 is aimed at restricting Canadian garbage. 
This bill, on its face, would violate the North American Free 
Trade Agreement, which prohibits unilateral attempts to 
discriminate against trade between any of the three NAFTA 
countries. And I think it is also emphasized by some of the 
questions of earlier panelists. In addition, the U.S. exports 
increasing amounts of hazardous waste to Canadian disposal 
facilities. If our borders are closed to Canadian solid waste, 
why can't Canada shuts its borders to hazardous waste 
originating in Michigan, Pennsylvania or other States?
    In conclusion, I appreciate the opportunity to testify. My 
formal remarks are concluded, and I would be happy to answer 
any questions that you should have. Thank you.
    [The prepared statement of Bruce Parker follows:]
Prepared Statement of Bruce Parker, Executive Vice President, National 
                  Solid Wastes Management Association
    Mr. Chairman, on behalf of the private sector solid waste 
management industry, I appreciate the opportunity to testify today on 
proposed interstate waste legislation. I am Bruce Parker, Executive 
Vice President of the National Solid Wastes Management Association 
(NSWMA). NSWMA represents private sector companies that collect and 
process recyclables, own and operate compost facilities and collect and 
dispose of municipal solid waste. NSWMA members operate in all fifty 
states.
    The solid waste industry is a $43 billion industry that employs 
more than 350,000 workers. We are proud of the job we do and proud of 
the contribution our companies and their employees make in protecting 
the public health and the environment. America has a solid waste 
management system that is the envy of the world because of our ability 
to guarantee quick and efficient collection and disposal of trash in a 
manner that fully conforms with state and Federal waste management laws 
and regulations.
    Our members provide solid waste management services in a heavily 
regulated and highly competitive business environment. Like all 
businesses, we are keenly interested in proposals, such as restrictions 
on the interstate movement of MSW, that would change that regulatory or 
competitive environment, increase the cost of waste disposal and 
threaten the value of investments and plans we have made in reliance on 
the existing law.
    The message I want to leave with you is this: restricted borders 
have no legitimate place in managing trash or any other product in our 
economy. They do not make economic or environmental sense. They are 
contrary to the concept of open borders; contrary to the evolution to 
bigger, better, more environmentally sound disposal facilities; 
contrary to our desire to keep disposal costs for taxpayers low, and 
contrary to the trend toward more innovative, flexible, waste 
management facilities.
    In the balance of this statement, I will share with you our reasons 
for concern and opposition to H.R. 1213, the ``Solid Waste Interstate 
Transportation of 2001'', H.R. 1214, the ``Municipal Solid Waste Flow 
Control Act of 2001'' and H.R. 1927, the ``Solid Waste International 
Transportation Act of 2001''. I will discuss the background and context 
as we see it, and the flaws in the proposed legislation. In particular, 
detailed comments on H.R. 1213 are set forth in an attachment to this 
statement.
                   the scope of interstate movements
    Interstate waste shipments are a normal part of commerce. In spite 
of all the impassioned language you have heard from a few states 
denouncing garbage that moves across state lines, the reality is 
simple: most states import and export garbage and none are harmed in 
the process.
    According to ``Interstate Shipment of Municipal Solid Waste: 2001 
Update'', which was released by the Congressional Research Service 
(CRS) in mid-July, 30 million tons of MSW crosses state borders. This 
equals approximately 13% of the garbage generated in the United States 
and about 18% of the garbage disposed of in the United States.
    These shipments form a complex web of transactions that often 
involve exchanges between two contiguous states in which each state 
both exports and imports MSW. In fact, the vast majority of MSW, more 
than 80%, goes to a disposal facility in a neighboring state. According 
to the CRS report, 24 states, the District of Columbia and the province 
of Ontario exported more than 100,000 tons of solid waste last year. At 
the same time, 28 states imported more than 100,000 tons. Fifteen 
states imported and exported more than 100,000 tons.
    The CRS report documents interstate movements of MSW involving 49 
of the 50 states. Forty-six states, the District of Columbia and one 
Canadian province export and 42 states import. Attached is a map 
showing the movement of solid waste among the states based on the data 
in the CRS report.
    Moreover, while some states are the biggest exporters based on 
tonnage, several small states and the District of Columbia are highly 
dependent on waste exports. In addition to Washington, DC, which 
exports all of its MSW, Maryland, New Jersey and Vermont export the 
highest percentage of solid waste. The reality is that MSW moves across 
state lines as a normal and necessary part of an environmentally 
protective and cost effective solid waste management system. Like 
recyclables, raw materials and finished products, solid waste does not 
recognize state lines as it moves through commerce.
    CRS cites a number of reasons for interstate movements. These 
include enhanced disposal regulations and the subsequent decline in 
facilities. In addition, CRS notes that in larger states ``there are 
sometimes differences in available disposal capacity in different 
regions with the state. Areas without capacity may be closer to 
landfills (or may at least find cheaper disposal options) in other 
states.''
                     the role of regional landfills
    The CRS report notes that the number of landfills in the US 
declined by 51% between 1993 and 1999 as small landfills closed in 
response to the increased costs of construction and operation under the 
Resource Conservation and Recovery Act (RCRA) Subtitle D and state 
requirements for more stringent environmental protection and financial 
assurance. The number of landfills in the early 1990s was nearly 10,000 
while today there are about 2,600 and the total number continues to 
decline as small landfills close, and communities in ``wastesheds'' 
turn to state-of-the-art regional landfills that provide safe, 
environmentally protective, affordable disposal.
    Construction and operation of such facilities, of course, requires 
a substantial financial investment. By necessity, regional landfills 
have been designed in anticipation of receiving a sufficient volume of 
waste from the wasteshed, both within and outside the host State, to 
generate revenues to recoup those costs and provide a reasonable return 
on investment.
    It was widely recognized that the costs to most communities of 
Subtitle D compliant ``local'' landfills were prohibitive. The 
development of regional landfills was not only entirely consistent with 
all applicable law, it was viewed and promoted by Federal and State 
officials and policy as the best solution to the need for economic and 
environmentally protective disposal of MSW.
    These regional landfills provide safe and affordable disposal as 
well as significant contributions to the local economy through host 
fees, property taxes, and business license fees. Additional 
contributions to the communities include free waste disposal and 
recycling services, and in some cases assumption of the costs of 
closing their substandard local landfills. These revenues and services 
enable the host communities to improve and maintain infrastructure and 
public services that would otherwise not be feasible.
 both the public and the private sectors oppose interstate restrictions
    NSWMA is not alone in opposing restrictions on interstate waste. 
The Solid Waste Association of North America (SWANA), which represents 
public sector solid waste managers, also opposes these restrictions. At 
its mid-year meeting last summer, SWANA's International Board of 
Directors voted unanimously to approve a policy statement that supports 
``the free trans-boundary movement of solid waste''.
    Public sector waste managers and private sector waste management 
companies agree that they can't do their job and protect the public 
health and the environment while having their hands tied by artificial 
restrictions based on state lines.
                        host communities benefit
    MSW also moves across state lines because some communities invite 
it in. Many communities view waste disposal as just another type of 
industrial activity, as a source of jobs and income. As noted above, 
these communities agree to host landfills and in exchange receive 
benefits, which are often called host community fees, that help build 
schools, buy fire trucks and police cars, and hire teachers, firemen 
and policemen and keep the local tax base lower.
                          the broader context
    The proposed legislation before you would radically disrupt and 
transform the situation I have described. For that reason, as well as 
the precedential nature of some of the provisions, let me suggest that 
you consider those bills in a broader context.
    The applicability of the Commerce Clause to the disposal of out-of-
State waste is well established by a long line of U.S. Supreme Court 
decisions spanning more than a quarter of a century. As you probably 
know, the original decision protected Pennsylvania's right to export 
its garbage to a neighboring state. The Court has consistently 
invalidated such restrictions in the absence of Federal legislation 
authorizing them.
    Throughout this period, private sector companies did what 
businesses do: they made plans, invested, wrote contracts, and marketed 
their products and services in reliance on the rules which clearly 
protected disposal of out-of-State MSW from restrictions based solely 
upon its place of origin.
    In this fundamental sense, the interstate commerce in waste 
services is like any other business, and proposed legislation to 
restrict it should be evaluated in the broader context of how you would 
view it if its principles and provisions were made applicable to other 
goods and services, rather than just garbage.
    Consider, for example, parking lots. Suppose a State or local 
government sought Federal legislation authorizing it to ban, limit, or 
charge a differential fee for parking by out-of-State cars at privately 
owned lots or garages, arguing that they were using spaces needed for 
in-State cars, and that the congestion they caused was interfering with 
urban planning, etc. Or suppose they asked for authority to tell 
privately owned nursing homes or hospitals that they couldn't treat 
out-of-State patients because of the need to reserve the space, 
specialized equipment, and skilled personnel to meet the needs of their 
own citizens. Similar examples can easily be identified--commercial 
office space for out-of-State businesses, physicians and dentists in 
private practice treating out-of-State patients, even food or drug 
stores selling to out-of-State customers.
    I would hope that in all of these cases, you would respond to the 
proponents of such legislation by asking a number of questions before 
proceeding to support the restrictions: What kind of restrictions do 
you want? Are they all really necessary? Can you meet your objectives 
with less damaging and disruptive means? What about existing 
investments that were made in reliance on the ability to serve out-of-
State people? What about contracts that have been executed to provide 
that service? Would authorizing or imposing such restrictions be an 
unfunded mandate on the private sector providing those services, or on 
the public sector outside the State that is relying on them? Would such 
restrictions result in the diminution of the value of property 
purchased in reliance on an out-of-State market, and thereby constitute 
a ``taking''? Will the restrictions be workable and predictable? I 
respectfully suggest that you ask the same questions about the proposed 
legislation involving restrictions on interstate msw.
                        the proposed legislation
    The proposed legislation before you (H.R. 1213, H.R. 1214 and H.R. 
1927) fail to protect host agreements, investments or contracts. None 
of the bills preserves an opportunity to enter and grow in a market 
that demands economic and protective waste disposal. And none of the 
bills provides predictability about the rules that will apply to 
interstate shipments of waste. The array of discretionary authorities 
for Governors to ban, freeze, cap, and impose fees, and then change 
their minds -over and over again, promises to result in chaos and a 
totally unpredictable and unreliable market and waste disposal 
infrastructure. In the worst case, hasty state action to ban or limit 
imports could lead to a public health crisis in exporting states if 
their garbage has no where to go. As noted earlier, attached to this 
statement is a detailed analysis of the many flaws that I see in the 
provisions of H.R. 1213.
    Finally, let me comment briefly on H.R. 1214, which would restore 
flow control authority, and on H.R. 1927, which would allow states to 
prohibit the importation of MSW form Canada and Mexico, signatories 
with the United States to the North American Free Trade Agreement.
                              flow control
    NSWMA opposes restoration of flow control because it's too late to 
put Humpty Dumpty back together again. In the 7 years since the Carbone 
decision, landfills and transfer stations have been constructed, trucks 
have been bought, people have been hired, contracts have been written, 
and both the consumers and providers of waste services have experienced 
the benefits of a competitive market. These investments and 
arrangements cannot be undone, nor should they be. The facilities that 
benefited from an uncompetitive monopolization of local solid waste 
management have learned to compete in a free market. They have become 
more efficient and competitive as a result of the rigors of the free 
market system. Why would anyone want to replace a competitive system 
with uncompetitive monopolies?
      prohibiting the importation of canadian waste violates nafta
    H.R. 1927, the Solid Waste International Transportation Act of 
2001, would allow states to ban solid waste from other countries. This 
legislation is aimed directly at Canadian exports. As such, it is 
inconsistent with the national treatment requirement of the North 
American Free Trade Agreement (NAFTA) which provides that Mexico, 
Canada and the United States must treat goods from one another in. a 
manner that is no less favorable than that accorded to domestically 
produced like products. This requirement of national treatment extends 
to states.
    MSW may not be everyone's favorite commodity, but it is protected 
by the same free trade provisions that protect paper and cars and 
television sets. If we could close our borders to Canadian solid waste, 
what would prevent Canada from closing its borders to American 
hazardous waste? American exports of hazardous waste to Canadian 
disposal facilities have increased dramatically over the last five 
years. If Michigan can ban Canadian MSW, should not the Canadians be 
allowed to ban Michigan hazardous waste?
                               conclusion
    Thank you, Mr. Chairman. That concludes my statement.

    Mr. Gillmor. Thank you, Mr. Parker.
    Mr. Rogers.

                    STATEMENT OF ERVIN ROGERS

    Mr. Ervin Rogers. Thank you, Mr. Chairman. Mr. Chairman, 
members of the subcommittee, I appreciate the opportunity to 
address you today concerning the legislation before you at this 
time. I currently serve Gloucester County, Virginia as chairman 
of the board of supervisors. I am here today to express my 
views not those of the board, though I would like to leave with 
you a resolution passed by the board supporting State Senator 
Billing's legislation known as the Solid Waste Management Act 
of 1999 giving the State of Virginia some control over the 
amount of waste imported from out of State. My intent here is 
to show you from the public record what the board's attitude 
was concerning controls on import of out-of-State waste.
    I would also like to leave with you a resolution passed by 
the Gloucester Republican Committee supporting previous House 
bill, H.R. 1190, also putting controls on out-of-State waste. 
Again, I hope to show you from the public record that at least 
one faction of the community supported controls on out-of-State 
waste. It is my opinion that the majority of the County of 
Gloucester supports local and State controls on the import of 
out-of-State waste, but these two resolutions are the only 
proof from public record I could acquire on short notice.
    During my time to address you today, I would like to 
present some information concerning the mega landfill located 
in Gloucester County, Virginia. I want to include information 
concerning our contract with Waste Management, some history 
about how the facility came to be built, some input on how the 
community has been affected by the landfill, and finally give 
you a brief statement of my position concerning the legislation 
before this subcommittee.
    Before I get started, I would like to take a moment to give 
you some insight in how I became interested in local politics. 
I entered local politics in 1992 over the board's desire to 
build a mega landfill in Gloucester. I was a principal leader 
in the fight against the facility. I attended board meetings 
for 2 years before the contract between Gloucester County and 
Waste Management was signed and for another 4 years before 
being elected to the board. I also attended Planning Commission 
Meetings for 4 years prior to serving on the board. After the 
contract was signed I was concerned about where county 
leadership was taking the county. I sought out the Planning 
Commission to help me with these concerns. I found that this 
commission and its staff was forward thinking with only the 
best interest of the county in mind. My current position on the 
landfill in Gloucester is to make the best out of the contract 
without increase daily tonnage.
    With your permission, I would like to continue by stating 
some facts about Gloucester's contract with Waste Management. 
Gloucester owns the mega facility and has contracted with Waste 
Management to operate it. The facility was purchased with money 
donated to the county for that purpose by Waste Management--
around $2 million. The contract states that if for any reason 
Gloucester terminates the contract, the county will reimburse 
all money invested in the facility by Waste Management, 
including this $2 million. The contract is for 20 years, and 
Waste Management has the right to renew. The county cannot deny 
them renewal.
    Waste Management must dispose of Gloucester's solid waste 
for 20 years, even if they walk away from the facility. Waste 
Management is allowed to dispose of 2,000 tons a day in the 
facility, including the tonnage from the county. Gloucester 
County gets 50 cents a ton up to a certain tonnage, then $1 a 
ton tipping fees. Estimated income for next year is $375,681. 
We also get an inspection fee of $56,522 and an implementation 
fee of $91,371, for a total of $523,574.
    Primary benefit to Gloucester County is deferred cost for 
county waste disposal. The landfill should have a life 
expectancy of 47 years at a rate of 2,000 tons a day. The 
facility occupies 500 acres and will rise to 300 feet. In the 
year 2000, Waste Management's figures stated that the facility 
brought in 519,532.7 tons. And in-State tonnage was 184,094.2 
tons. Out-of-State tonnage was 335,438.5 tons, or 64.5 percent 
of the facility's capacity used in 2000 came from out-of-State.
    Now I would like to address some history concerning the 
implementation of this facility. The contract was signed in 
1992; the facility went into operation in 1995. The decision by 
the board of supervisors to bring a commercial landfill to 
Gloucester County was by a vote of 4 to 3. The community showed 
up at board meetings at a rate of about 250 people for 2 years 
to show their disfavor with the board's position. Eight 
thousand names were collected on a petition against bringing 
such a facility to Gloucester County and presented to the 
board.
    After the contract was signed, a movement took place to 
remove four supervisors that voted for this contract from 
office on the grounds of malfeasance. The required number of 
signatures were collected to bring this issue to court. In the 
case of the at-large supervisor, this amounted to 1,681 
registered voter signatures. The case was dismissed due to a 
technicality.
    All four board members that supported the landfill were 
removed from office in their next bid for re-election. One had 
been in office for 28 years and was defeated by the first woman 
elected to the Gloucester Board of Supervisors, a 32-year-old 
teacher's aide. Another had been on the board for 16 years and 
was defeated by a margin of approximately 2 to 1. Another had 
been on the board for 12 years and another for 4 years. This 
supervisor finished fourth in a four-way race.
    One was defeated within 1 year of the contract signing and 
the other three were defeated 2 years after the signing. The 
citizens of Gloucester County had long memories concerning this 
issue. Two board members that did not support the landfill are 
still on the board; the other ran successfully for re-election 
one more time and then retired. I currently fill his seat. I 
represent the district where this facility exists.
    I personally was told by a Waste Management representative, 
in a private conversation, that New York solid waste would 
never be disposed of in Gloucester County, that this facility 
would be only a regional landfill. The landfill is still a 
volatile issue in Gloucester county.
    How has this facility affected county? The landfill has 
been operating since 1995. Nearly all citizens that lived on 
the perimeter of the landfill have sold their homes and 
property to Waste Management and moved. The community has been 
inconvenienced by traffic, noise, odor, and litter. There have 
been a couple of engineering mistakes that have caused 
prolonged problems with large volumes of escaping gas--one 
lasted for a period of nearly 6 months. Medical waste has been 
found on the property a couple of times. Erosion has caused 
problems with adjoining property.
    The facility manager has been successful with an extensive 
public relations campaign. He is active with the chamber of 
commerce and has made numerous donations to public service 
organizations. He lives in James City County. I consider this 
man a friend. We don't often agree on matters concerning the 
facility, but have learned to work together, sometimes coming 
to an agreement, sometimes not.
    It is my opinion that landfills are a necessary evil but a 
threat to the environment. No engineering solution that is 
composed of a man-made material can last forever. A State 
should only have landfill capacity that allows it to manage 
solid waste in a manner that is acceptable to its citizens. 
Without the capability to manage the amount of out-of-State 
waste brought into a State, no meaningful solid waste disposal 
strategy can be developed by a State or local government. 
Without the ability to develop such a strategy, a State can 
have nothing to say about the environmental risk that is being 
imposed on its citizens and natural resources by the disposal 
of solid waste within its boundaries.
    Waste disposal companies and counties that have become 
dependent, for whatever reason, on solid waste tipping fees 
will control all of this. For this reason, I support the 
Greenwood bill and the changes proposed by Representative 
Davis. Giving States the ability to set caps on the percentage 
of solid waste imported from out of State in existing 
facilities is paramount to allowing States to manage solid 
waste in a meaningful way. Thank you very much, sir.
    Mr. Gillmor. Thank you, Mr. Rogers.
    Mr. Berlekamp.

                STATEMENT OF TIMOTHY B. BERLEKAMP

    Mr. Berlekamp. I would like to begin by changing my written 
testimony from ``Good morning, Mr. Chairman'' to ``Good 
afternoon, Mr. Chairman and subcommittee members.'' My name is 
Tim Berlekamp. I am the director of the Recycling Division in 
Mahoning County, which used to be the Mahoning County Solid 
Waste Management. I appreciate the opportunity to testify on 
H.R. 1213 in its current state. I would like to say that I 
agree in principle with this legislation, but I am a bit 
concerned with its grandfathering issues.
    I would first like to describe the condition of my current 
county. Mahoning County is located on the Ohio-Pennsylvania 
border. We have three active private sector landfills, of which 
one of them is the largest in the State of Ohio and responsible 
for at least one-third to one-half of the imported out-of-State 
waste. This particular landfill also has a current host 
agreement with the Board of County Commissioners, the Recycling 
Division, the Health District, Poland Township, which is the 
host community township for this landfill.
    This agreement was first executed in 1990, shortly after 
the passage of house bill 592, which I think you are 
endearingly responsible for, Mr. Chairman, and we appreciate 
that in the State of Ohio. I would like to also clarify there 
are no host agreements with the other two active landfills at 
this time, but their import of out-of-State waste is 
insignificant to the 500,000 to 700,000 tons a year from BFI/
Carbon Line.
    I took my position as the director of Mahoning County in 
February 1999, so I can only comment on previous negotiations 
through historical records and discussions with those present 
at the time. We have, however, in the last 2 months 
renegotiated agreement at this particular facility for an 
additional 500 tons of long-haul waste. to clarify the 
difference between long haul and local waste, there is a 150-
mile radius within that facility. Anything outside of that 150 
miles we consider as long haul.
    I need to note that the original agreement was amended four 
times prior to this one, and I bring that point to surface in 
order to show that a good host agreement is able to be amended 
with the changing conditions of the time.
    I have two major issues I would like to present to the 
subcommittee. The first is the strength of a good public/
private sector relationship accomplished through constructive 
and professional negotiations. Mahoning County has benefited 
from BFI/Allied, not only through the revenues legislated by 
house bill 592 but also by the negotiated conditions allowing 
BFI/Allied to receive out-of-State waste and benefits to the 
local communities, such as water lines, waste-water treatment 
plants, road maintenance, sidewalks, ball fields, and free 
waste disposal for affected citizens, which are just a few of 
these.
    We are also the only county in the State of Ohio that 
receives free curbside recycling and continues to enjoy a good 
dialog with BFI/Allied as conditions change and needs arise. I 
must emphasize, however, I do not believe that this 
relationship would have accrued without the anticipated passage 
of house bill 592, and for this reason, I believe legislation 
like H.R. 1213 is necessary.
    The landfill had been operated several years before 592 
with little or no benefits realized to our community. The need 
for legislation requiring operators and local communities to 
negotiate their fate is definitely required. This issue is 
perhaps one where the private sector and I would disagree since 
their optimum position would be there are no barriers to the 
flow of interstate waste.
    During my years as a public servant, six of which were as a 
county commissioner, I never remember a time when any private 
sector entity approached me and asked me to negotiate a 
relationship which would impact their operation unless it was 
for a tax abatement or monetary incentive that would enhance 
their operation. For this reason, I believe that the principles 
of H.R. 1213 are a good one.
    The second issue I would like to address would be the 
intent of H.R. 1213 to ensure local control. I feel that the 
bill restricts or limits, through definitions and exceptions, 
the grandfathering of many good current host agreements within 
the State of Ohio. An example is the definition of ``affected 
local government'' as ``The public body authorized by State law 
to plan for the management of municipal solid waste, a majority 
of the members which are elected officials, for the area in 
which a landfill or incinerator is located or proposed to be 
located.''
    Now the following explanation is rather complicated, so I 
am going to move through it a little bit slowly. In Ohio, the 
State law requires a Policy Committee to be developed to make 
the planning environment for the area which it affects. That 
planning body is made up of a county commissioner or his 
designee, the mayor of the largest metropolitan area or his 
designee--he or she--a township trustee, and the board of 
health director. Those four then appoint three ad hoc committee 
members, of which two represent the citizenry and one 
represents an industrial representative. As you can clearly 
see, there are only three elected officials on a body of seven, 
and therefore the definition of effected local government may 
contradict what Ohio has done.
    But I go on to say that once they have developed a plan 
that plan must be ratified by a unanimous vote of the Board of 
Commissioners, by the unanimous vote of the largest 
metropolitan area, and by at least 60 percent of the population 
of the area of which it affects. I think that is a very 
positive affirmative action process, which then fulfills the 
intent of the author of this legislation.
    In summary, I would like to emphasize one major point: 
Local control of State waste issues is imperative. Another tool 
for meeting such fundamental local control responsibility is 
flow control authority, and I urge this subcommittee to take 
consideration of H.R. 1214 in the near future. I believe we 
have come a long way from the local community dumps many of us 
remember, including yourself, Mr. Chairman, on the banks of the 
Sandusky River in Old Fort, Ohio. And I believe that our 
private sector partners in this effort have worked diligently 
to communicate and cooperate when required. This solid waste 
playing field must always have two teams and a fair set of 
rules to ensure the most economical, environmentally sound and 
professional service to our constituents. Thank you all for 
your time, and I would be happy to answer any questions upon 
the completion of this testimony.
    [The prepared statement of Timothy B. Berlekamp follows:]
    Prepared Statement of Timothy B. Berlekamp, Director, Recycling 
                      Division of Mahoning County
    Good morning Chairman Gillmor and members of this subcommittee. My 
name is Tim Berlekamp, and I am the Director of the Recycling Division 
of Mahoning County, a.k.a. Mahoning County Solid Waste Management 
District. I appreciate the opportunity to testify on HR 1213 in its 
current state. I would like to say that I agree in principle with this 
legislation but I am concerned with some of the provisions and 
definitions related to the grandfathering of current host agreements.
    I would like first to describe my county's situation. Mahoning 
County is located on the Ohio-Pennsylvania border. We have three active 
private sector landfills and two closed ones. The largest of the active 
landfills is Carbon Limestone that is operated by BFI/Allied and is 
located directly on the border between Pennsylvania and Ohio. This 
particular landfill is also one of the largest in the State of Ohio and 
is responsible for approximately one third of the out-of-state waste 
received within the state. There currently exists a host community 
agreement between BFI/Allied and the Board of Commissioners, the 
Recycling Division, Poland Township, the township in which the landfill 
is located, and the local health department. This agreement was first 
executed in June of 1990 shortly after the passage of HB 592, Ohio's 
first and only comprehensive solid waste management legislation. HB 592 
was passed June 24, 1988. I believe that you are very familiar with 
this legislation, Mr. Chairman. I would also like to clarify the fact 
that there is no county host agreement with the other two landfills, 
one of which is operated by Waste Management and the other privately 
owned by Ms. Joanne Douglas and her family.
    I took my position as Director in Mahoning County in February, 
1999, so I can only comment on previous negotiations through historical 
records and discussions with those present at the time. We have, 
however, just recently negotiated an addendum to the original agreement 
allowing a 500-ton per day increase in long haul waste. For agreement 
purposes, we consider anything outside of a 150-mile radius as long 
haul. I need to note here that the original agreement has been amended 
through negotiations four previous times, so this addendum would make 
the fifth. I make this point to illustrate the ability of concerned 
entities to adapt their agreements to changing conditions. This is the 
power of good host community arrangements.
    I have two major issues I would like to present to this 
Subcommittee. The first is the strength of a good public/private sector 
relationship accomplished through constructive and professional 
negotiations. Mahoning County has benefited from BFI/Allied not only 
through the revenues legislated by HB 592 but also by negotiated 
conditions allowing BFI/Allied to receive out-of-state waste. Such 
benefits as water lines, a waste-water treatment plant, road 
maintenance and free waste disposal to affected citizens are just a 
few. We are the only county within the state of Ohio that receives free 
curbside recycling and continues to enjoy a working dialog with BFI/
Allied as conditions change and needs arise. I must emphasize, however, 
I do not believe that this relationship would have accrued without the 
anticipated passage of HB 592, and for this reason, I believe 
legislation like HR 1213 is necessary. The landfill had operated 
several years prior HB 592 with little or no benefits realized by our 
community. The need for legislation requiring operators and local 
communities to negotiate their fate is definitely required. This issue 
is perhaps one where the private sector and I would disagree since 
their optimum position would be no barriers to the flow of interstate 
waste. During my years as a public servant, six of which were as a 
county commissioner, I never remember a time when any private sector 
entity approached me and asked for a negotiated relationship which 
would impact their operation unless it was for a tax incentive to 
enhance their operation. For this reason alone, I believe that the 
principle of HR 1213 is a good one.
    The second issue I would like to address would be the intent of HR 
1213 to ensure local control. I feel that the bill restricts or limits, 
through definitions and exceptions, the grandfathering of many good 
current host agreements within the state of Ohio. An example is the 
definition of ``affected local government'' as ``(A) the public body 
authorized by State law to plan for the management of municipal solid 
waste, a majority of the members of which are elected officials, for 
the area in which a landfill or incinerator is located or proposed to 
be located.''
    I would like to refer to my own division. In order to have an 
approved plan which drives the negotiation process, a Policy Committee 
made up of a County Commissioner or his/her designee, a Township 
Trustee, the Mayor of the largest metropolitan area within the county 
or his/her designee, the Director of the local health district, two 
citizen representatives and one representative from an industrial 
generator must develop and write a comprehensive solid waste plan for 
the division. Once that plan has been written, it must be ratified by a 
unanimous vote of the Board of Commissioners, and affirmative votes by 
the largest metropolitan area and at least 60% of the population of the 
county represented by the townships, incorporated villages and other 
cities. I believe that you would agree that this process clearly 
represents the public will, but it would not meet HR 1213's narrow 
definition of ``affected local government.''
    In summary, I would like to emphasize one major point. Local 
control of solid waste issues is imperative. Another tool for meeting 
such fundamental local government responsibility is flow control 
authority. I urge the subcommittee to take up consideration of HR 1214 
in the near future.
    I believe we have come a long way from the local community dumps 
many of us can remember, including yourself, Mr. Chairman on the banks 
of the Sandusky River in Old Fort, Ohio. And I believe that our private 
sector partners in this effort have worked diligently to communicate 
and cooperate when required. This solid waste playing field must always 
have two teams and a fair set of rules to ensure the most economical, 
environmentally sound and professional service to our constituents. 
Thank you all for your time and I would be happy to answer any 
questions you may have of me.

    Mr. Gillmor. Thank you very much.
    Mr. Woodham.

                   STATEMENT OF THOMAS WOODHAM

    Mr. Woodham. Thank you, Mr. Chairman. It is good to be here 
this afternoon. As you stated, my name is Thomas Woodham. I am 
vice chairman of Lee County Council at Bishopville, South 
Carolina. A little history about Lee County: We are located 60 
miles east of Columbia off Interstate 20. We are in the PD 
region of South Carolina. We are a rural agriculture community. 
We are approximately 20,000 to 21,000 people. Our two largest 
employers, which closed about 4 years ago, were textile plants. 
Our county budget is around $8 million; our local school 
funding is $4.2 million. Our tax is $25,000.
    When I first got elected in 1988, one of the first issues 
before me was the solid waste disposal. The county landfill was 
filling, which at that time was unlined hole in the ground that 
we were covering on a random basis, and I am not very proud of 
that. We attempted to site a new landfill with DHEC, which is a 
State controlling agency. We had six or sever sites rejected. 
At that time, we knew we were not going to be able to get--meet 
the new regulations for an unlined facility.
    We began negotiations with a waste firm to take control of 
our existing landfill and build a new subtitle D facility in 
Lee County. We reached an agreement and a contract for 
services. The company agreed to close out our old landfill with 
test wells. Lee County waste was accepted at no cost to Lee 
County residents. Any out-of-county waste Lee County received a 
tipping fee. At that time, we had no out-of-State waste. After 
a few years of operation and the council planning for the 
future of Lee County, the council revisited our contract with 
Allied Waste and negotiated receiving out-of-State waste.
    Some of the benefits. Well, Allied Waste has been--No. 1, 
they have been a real good neighbor. We have an environmentally 
safe facility, reduced to eliminated costs for waste disposal 
in Lee County. Last year, we put $1.2 million in non-tax 
revenue in that $8 million budget. They have got 80 jobs out at 
the landfill; they are the largest taxpayer in Lee County. 
Closure and monitoring of the county's old landfill saved us 
approximately $1 million.
    Control of our tax rates with growth in services, and 
examples of that, we just built a new $17 million high school 
in Lee County. The Sheriff's budget has gone from $300,000 to 
$1 million a year. Instead of about 9 years ago we were buying 
used patrol cars for North Carolina, we are rotating five new 
ones in each year. We built a new judicial center for 
magistrate court and the Sheriff's Department--$1.3 million. It 
is paid for. We have got a new emergency rural fire and 
disaster preparedness building.
    Regional jail--we have gone into a regional jail agreement 
with our neighbor county, Sumter County. Our buying costs of 
$700,000, that money is already set aside in our budget. Last 
year we brought enhanced 911 center online--complete new 
department for Lee County with approximately 12 employees. The 
year we brought it online we cut the millage in Lee County. We 
have gone from rescue squad that was all volunteer to a 
countywide EMS which is a mix of paid and volunteers. We were 
putting in about $10,000 a year, and now it is up to a $300,000 
budget. This year we bought three new ambulances at $80,000 
apiece and three new fire trucks at a $140,000 apiece, 
completely upgrading our emergency response capabilities. We 
don't have a hospital in Lee County.
    We upgraded our pay scales in order to get quality 
employees for quality results. We support our employees with 
continued education. At the current time, we are also building 
10 recycling centers around the county for waste collection. We 
used to have about 120 sites that we picked up. Four of those 
are completed, and four more are coming online this year. The 
landfill has agreed to take over the hauling inside of the 
county from these locations.
    With the money that we feel we are going to save on the 
hauling, we are beginning a rocking program for our dirt roads. 
We have got 400 miles of dirt roads in Lee County. We are 
upgrading our county buildings--the courthouse, the library, 
rural fire stations, Council on Aging Ag Center. Public Works 
has gotten two new motor graders, $170,000 apiece. Dump trucks, 
we have done a lot. Working with the city of Bishopville to 
upgrade our water and sewer and an infrastructure for 
industrial recruitment has been our No. 1 task.
    We have gotten two new industries in the last 3 years. We 
have upgraded our old industrial park, paved the roads, 
drainage, lighting, we have got a 40,000 square foot spec 
building sitting on that site. We have also acquired 220 acres 
beside Interstate 20, on the other side of the county, and we 
have got curb and gutter with the retention ponds, water and 
sewer, 250,000-gallon water tank, substation, all the amenities 
you need in order to recruit industry.
    We completely rebuilt our rail system in Lee County, 
because we have got about 30,000 tons a month that comes in by 
rail. We have increased our local funding to public education 
by 60 percent in the last 5 years, and I think that is the most 
important thing we have done. Working with adult education in 
the tech school for job training and continued education we 
hope to have a satellite campus for the tech school in Lee 
County in the near future. We know we have got to have an 
educated work force for future industry in Lee County.
    The members of Lee County Council and I realize that 1 day 
the facility will close. Our plan is to upgrade education, 
emergency service, police protection, quality of life, and the 
ability to bring industry into Lee County. That is our future. 
As much as I hate to say it, it is all about money. Without the 
ability to negotiate our contract, knowing what our needs are, 
establishing a good working relationship and trust with the 
landfill operators, State inspection of the facility and 
monitoring, I hope you understand why Lee County supports out-
of-State waste. Waste is a dirty word to some, but managed 
properly it can be a tremendous asset.
    [The prepared statement of Thomas Woodham follows:]
Prepared Statement of Thomas Woodham, Vice Chairman of the Lee County, 
                         South Carolina Council
    Mr. Chairman and members of the Subcommittee, my name is Thomas 
Woodham and I appreciate the opportunity to testify today on the 
movement of municipal solid waste between states. As a long time member 
of the Lee County Council I experienced first hand the closure of our 
substandard facility and the development of a Subtitle D facility to 
replace our old landfill.
    Lee County is a poor, rural, agricultural community. As such many 
agricultural by-products such as animal wastes, pesticides and other 
agricultural by-products were disposed of in our landfill. A few years 
ago, the State of South Carolina told us we had an environmentally 
unsafe landfill and that we would have to close it. We made seven 
proposals to develop a new landfill, but each one was rejected by the 
state. At this time a private waste company approached us and offered 
to build and manage a waste facility in our county. We accepted their 
offer and the Lee County Landfill was developed with the state's 
blessing. Today our landfill takes in 2,500 tons of waste both from 
within our borders and outside our state borders. The landfill is 
inspected several times a month by state authorities and has never been 
found to pose any danger to the surrounding environment.
    The benefits we have received from this arrangement with the 
private waste company include $1,000,000 in savings on the closure 
costs associated with our old landfill, free disposal for the county, a 
rebuilt rail line and more than $1,000,000 annually in host fees. The 
$1,000,000 in host fees we receive represents roughly one-eighth of our 
annual budget. We have invested these host fees in a new high school 
and new industrial park. Our objective is simple, reinvest the revenues 
generated by the landfill in projects designed to improve our 
infrastructure and thereby better position Lee County to attract new 
businesses long after the landfill has reached capacity and closed. 
Once the landfill is closed we plan on turning it into a 1,500 acre 
park for the citizens of Lee County to enjoy for years to come.
    Without the revenues generated by this landfill, Lee County would 
not be able to develop the infrastructure necessary to attract new 
business in the future because there is a very limited tax base and no 
reason to believe that would change on its own. The landfill has been a 
savior for the county from a revenue perspective and every member of 
our county council is pleased with the arrangement we have with the 
private waste company. All told the savings we realized in the closing 
of the old landfill and free disposal and the host fees we receive from 
the facility will put tens of millions of dollars into our county 
coffers by the time the landfill reaches capacity. We would not have 
been able to generate similar revenues without the Lee County Landfill 
and the fees we receive from accepting out-of-state waste.
    On behalf of Lee County, I would like to thank the Committee for 
letting me share our views with you. I would be happy to answer any 
questions.

    Mr. Gillmor. Thank you very much, Mr. Woodham, and we will 
proceed to questions. I wanted to ask you, Mr. Parker, in your 
statement, you talked about the legislation, if it passed, 
could result in a diminution of the property value and 
constitutionally constitute a taking. You want to elaborate on 
that a little bit? What would be the property that would be 
diminished in value, and what would be taken from 
constitutional----
    Mr. Parker. This is from my written testimony?
    Mr. Gillmor. Yes.
    Mr. Parker. Yes. If you look at the structure of the bill, 
it is very disingenuous, because it basically starts off with a 
presumptive ban, which says nothing can come in. And then it 
allows waste to come in the various facilities based upon 
certain conditions. You have to have a host community 
agreement, you have to have a contract, you have to have a 
permit. And then it puts conditions on those conditions to 
quality for exemptions, to qualify to be exempted from the 1993 
base year level that the State can impose as the freeze, for 
the 20 percent restriction that the State can impose in terms 
of limiting out-of-State wastes that come in. It goes on and 
on.
    My members have made significant capital investment based 
upon existing law at the time. They have made business plans, 
pursuant to the Constitution of the United States for publicly 
traded companies as well as for private companies that we 
represent, to build landfills to comply with Federal and State 
law--bigger, better, better engineered.
    If in fact this legislation were enacted, I believe that 
there would be some serious questions of whether it doesn't 
violate the constitutional prohibition against taking. I would 
also add that this an area of law which is very fluent and 
dynamic. Indeed, just 2 weeks ago, the United States Supreme 
Court decided a case called Palazzolo v. Rhode Island, where 
the Supreme Court allowed taking claim to be filed, 
notwithstanding the fact that this gentleman who wanted to 
develop some land on the coast knew ahead of time that there 
were restrictions on that development. So I am suggesting that 
I think there are some serious takings questions, and I would 
be prepared, not today, to develop those more fully.
    Mr. Gillmor. Thank you. Let me ask Mr. Berlekamp, this is 
an area that is not directly related but somewhat related to 
the legislation we are dealing with today on interstate waste. 
But that is the matter of flow control. Do you have any 
comments on why you think flow control is important and how it 
might relate to the problem of interstate waste?
    Mr. Berlekamp. Mr. Chairman, I think it goes more to the 
root of local control than just flow control. I think that the 
issue that stands before us today is that this is a diverse and 
fluid environment that both public and private sector operate 
within. And, historically, we have known, and flow control has 
been on the table for years and years and years, that public 
sector goes forward not only like private sector, which private 
sector having an integrated system has the ability most of the 
time to flow control to its own facilities automatically. Most 
public sector facilities are not totally integrated and put up 
capacity and incinerators to ensure disposal capacity for 
public sector citizens, and are caught short once that bondage 
is put out.
    So I think serious consideration, which I think you are 
well aware in Ohio, which I think is really an optimum State in 
this. And I am proud of being from Ohio and what we have in 
solid waste management. I believe our director emphasized that 
also, that the courts in Ohio have upheld flow control within 
the State boundaries but has not restricted interstate 
commerce, and I believe that is really an ultimate position to 
be in as a State.
    I believe we have taken a positive step forward in the 
State of Ohio to look futuristic to control even the out-of-
State waste issues through this local contract. So I believe 
flow control is but one tool, and I think that it is important 
tool and should be available to those that want to exercise it.
    Mr. Gillmor. Thank you. Let me ask Mr. Woodham, does your 
facility have a host community agreement?
    Mr. Woodham. Yes.
    Mr. Gillmor. Since you do, and H.R. 1213 would continue 
allow you to receive imports of out-of-State waste, do you 
think that under those circumstances H.R. 1213 is a bad 
situation for you in your particular instance?
    Mr. Woodham. I would hate to have restrictions. I feel like 
we have done a real good job in Lee County of putting together 
our contract and our situation with the landfill. Just as was 
stated earlier, I believe, where it is hard to go back and 
renegotiate, we just renegotiated with them to take over the 
hauling within the boundaries of Lee County, which is going to 
save us approximately, we estimate, around $300,000 a year. We 
feel like if we have--and I think that statement was made 
earlier--if we can maintain and keep a good working 
relationship with the landfill in the county, we can continue 
to make changes as we see. We know it is a bottom line issue 
with them, but we have had nothing but good praise for Allied 
Waste.
    Mr. Gillmor. The gentleman from New Jersey?
    Mr. Pallone. Mr. Woodham, did you mention what the volume 
of tons was permitted at the landfill or how much comes from 
out of State or where it comes from? Did you get into that? If 
not, would you tell us?
    Mr. Woodham. All right. Would you repeat that, I am sorry?
    Mr. Pallone. Well, in other words, what is the volume 
permitted at the landfill, and does it come from out of State 
and where does it come from?
    Mr. Woodham. Well, our volumes are dictated by the Solid 
Waste Disposal Act in the State of South Carolina. I think 
there is a total tonnage, and I think it is around a million 
tons per fiscal year that is allowed to go into that facility. 
So the State of South Carolina does have caps on how much can 
go in. It might be 1.3 million I believe is the total. As I 
stated, they completely rebuilt the rail system in Lee County, 
and----
    Mr. Pallone. No, I mean but does it come from out of State 
or where does it come from?
    Mr. Woodham. I would say we have gotten approximately 
three-fifths comes from out of State.
    Mr. Pallone. And all over the place or----
    Mr. Woodham. Well, it is coming in by rail, I think, from 
the Northeast, and we have got North Carolina; it is coming 
from there. And then the other waste is coming from throughout 
the State of South Carolina.
    Mr. Pallone. Okay. Well, again, I have to say I mean I--
obviously, each town does what it wants, but--or each county, 
but my own experience--I mean my district--well, first of all, 
I should say New Jersey has more superfund and hazardous waste 
sites than any other State. And my district has more than any 
other district in the State. And we have got landfills for 
municipal garbage that years ago New Jersey used to take all 
this stuff, mostly from New York. And the problems that have 
existed ever since they have been closed is just incredible. I 
mean I have probably spent a good percentage of my time down 
here and back home trying to figure out what to do.
    And so I mean I am always worried that even though it 
sounds very good now, what happens later when it closes? And I 
think you addressed the fact--I think you mentioned, Mr. 
Woodham, what procedures exist for closure and cleanup in the 
future or the size of the bond, financial bond. You mentioned 
that, I think, right?
    Mr. Woodham. Well, there is--the State requires the 
closure. You have to have the closure planned and everything in 
place, and then there is a fiscal responsibility as far as the 
bond, and it takes----
    Mr. Pallone. And where was that? Did you mention the 
financial bond or what?
    Mr. Woodham. No, I don't think I did.
    Mr. Pallone. And I was going to ask the same question of 
everybody else. In other words, if you would--you know, the 
amount of the financial bond that would ensure the proper 
closure and what plans are in place for the future in terms of 
any environmental contamination. I would ask Mr. Rogers that or 
anybody else who wanted to answer that as it applies to them. 
Mr. Woodham can start on that.
    Mr. Woodham. We don't--I did not list that. But one thing 
that I have noticed that was brought to our attention earlier, 
we have a real good water source in Lee County, so everyone was 
extremely concerned about groundwater contamination. One thing 
that we picked up at the facility got online you have what is 
called an upstream and a downstream well. And on an inspection 
on an upstream well, there were some high Ph contents. And what 
they found out was they owned the land around the landfill. 
They were renting it to farmers, and they were putting in too 
much when they were liming the soil, so they got in touch with 
them and made sure that they were liming the land when they 
shouldn't be. We picked that up on the upstream side. We went 
on the downstream side and checked the wells there; we didn't 
have the problem. So we had a benefit there. We found out we 
are farmers. We are not doing what they should have been doing. 
So I would say that was a benefit for us right there.
    Mr. Pallone. If each of you could just tell me what the 
amount of the financial bond is to ensure proper closure of the 
landfill or landfills and address any future environmental 
contamination. If you don't have it, if you can't tell me now, 
maybe you can get it to us in writing. But I would like to hear 
from some of you. Maybe you don't have the specific figure 
about the financial bond, but could you get back to us with 
that in writing?
    Mr. Ervin Rogers. I will have to do it from memory, but 
what I remember about the contract is that as a facility grows 
there is a certain amount of money set aside to cover closure, 
up to $10 million. And as I recall, the cap of the bond is--or 
the money set aside for closure is $10 million. There has 
always been questions as to whether $10 million would be 
adequate for closure or to cover any kind of environmental 
contamination that might occur.
    Mr. Parker. Thank you, Mr. Pallone. I don't operate a 
landfill, but I am a lawyer--a reformed lawyer; I don't 
practice anymore.
    Mr. Pallone. Reformed lawyer?
    Mr. Parker. Right. But I was general counsel of this 
organization, so I was fairly active when the financial 
insurance regulations were passed, so I would just add the 
following: That the financial insurance regulations, which is 
part of 258 of the subtitle D regulations, require every 
facility to insure for both closure and post-closure care for 
30 years. And as I understand it, there is no set amount. It 
depends upon a formula that every landfill has to determine. 
Some landfills have more of a financial insurance than the 
other, based upon the size, the air space, what is left. But on 
a regular basis, these facility owners and operators are 
required to update their financial assurance and notify the 
region or U.S. EPA.
    I would also like to say with regard to New Jersey, and I 
understand New Jersey has had horrendous superfund problems, 
and correct me if I am wrong--you certainly know better than I 
do--but I think New Jersey is not atypical of many States. The 
problems in New Jersey with the landfills were their earlier 
pre-subtitle D facilities that were co-disposal facilities that 
there were no records on.
    Mr. Pallone. Well, there is no question that the situation 
has changed, and a lot of them existed at a time when there was 
almost no environmental protection taking place. But we still 
have some that were strictly municipal garbage that are causing 
problems too, so it is not that they were all hazardous waste 
sites. Many of them were supposedly just municipal. But, no, I 
understand. I mean maybe our problems are different, but I am 
just using it as a word of caution for the future. Did you want 
to say something, Mr. Berlekamp?
    Mr. Berlekamp. Yes. Through the Chair, Congressman Pallone. 
Ohio is very much the same way, and our director is here if he 
disagrees with this. But it is based on size, capacity. It is 
not a set figure. It depends on the size of the facility. You 
do have the 30 years. We did close a landfill under the current 
law in my old district for waste management, and like they 
said, any time within that 30 years if there is an 
environmental impact, it re-triggers another 30 years. So by 
the time you get through this process, I don't know if I will 
live through the time at any of these landfills. But we run 
into the problem we have run out of security, and that is the 
same guarantee as life is, I think.
    I mean I have got two landfills in my current environment 
that the owners--it was an old strip mine county, and so they 
dumped trash in the strip mines, and then they walked away from 
it, and we don't know what is in there at this point in time, 
and the landowners have died. And so who is responsible at this 
point in time? We know what the law says, but is it real in 
recuperating it? That becomes the real question on down through 
the 30 years and the 30 years. Who is going to stand up to it? 
So I think every effort has been made very honestly between 
public and private to put much assurance on that closure as 
they can, but there is no guarantees in life.
    Mr. Pallone. A real concern, too, would be--I know the time 
is out--that you have a small county or, I guess, Mr. Woodham 
said, what, 22,000 people, and then a big mega landfill. And 
then what happens, obviously, he is confident that they are 
doing what they have to do, but you always worry about what the 
consequences are, if there is a huge cleanup operation that is 
necessary. But you said you were going to get back to us with 
whatever the financial bond is. Thank you, Mr. Chairman.
    Mr. Gillmor. There being no further questions, I want to 
thank the witnesses from panel three for being here. We 
appreciate your experience and your insight. And I also want to 
recognize the extra efforts that some of you have made to be 
here today. We very much appreciate that.
    At this point, I would like to ask unanimous consent that 
the hearing record remain open for written questions to all of 
the panelists for 10 days, as well as for member statements. 
There being objection, so ordered, and the hearing is 
concluded.
    [Whereupon, at 2:01 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]
    [GRAPHIC] [TIFF OMITTED] T4852.031
    
    [GRAPHIC] [TIFF OMITTED] T4852.032
    
    [GRAPHIC] [TIFF OMITTED] T4852.033
    
    [GRAPHIC] [TIFF OMITTED] T4852.034
    
    [GRAPHIC] [TIFF OMITTED] T4852.035
    
    [GRAPHIC] [TIFF OMITTED] T4852.036
    
    [GRAPHIC] [TIFF OMITTED] T4852.037
    
    [GRAPHIC] [TIFF OMITTED] T4852.038
    
    [GRAPHIC] [TIFF OMITTED] T4852.039
    
    [GRAPHIC] [TIFF OMITTED] T4852.040
    
    [GRAPHIC] [TIFF OMITTED] T4852.041
    
    [GRAPHIC] [TIFF OMITTED] T4852.042
    
    [GRAPHIC] [TIFF OMITTED] T4852.043
    
    [GRAPHIC] [TIFF OMITTED] T4852.044
    
    [GRAPHIC] [TIFF OMITTED] T4852.045
    
    [GRAPHIC] [TIFF OMITTED] T4852.046
    
    [GRAPHIC] [TIFF OMITTED] T4852.047
    

</pre></body></html>
